U.S. DEPARTMENT OF JUSTICE
  AUDIT OF THE NATIONAL
  INSTITUTE OF JUSTICE’S
 PRACTICES FOR AWARDING
  GRANTS AND CONTRACTS
   IN FISCAL YEARS 2005
       THROUGH 2007

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 09-38
           September 2009
                The National Institute of Justice’s
           Practices for Awarding Grants and Contracts
                in Fiscal Years 2005 through 2007

                             EXECUTIVE SUMMARY

      The National Institute of Justice (NIJ), a bureau within the Department
of Justice’s Office of Justice Programs (OJP), performs research,
development, and evaluation of crime control and justice issues. The NIJ
also funds technology research and development primarily through grants,
cooperative agreements, contracts, and other funding mechanisms. 1

      In an explanatory statement accompanying the 2008 Appropriations
Act, Congress directed the Office of the Inspector General (OIG) to audit
competitive NIJ programs, projects, and activities, including contracts and
grants, awarded in the last three fiscal years to determine whether these
grants and contracts were awarded through a fair and open competitive
process. In response, the OIG initiated this audit to: (1) evaluate whether
competitive NIJ grants and contracts awarded in fiscal years (FY) 2005
through 2007 were awarded based on fair and open processes;
(2) determine whether non-competitive NIJ grants and contracts awarded in
those fiscal years were properly justified; and (3) identify costs related to
NIJ grants and contracts that were administrative in nature and explain how
those costs were determined. 2 We performed audit work at the NIJ
headquarters in Washington, D.C., from March 2008 through July 2009.

     To accomplish our objectives, we first obtained data from OJP that
showed from FYs 2005 through 2007 the NIJ awarded:

       •   1,459 grants and grant supplements totaling more than
           $567 million, and



       1
          The NIJ awards both grants and cooperative agreements when the principal
purpose of the relationship between the NIJ and the recipient is the transfer of money or
anything of value to the eligible recipient. The NIJ uses a cooperative agreement when
substantial involvement is anticipated between the NIJ and the recipient during performance
of the funded activity. When such substantial involvement is not anticipated, the NIJ uses a
grant as the funding instrument. In this report we refer to both cooperative agreement and
grant awards as grants.
       2
         While our audit work concentrated on the NIJ’s grant and contract awards in
FYs 2005 through 2007, we expanded our testing to awards made outside this time period
as necessary to fully explore the NIJ’s competitive award practices.


                                             i
       •   131 contract actions totaling more than $64 million. 3

      Exhibit 1 illustrates NIJ grant and contract awards over the 3-year
period of our review.

Exhibit 1: FY 2005 through FY 2007 NIJ Grant and Contract Awards

    $250,000,000
                      $201,812,437
                       514 Awards      $183,040,179         $182,514,908
    $200,000,000                        494 Awards           451 Awards


    $150,000,000
                                                                                   Grants
    $100,000,000                                                                   Contracts


      $50,000,000              $16,719,470          $25,701,058      $21,870,164
                                41 Awards            45 Awards        45 Awards

                 $0
                         FY 2005             FY 2006              FY 2007

  Source: Office of Justice Programs

      Next, we judgmentally selected a sample of the NIJ grant and contract
awards for testing. We tested each sampled grant and contract to
determine if the: (1) awards were properly advertised to potential
awardees, (2) grant applications and contract proposals were adequately
evaluated against the grant or contract award criteria, (3) award decisions
and bases for the awards were adequately documented, and (4) award
processes were free of any actual or potential conflict of interest issues.

     We also analyzed all competitive grant and contract awards during the
3-year audit period to identify the administrative costs associated with the
awards and to explain how those costs were determined.




       3
          The universe of contracts provided to us by OJP identified 406 transactions as
contract awards totaling more than $71 million. We determined that 233 of the
transactions, totaling $1,112,690, were actually not contract awards, but were transactions
for travel and other reimbursements. Therefore, we excluded these 233 transactions from
our review. In addition, we excluded an additional 42 transactions totaling $6,047,870 that
were for agreements such as interagency agreements, intergovernmental agreements, and
intergovernmental personnel agreements.


                                               ii
Results in Brief

       Overall, for the grant awards we tested, deficiencies in administrative
practices and controls did not allow OJP and the NIJ to demonstrate that
grant award practices were based on fair and open competition. The NIJ did
not maintain adequate pre-award records to document that its grant award
process ensured a fair and open competition. In addition, we identified
instances where NIJ staff involved in the grant award process had potential
conflicts of interest with grantees receiving awards, but nevertheless
participated in the approval process for the grants in question. We also
found that the NIJ’s grant application review process, including initial
program office reviews, peer reviews, documentation of program office
recommendations, and documentation of NIJ Director selections, raised
concerns about the fairness and openness of the competition process. In
addition, we found that the NIJ did not have knowledge of grantees’ lobbying
activities when making the award decisions because NIJ grantees and sub-
grantees did not fully disclose lobbying activities that were potentially
related to the NIJ grants or sub-grants.

      For the non-competitive grants we tested, the NIJ usually did not
document the basis for non-competitively awarding discretionary grant
funds. We also found instances where the NIJ improperly directed a grantee
to use a specific organization to perform sub-grantee work without
documenting the basis for directing that the work be non-competitively
awarded to the organization.

      For the competitive contract awards we tested, we found that certain
aspects of the award process, such as approved requisitions, certifications of
fund availability, and conflict of interest forms, were not consistently
documented for the awards. For the non-competitive contract awards we
tested, we found that the NIJ did not adequately justify the sole-source basis
for some awards. As a result, the NIJ could not demonstrate that these
contract awards were properly exempt from the competitive process
required by government contracting regulations.

       We also attempted to identify costs related to NIJ grants and contracts
that were administrative in nature to examine how those costs were
determined. However, we were not able to do this for all of the 1,459 grants
listed on the grant universe listing provided by OJP. We found that 2 of the
1,459 grants were adjusting accounting entries and not actual grant awards
for the period we reviewed. For 57 of the remaining 1,457 NIJ grants
awarded during FYs 2005 through 2007, the grant budgets maintained in the
OJP’s Grants Management System (GMS) did not match the grant award
amounts. Without the final budgets, we were unable to determine the


                                      iii
administrative costs for these 57 grants. For the remaining 1,400 grants,
we reviewed the final grant budgets and determined the administrative costs
for the grants totaled about $64.1 million, or about 12 percent of the
$551 million awarded for these grants. We found that 812 of the
1,400 grants had no administrative costs, while the administrative costs for
the remaining 588 grants ranged from 0.03 to 65.65 percent of the total
grant award amounts.

     For 130 of the 131 contracts awarded by NIJ during FYs 2005 through
2007, we determined the administrative costs totaled about $990,000, or
about 1.5 percent of the $64 million awarded for these contracts. The
administrative costs were not readily identifiable for the other contract. We
found that 86 of the 130 contracts had no administrative costs, while the
administrative costs for the remaining 44 contracts ranged from 0.02 to
41 percent of the total contract award amounts.

       In this report, we make nine recommendations to help improve the
NIJ’s grant and contract award processes and to ensure that grant and
contract awards are based on fair and open competition or adequately
justified when making the awards on a non-competitive basis.

      Our report contains detailed information on the full results of our
review of the NIJ’s grant and contract award processes. The remaining
sections of this Executive Summary explain in more detail our audit findings.

Background on the NIJ’s Grant and Contract Award Processes

       The NIJ’s process for awarding grants and cooperative agreements
generally begins with the issuance of a solicitation that describes the
purpose of available funding, the eligibility requirements to apply for the
funding, and the criteria for evaluating eligible applications. During
FYs 2005 through 2007, the NIJ released about 40 solicitations annually,
each of which pertained to a narrow range of research. The focus of NIJ’s
solicitations varies from year to year based on research priorities and
available funding.

      Proposals received are reviewed by independent peer review panels
organized by NIJ that are comprised of subject-matter experts from
academia, industry, and government organizations, along with practitioners
from federal, state, and local agencies. The peer review panel reviews the
proposals to identify strengths and weaknesses and to make
recommendations on whether the applications should be given further
consideration for funding. The peer review panel recommendations are
advisory and are used by the NIJ Program Managers in evaluating proposals


                                      iv
and by the NIJ Director in making final award decisions. After the peer
review, NIJ Program Managers recommend individual proposals to the NIJ
Director, who makes final award decisions. The NIJ Director reviews and
approves all solicitations, grants, cooperative agreements, and contracts.
Annual awards include initial awards and supplements to previous awards.

      Funding is available through discretionary grants that may be awarded
either competitively or non-competitively, and through the use of non-
discretionary congressional earmarks and formula grants that are awarded
non-competitively. Available discretionary funds are announced in the
Federal Register or through program solicitations publicized on OJP’s website
or on the grants.gov website. 4 Generally, discretionary grants are awarded
on a competitive basis to public and private agencies and private non-profit
organizations. However, certain discretionary programs may be awarded on
a non-competitive basis. According to data provided by the NIJ, about
60 percent of the NIJ grant awards during FYs 2005 through 2007 were
either wholly or partially awarded on a competitive basis.

      The NIJ purchases goods and services, such as DNA testing,
conference management, and grant management support through contracts
awarded either competitively or non-competitively. The requirements for
competing acquisitions, and documenting the bases for non-competitive
acquisitions, are contained in the Federal Acquisition Regulation and depend
on variables such as the amount of the contract award and type of contract
used.

Audit Findings

      This audit report contains three findings related to the NIJ’s
competitive award practices, the NIJ’s non-competitive award practices, and
the administrative costs included in grants and contracts. Details of each
finding are discussed in the following sections.

Finding 1 – Competitive Award Practices

     The first finding discusses the NIJ’s processes and practices for
awarding competitive grants and contracts. The following sections detail our
concerns related to these competitive processes and practices.




       4
         Grants.gov is a website managed by the Department of Health and Human
Services that contains information about finding and applying for federal grant programs.



                                             v
       Grant Award Processes and Practices

     We judgmentally sampled 15 competitive grants out of the
874 competitive grants awarded by the NIJ during FYs 2005 through
2007 and analyzed the actions taken by NIJ to award the grants. The
15 competitive grants resulted from 10 solicitations that produced
315 applications. 5 Based on our review of the 315 applications, we
determined that the NIJ:

       •   did not maintain adequate pre-award records to allow us to fully
           assess whether awards were based on fair and open competition;

       •   did not adequately address the appearance of conflicts of interest
           for program managers and management personnel involved in the
           award process; and

       •   grant application review process, including initial program office
           reviews, peer reviews, documentation of program office
           recommendations, and documentation of NIJ Director selections,
           raised concerns about the fairness and openness of the competition
           process.

      We concluded that for the grants we tested deficiencies in
administrative practices and controls did not allow the NIJ to demonstrate
that grant award practices were based on fair and open competition.

       Pre-award Records

      The NIJ did not comply with documentation requirements for
pre-award grant files and thus could not demonstrate that grant awards
were based on fair and open competition. Federal agencies are required by
44 U.S.C. § 31 to maintain adequate and proper documentation of the
organization, functions, policies, decisions, procedures, and essential
transactions of the agency. OJP’s internal guidance also requires that
records be maintained of pre-award activity related to grant applications,
such as the application or proposal, evaluation papers, notes,
recommendations for award, letters of denial, and related papers and
correspondence.

       5
           One of the 10 solicitations included 2 parts for separate grant awards for the NIJ’s
Office of Science and Technology (OST) and the NIJ’s Office of Research and Evaluation
(ORE). The OST applications under this one solicitation followed a separate peer review
process than did the ORE applications. Therefore, for analysis purposes, we considered the
solicitation as 2 separate solicitations and we evaluated the peer review process for the
11 solicitations.


                                               vi
        NIJ grant managers are required to perform an initial review of
applications to ensure the information presented is reasonable,
understandable, measurable, and achievable, as well as consistent with
program or legislative requirements and agency objectives. We interviewed
NIJ grant managers and determined that case files were not created which
would demonstrate that the applications had been properly evaluated.
Instead, it was left up to individual NIJ grant managers to maintain required
pre-award documentation. We found that grant managers kept different
documentation pertaining to the pre-award activity, with some managers
keeping most of the documentation, others keeping little, and still others
had left the NIJ and any files they may have had could not be found.

       A centralized file containing limited pre-award records (such as the
application) was maintained electronically in GMS. For unsuccessful
applications, the GMS also contained a statement that the application was
not selected for award. However, pre-award application reviews were often
recorded by a simple mark in the GMS or in summary format with little or no
narrative support for the review. Moreover, neither the NIJ nor its
contractors that managed the peer review process maintained copies of all
denial letters sent to rejected grant applicants. In addition, records related
to individual peer reviewer evaluations were not maintained, and no
evidence existed to show whether the individual peer reviewers agreed with
the peer review consensus reports summarizing their comments. Thus, we
concluded that neither the grant files that we reviewed nor GMS contained
sufficient information to support that grants were awarded based on fair and
open competition.

      OJP had established grant award guidance in its Grant Manager’s
Manual, but the manual does not identify essential pre-award records that
should be maintained in the grant files or in GMS to demonstrate fair and
open competition. Consequently, the official record in the grant files and in
GMS was not adequate to show that applications were reviewed without bias
and that grant awards were based on fair and open competition.

      Management of Conflicts of Interest Between Employees’ Official
Duties and their Private Financial Interests

       Pursuant to law and regulation, federal employees are prohibited from
participating in any matter in which they have a financial interest. In
addition to an employee's own financial interest, certain interests are
imputed to the employee, such as those of his or her spouse, minor children
and business partners. However, an employee may participate in such a
matter if they have received a waiver from their employing agency.



                                      vii
      In order to help avoid conflicts between employees’ financial interests
and the conduct of their official duties, employees are required on an annual
basis to submit financial disclosure forms to their supervisors. The
supervisors are required to review and certify these forms and to use this
information to help ensure that employees are not assigned to matters that
pose a conflict or potential conflict between their official duties and their
personal financial interests.

       In the course of our review, we examined NIJ’s procedures for
reviewing employee financial disclosure forms and to avoid conflicts or
potential conflicts with employees’ official duties. We determined that in
several instances NIJ failed to consult with the appropriate ethics officials
about potential conflicts between employees’ reported financial interests and
their official duties, and accordingly did not always gather or consider all the
facts necessary to make a determination about whether a conflict existed
and, if so, whether a waiver was appropriate under the circumstances.

       For calendar years 2005 through 2007, we reviewed 189 financial
disclosure forms submitted by 96 staff members employed by the NIJ. We
found that 24 staff members reported on 47 forms financial interests in
organizations that routinely receive grants from the NIJ. For example,
several staff members reported that their spouses were employed by
organizations that received NIJ grants. We compared this information to the
pre-award grant activities in GMS for the 24 staff members and found that
6 of the staff members approved grant applications for organizations in
which they reported having a financial interest. We further found that
although their supervisors were aware of these potential conflicts, they failed
to consult with officials from OJP’s Office of General Counsel regarding them
or to follow-up with the employees to gather the information necessary to
determine whether a conflict existed and, if so, whether a waiver should
have been obtained.

      Application Review Process

        The NIJ’s application review process was not adequate to ensure fair
and open competition. We identified issues in the: (1) program office’s
initial review of grant applications, (2) process used to peer review grant
applications, (3) program office’s review of grant applications after the peer
review process was completed, and (4) Director’s approval process.

      During the program office’s initial review of grant applications, grant
applications were sometimes rejected as being incomplete, non-responsive
to the solicitation, or duplicates of other applications submitted. For rejected



                                      viii
applications, the reasons for rejection shown in the GMS did not always
match the reasons shown in the rejection letter and other documentation.

     We identified issues with the NIJ’s peer review process that raised
concerns about the fairness of the competitive award process, such as:

       •   peer reviewers selected to evaluate applications were not on the
           NIJ Director’s approved list of peer reviewers as required;

       •   the NIJ did not maintain required forms identifying peer reviewers’
           conflicts of interest with applicants; and

       •   contrary to OJP policy, peer reviewers were allowed to participate in
           the review process even after identifying conflicts of interest with
           applicants.

       We are also concerned that the NIJ did not maintain individual peer
review comments and did not maintain evidence to demonstrate that
individual peer reviewers agreed with the peer review consensus-reports.
While this is in accordance with OJP policy, we believe that such
documentation should be maintained to demonstrate that an appropriate
and fair process was followed.

      For 11 solicitations that we reviewed, 293 of the 315 applications
received passed the program office’s initial application review and were
subjected to the peer review process. The NIJ selected more than 122 peer
reviewers to evaluate the 293 applications. 6 However, we determined that
13 of these peer reviewers selected for 4 of the 11 solicitations were not on
the Director’s approved list of peer reviewers for the solicitation. According
to an NIJ official, peer reviewers sometimes do not appear on the Director's
approved list because the originally selected reviewers drop out at the last
minute and replacement reviewers have to be chosen. The NIJ official
stated that the approval for the replacement reviewers may be verbal or by
e-mail, but the NIJ did not provide us any e-mail approvals for the
13 reviewers not on the Director’s approved list. Moreover, for 5 of the
11 solicitations we could not determine if the 49 peer reviewers selected
were on the Director’s approved list because the NIJ could not provide the
Director’s approved list.

     As part of the peer review process, each peer reviewer was required to
complete and submit a Disclosure of Conflict of Interest form disclosing

       6
         For one solicitation, two peer review panels were established but the NIJ could not
provide documentation to show the number of peer reviewers on one of the two panels.


                                             ix
potential conflicts with the proposals they were assigned to review. The NIJ
could not provide documentation to show that all of the selected peer
reviewers for nine solicitations had completed the required forms. For three
of the nine solicitations, the NIJ did not maintain documentation to show
that any of the assigned peer reviewers had completed and submitted the
conflict of interest forms. For three other solicitations, documented
disclosure forms were not available for more than half of the assigned peer
reviewers. For the remaining three solicitations, disclosure forms were
maintained for all but one of the assigned peer reviewers. In total,
documented disclosure forms were not available for 67 of the
122 (55 percent) assigned peer reviewers for the 11 solicitations we
reviewed. NIJ officials stated that it was the responsibility of the NIJ’s peer
review contractor to maintain the disclosure forms, but the contractor was
unable to produce the 67 missing forms. Because the forms were missing,
we were unable to determine if the 67 peer reviewers had conflicts that
could have impaired their ability to evaluate the applications fairly.

       For the 55 peer reviewers for which the NIJ maintained the disclosure
forms, we found that 3 identified potential conflicts. For example, for one
solicitation a peer reviewer reported that she had a collaborative relationship
with two applicants within the last 3 years. Contrary to OJP’s peer review
guidelines, we found no evidence that this reviewer was removed from the
panel that rated these applicants. For another solicitation, a peer reviewer
reported that he was or recently had been employed by an applicant that
submitted a proposal for this solicitation. Again, contrary to OJP’s
guidelines, we found that the reviewer still participated on the panel by
reviewing, providing comments, and scoring the applicant's proposal.

      In addition, we found three other peer reviewers who did not:
(1) annotate the Disclosure of Conflict of Interest form to show whether they
had a conflict or (2) check the statement that “I do not have a conflict with
any of the proposals assigned to the panel on which I served.” We found no
documentation to show that the discrepancy for these three reviewers was
resolved and we were not able to determine if these three individuals had
any conflicts of interests with the proposals assigned to them to review.

       A selected number of peer reviewers are assigned to a panel to review
applications. Each peer reviewer assesses each application separately to
identify strengths and weaknesses and to make recommendations for
additional consideration of the application. Reviewers prepare individual
comments and then discuss the applications with other panel members.
After discussion, the lead peer reviewer prepares a consensus-report
showing the panels’ ratings and recommendations of the applications.
However, in accordance with OJP policy, the NIJ did not retain the peer


                                       x
reviewers’ individual comments. In addition, only the lead reviewer signed
the peer review consensus report. We did not attempt to contact external
peer reviewers to determine if the reviewers’ ratings and recommendations
were consistent with the consensus reports. However, we believe that either
the individual peer reviewer comments should be maintained or all peer
reviewers should sign the consensus report to demonstrate that the peer
review consensus reports present the views of the individual peer reviewers.

       Program office recommendations for funding sometimes differed from
the peer review recommendations. For the 293 applications that were peer
reviewed for the 11 solicitations we analyzed, we compared the program
office’s recommendations to the peer review recommendations and found
that the recommendations were not consistent for 22 of the
293 applications. For 20 of these 22 applications, the peer panel
recommended the applications for funding, but the program office
recommended against funding. For the remaining two applications, the peer
panel recommended against funding the applications, but the program office
recommended the applications for funding. The program office documented
reasons for the differences for only 2 of the 22 applications, and in both
instances we considered the reasons valid. For the remaining
20 applications, we could not assess the fairness of the process because the
program office did not adequately document its reasons for rejecting the
peer review recommendation. 7

      For our sample applications, we also compared the NIJ Director’s
selections to the program office’s recommendations and the peer review
recommendations. We found that the Director’s selections were consistent
with the recommendations of the program office for 292 of the
293 applications. For the one application, the Director denied an application
the program office and peer review panel had recommended for funding.
We could not assess whether the reasons for the differing recommendations
negatively affected the fairness of the process because the Director did not
document the basis for his denial.

      We also found that the Director’s selections were not consistent with
the peer reviewer panel recommendations for 26 of the 293 applications as
explained below. For 4 of 26 applications, the NIJ Director selected
applications for funding that the peer review panel recommended against
funding. For the remaining 22 applications, the NIJ Director denied
applications recommended by the peer review panel for funding. As
discussed above, for 1 of the 22 applications, the program office also

      7
        As previously explained, the peer review recommendations are advisory and the
Program Managers and the NIJ Director are not required to follow the recommendations.


                                           xi
recommended the application for funding. The NIJ Director documented the
reasons why his selections differed from the peer panel recommendations for
2 of the 26 applications. For the other 24 applications, we could not assess
the decisions because the Director did not document the basis for his
selection.

      In our judgment, circumstances may justify award decisions that differ
from program office or peer review panel recommendations. However, it is
important to document the basis for such award selections to ensure the
integrity and transparency of the competitive award process.

      In May 2008, after the award period we tested, the Associate Attorney
General directed the OJP Assistant Attorney General to document all
discretionary funding recommendations and decisions. This new policy
stemmed from problems identified with the OJP’s Office of Juvenile Justice
and Delinquency Prevention grants documents in an April 2009 OIG audit
report. 8 Under the Associate Attorney General’s policy, future award
recommendations memoranda must:

       •   contain a list of all applications received that includes the lowest
           scoring application funded as well as every application scoring
           higher, regardless of whether it was selected for funding;

       •   briefly explain why a listed application was not recommended for
           funding; and

       •   only categorize selections by categories published in the original
           program solicitation.

      In developing these new requirements, the Associate Attorney General
was concerned that OJP and other Department of Justice components did not
always make or maintain the records necessary to justify award selections.
The Associate Attorney General issued the policy in part to ensure that OJP
documents its reasons for selecting certain proposals over others. The
policy continues to allow OJP bureaus and program offices discretion when
awarding competitive grants. However, the policy also requires each bureau
or program office to list reasons for not funding proposals with high-ranking
peer review scores.




       8
          Department of Justice, Office of the Inspector General, Procedures Used by the
Office of Juvenile Justice and Delinquency Prevention to Award Discretionary Grants in
Fiscal Year 2007, Audit Report Number 09-24, April 2009.


                                            xii
      OJP now requires each bureau or program office to provide reasons
when low scoring applications are recommended over higher-scoring ones.
The new policy requiring justification of award recommendations addresses
the concerns we have about documenting the award decisions. Therefore,
we make no recommendation regarding justifications for the NIJ Director’s
award selections.

     Contract Award Processes and Practices

      In addition to our analysis of competitive grant awards, we analyzed
the actions taken by the NIJ and OJP to award 27 competitive contract
actions that consisted of 51 individual transactions. We found that most of
the 27 contract actions were based on fair and open competitive procedures
as required. However, we noted problems among individual transactions for
some areas tested as follows.

     •   The contract files for 3 of the 51 transactions totaling $418,992 did
         not contain an approved requisition and evidence that the
         availability of funds was certified prior to the acquisition. An OJP
         official stated that the required requisitions and fund certifications
         were likely completed but could not be located in the contract files.

     •   For 15 transactions, Conflict of Interest and Non-disclosure
         Statements were not obtained from proposal evaluators.

      The missing requisitions and fund certifications for three contract
awards had minimal effect on our review because we noted other
information in the contract files that indicated these awards were subjected
to adequate review prior to award. However, without the Conflict of Interest
and Non-disclosure Statement for individuals involved in evaluating
proposals for 15 of the contract award transactions, NIJ cannot document
that the evaluators were free of bias when evaluating the proposals.

     Lobbying Activities

       We found that NIJ grantees were involved in lobbying activities
potentially related to their NIJ grants, but they did not disclose such
activities to the NIJ before being awarded the grants. Guidelines require
that grantees and sub-grantees certify to the NIJ that they had not and
would not use appropriated funds to lobby for their NIJ grant. Also, if the
grantees or sub-grantees use non-appropriated funds to lobby for NIJ
grants, they are required to report such activity to the NIJ. We believe the
NIJ should consider these lobbying activities before deciding to make awards
to the grantees.


                                      xiii
       For 39 of the 40 grants we sampled, grantees submitted the required
certification form to the NIJ indicating that they had not and would not use
appropriated funds to pay any person for influencing or attempting to
influence an officer or employee of any agency, a member of Congress, an
officer or employee of Congress, or an employee of a member of Congress in
connection with their NIJ grant. However, we found that 13 of the
18 grantees awarded the 40 grants we sampled were involved in lobbying
activities potentially related to their NIJ grants but did not submit the
required disclosure form to the NIJ indicating that they had used
non-appropriated funds to pay for lobbying activities related to their NIJ
grant awards. NIJ managers told us that it was left up to the grantees to
submit the required lobbying disclosure forms. The managers also told us
that the NIJ did not have procedures to identify whether the potential
grantees engaged in lobbying activities that needed to be disclosed before
awards were made. While we did not contact the grantees to confirm the
lobbying activities were specifically related to the NIJ grants they received,
we believe the NIJ should establish such procedures before making future
awards.

       We determined that for 22 of the 40 grants we sampled the grantees
used 99 sub-grantees to help carry out their grants. None of the 99 sub-
grantees had certified to the NIJ that they had not and would not use
appropriated funds to lobby for NIJ grants. We found that 15 of these
sub-grantees were involved in lobbying activities apparently related to the
NIJ grants they were supporting. However, the 15 sub-grantees had also
not submitted the required disclosure form through the grantee to the NIJ
indicating that they had used non-appropriated funds to pay for lobbying
activities related to their NIJ grant awards. As stated above, we did not
attempt to contact the sub-grantees to confirm the lobbying activities were
specifically related to their NIJ grants, but we believe the NIJ should do so
before making future awards.

      Program Oversight

     According to OJP, the OJP’s Office of Audit, Assessment, and
Management (OAAM) was established by the DOJ Reauthorization Act
enacted in January 2006, and its missions include ensuring financial grant
compliance and auditing of OJP’s internal controls to prevent waste, fraud,
and abuse; conducting programmatic assessments of DOJ grant programs;
and acting as a central source for grant management policy.

      The OAAM began operation in FY 2007. The OAAM has three divisions:
(1) the Audit and Review Division, (2) the Grant Management Division, and
(3) the Program Assessment Division. Officials from the Audit and Review


                                      xiv
Division and the Grant Management Division told us that any evaluation of
the NIJ’s processes for awarding grants and contracts would be the
responsibility of the Program Assessment Division. We interviewed the
Deputy Director of the Program Assessment Division, who told us that the
Division has focused on the monitoring of grants and has not reviewed the
NIJ process for awarding grants and contracts. In view of the deficiencies
we noted in the NIJ’s processes for awarding grants and contracts, we
believe that OAAM should periodically review the NIJ’s processes for
awarding grants and contracts to ensure that NIJ grants are awarded based
on fair and open competition.

Finding 2 – Non-competitive Award Practices

      This finding discusses the NIJ’s processes and practices for awarding
and documenting non-competitive grants and contracts. The following
sections detail our concerns related to these non-competitive processes and
practices.

      Grant Award Processes and Practices

        We reviewed 669 non-competitively awarded grants made during
FYs 2005 through 2007 and determined that the files for 498 (74 percent) of
the awarded grants had sufficient justification for making the award while
the files for 171 awards (26 percent) of the awarded grants did not. The
498 grant awards for which there was sufficient justification for using a
non-competitive award were based on either: (1) formula awards in which
all eligible applicants were invited to apply and all eligible applicants that
applied were awarded a grant based on a congressionally approved formula,
(2) pre-established dollar amounts per DNA sample analyzed and all eligible
applicants were invited to apply for these awards and all eligible applicants
that applied were awarded a grant, or (3) congressionally directed funding
(earmarks) stipulated for award to specified grantees. For the remaining
171 awards, we asked NIJ officials if they documented the basis for
awarding the grants non-competitively. The officials told us that the bases
for these award decisions were not documented, and were usually made
during meetings between program office officials and the NIJ Director, with
the final award decision at the discretion of the NIJ Director.

      Beginning in FY 2008, OJP began requiring a memorandum
documenting the reasons for non-competitive grant awards. The
memorandum is sent from the NIJ Director through the OJP’s Deputy
Assistant Attorney General for Operations and Management to the head of
OJP for approval. We reviewed a recent memorandum and found that it
contained weak explanations regarding the need for non-competitive


                                      xv
awards. An OST official told us that the NIJ has not developed procedures or
guidance on what constitutes a reasonable basis for awarding a grant non-
competitively. While we believe that OST’s use of the memorandum to
document the justification for awarding grants non-competitively is a
positive step, additional guidance and procedures for justifying non-
competitive grant awards is needed to improve the documentation and to
ensure that awards are appropriately justified.

      In addition to the awards we sampled, NIJ made a series of grant and
sub-grant awards non-competitively and without documented justifications
or to a lobbying firm that appeared to have significant conflicts of interest
related to the work funded. The details surrounding these non-competitive
awards are discussed in the following section.

      Smith Alling Lane Awards

      On July 8, 2002, the NIJ awarded a non-competitive
$153,914 cooperative agreement to Smith Alling Lane located in Tacoma,
Washington, to conduct a comprehensive survey to develop data for
analyzing the effect of expanding DNA legislation on solving and preventing
crimes. The NIJ prepared a sole-source justification for the award that cited
the following:

      •   Smith Alling Lane was the only organization in the country that had
          been systematically monitoring and synthesizing federal and state
          DNA policy issues since the first major congressional DNA
          legislation was enacted in 1994.

      •   Smith Alling Lane had committed resources to maintaining regular
          correspondence and discussions with almost every crime laboratory
          in the country, and consequently it was uniquely poised to fully
          survey the impact that existing and future legislative or policy
          activity would have on forensic DNA laboratories, law enforcement
          agencies, and courts.

      •   The NIJ required a very short turn-around time for in-depth data
          collection and analysis, and Smith Alling Lane was the only
          organization that could begin the project immediately without
          requiring time for start-up logistics.

      •   Smith Alling Lane’s working relationships with law enforcement
          agencies and crime laboratories would ensure easy access to key
          decision makers, which would augment the quality and quantity of
          data to ensure that the NIJ’s needs are met.


                                      xvi
       While the bases for the sole-source justification appear reasonable, we
found no documentation that supported how the NIJ reached its decision.
Less than 3 months later, on September 30, 2002, the NIJ awarded Smith
Alling Lane a non-competitive $53,403 supplement to the original
cooperative agreement and a second non-competitive supplement of
$78,209 in September 2003. For both supplements, the NIJ used the same
sole-source justification as for the initial award. Because of the lack of
support for the original sole-source justification, we could not confirm that
the bases for the sole-source and supplemental awards to Smith Alling Lane
were reasonable. Apart from the lack of documentation, as discussed below
the awards raise concerns because it appears that Smith Alling Lane lacked
independence to perform the study funded by the grant and this raises
questions about the validity of the study conclusions.

       Since 2000, on behalf of various clients including NIJ grantees, Smith
Alling Lane has lobbied Congress and the Department of Justice on
legislation and policies related to DNA issues. Some of Smith Alling Lane’s
clients likely benefited from these lobbying efforts when Congress enacted
legislation in FY 2000 and FYs 2002 through 2006 providing more funding for
DNA-related analysis and research, and the Department of Justice’s NIJ
awarded grants and contracts to Smith Alling Lane’s clients to perform
DNA-related work.

       Under its July 2002 agreement with NIJ, Smith Alling Lane completed
a study to: (1) estimate the numbers of unsolved cases of homicides, rapes,
and property crimes in the United States; (2) estimate the backlog
anticipated if DNA testing was applied to those unsolved cases; and
(3) assess the impact that such testing might have on law enforcement and
crime laboratory capacity. The study was designed to provide data to NIJ
and Congress to help guide future policies and legislation related to DNA
testing. Because Smith Alling Lane’s clients could significantly benefit from
additional funding for more DNA testing, Smith Alling Lane’s independence in
performing the study is suspect. While we do not question the study results,
the appearance of a conflict of interest exists given Smith Alling Lane’s
connections with clients who would personally benefit from additional
funding for DNA testing.

      National Forensic Science Technology Center Awards

      From FY 2000 through FY 2006, the NIJ non-competitively awarded
three cooperative agreements to the National Forensic Science Technology
Center (NFSTC) located in Largo, Florida, to perform various tasks such as:
(1) expanding the range and scope of services the center offers to forensic


                                     xvii
laboratories; (2) developing and maintaining a program linking audits of
DNA forensic laboratories to a separate grant-program assessment system;
and (3) supporting various meetings, projects, and workshops to support the
forensic science needs of state and local crime laboratories. In total, the NIJ
awarded the NFSTC $34,202,675 under the 3 agreements and corresponding
10 supplements. We found that $20,914,071 of the $34,202,675 was
awarded based on congressional earmarks, and the NIJ awarded these funds
non-competitively. According to an NIJ official, the congressional earmarks
were the sole NIJ source of funding for the NFSTC between 2000 and 2003.
The official said that earmarks continued to provide a substantial portion of
NFSTC’s funding through 2006. However, for the remaining $13,288,604 we
found no evidence that the NIJ competed the awards or prepared a
necessary sole source justification before selecting the NFSTC.

      The NIJ program manager responsible for the management and
oversight of the cooperative agreements confirmed to us that the
cooperative agreements to the NFSTC were non-competitively awarded and
that there were no documented justifications for the sole-source selection of
the NFSTC. The program manager told us that a former NIJ Division Chief
decided that the NFSTC had successfully “demonstrated” itself in prior work
for the NIJ, and had the resources and infrastructure in place to handle most
any request. The Division Chief apparently decided to recommend awarding
the agreements non-competitively to the NFSTC.

      We interviewed the former Division Chief regarding the selection of
NFSTC for work under the cooperative agreements. She confirmed to us
that no written justifications for the sole source selection of the NFSTC were
prepared for the cooperative agreements. However, the former Division
Chief told us that the awards were discussed through the NIJ chain of
command before any decisions were made. The former Division Chief told
us that the NFSTC was awarded the agreements non-competitively because
it: (1) had contacts in the science community, (2) was recognized and well
regarded by the state and local laboratory community, and (3) had the
resources and infrastructure needed to complete the work based on work
under previous NIJ earmarked awards to the NFSTC.

       In addition to making these non-competitive awards without
justifications, we found that for two of the agreements the NIJ improperly
directed the NFSTC to use Smith Alling Lane to perform work under the
agreements without preparing a justification for such a non-competitive
selection. Under one agreement, Smith Alling Lane performed work related
to content development support for the DNA.gov website. For the other
agreement, Smith Alling Lane performed DNA backlog related work.



                                     xviii
       The program manager told us that the former Division Chief directed
him to require the NFSTC to use Smith Alling Lane as a condition of the two
agreements. However, the former Division Chief told us she had no
recollection of the events that led to Smith Alling Lane being directed to
perform the DNA.gov related work. She added that Smith Alling Lane was
the likely candidate for this work because the firm was recognized for its
legislative DNA expertise and was the most knowledgeable DNA group. She
also said that Smith Alling Lane was the logical choice to perform the DNA
backlog study because prior to passage of the President’s DNA initiative,
Smith Alling Lane had surveyed crime laboratories on the status of DNA
backlogs and had obtained 100 percent participation from the laboratories.
As a result, according to the former Division Chief, Smith Alling Lane:
(1) had developed a quality survey instrument, (2) had established contacts
and relationships within the laboratories, and (3) was highly thought of in
the DNA community.

     Relationships Between the NIJ and the NFSTC

       During the audit, we became aware of multiple relationships between
NIJ and NFSTC officials that create the appearance of conflicts of interest.
The NFSTC, a not-for-profit corporation primarily funded by cooperative
agreements with the NIJ, provides programs that build individual
competency and systems for the forensic science community in the United
States. The relationships we examined included the NIJ hiring key officials
from the NFSTC for temporary assignments to manage and oversee NIJ
grant programs. These hirings, known as Intergovernmental Personnel Act
(IPA) assignments, involve the temporary assignment of employees to or
from state and local governments, institutions of higher education, indian
tribal governments, and other organizations that are intended to facilitate
cooperation between the federal government and the non-federal entity.

       Under one IPA assignment, the NIJ hired the then Deputy Executive
Director for the NFSTC for the period July 1, 2003, through June 30, 2004.
After the IPA assignment expired, this NFSTC manager returned to the
NFSTC where he currently serves as the Executive Director. During his IPA
tenure, the NFSTC manager served as the key management official in the
Investigative and Forensic Sciences Division within the NIJ’s Office of
Science and Technology.

      The then NFSTC Deputy Executive Director told us that while he
worked at the NIJ he was “walled off” from activities involving the NFSTC.
NIJ officials also told us that the NFSTC manager did not work on NFSTC-
related activities while he worked at the NIJ. However, we found that the
manager participated in NFSTC-related activities during his IPA assignment


                                     xix
with the NIJ. Just days after his IPA assignment began, an application on
behalf of the NFSTC for a supplement to its 2000 cooperative agreement
with the NIJ was submitted from the NFSTC GMS account established by the
NFSTC manager. The manager was not identified on the application either
as the person to contact on matters involving the application or as the
NFSTC’s authorized representative. About a month and a half before his IPA
assignment expired, another application was submitted for the NFSTC from
the GMS account established by the NFSTC manager. On this application,
the manager was shown as the person to contact on matters involving the
application and as the NFSTC’s authorized representative.

      Since the beginning of the then NFSTC Deputy Executive Director’s NIJ
assignment through July 2009, the NIJ awarded the NFSTC more than
$45 million, much of which was awarded non-competitively and without the
required sole-source justification, as previously discussed. By allowing the
NFSTC manager to manage the planning of scientific and technological
research in the field of criminal investigation and forensic sciences,
especially when such research involves the same type research activities for
which the NFSTC receives grant funding from the NIJ, we believe the NIJ has
created a clear appearance of a conflict of interest.

       Under another IPA, the NIJ hired an NFSTC program manager for the
period October 1, 2006, through September 30, 2007. The program
manager’s duties at the NIJ included designing and implementing
operational plans to execute activities of the NIJ’s Office of Science and
Technology. The program manager also provided programmatic oversight to
grantees, contractors, and peers in cooperative agreements, grants, and
contracts conducted or funded by the Office of Science and Technology. We
did not identify any evidence in GMS to indicate that the program manager
participated in any activities involving the NFSTC while working for the NIJ.
However, we believe that allowing key officials for the NFSTC to be
temporarily assigned to the NIJ to perform planning activities and grant
oversight work for the same NIJ office that awards and oversees grants to
the NFSTC creates a clear appearance of a conflict of interest.

     Contract Award Processes and Practices

      In addition to reviewing the NIJ’s non-competitive award process for
grants, we also analyzed the actions taken by the NIJ and OJP to award
seven non-competitive contract actions. The 7 non-competitive contract
actions consisted of 11 individual transactions, such as task orders, task
order modifications, base contract awards, or contract modifications. We
found that the non-competitive justifications were adequate for the sampled



                                     xx
contract actions except for the instances that are discussed in the following
paragraphs.

       One sampled contract action for $33,778 consisted of two
modifications in 2006 to a contract originally issued in 2003. The
2003 contract was non-competitively awarded to bridge the gap between an
expiring contract and the follow-on competitive contracts. The bridge
contract was awarded for a 3-month period, and contained an option for a
3-month extension, if necessary. The contracting officer prepared a
justification for other-than-full-and-open-competition for the bridge contract
that contained the minimum requirements required by the FAR, except for a
description of the supplies or services required to meet the agency’s needs.
However, we believe that the reasons cited by the contracting officer did not
justify the basis for the sole-source award because the justification did not
provide important details to explain why the new contracts were not ready
for award before the current contract expired. These details are crucial
because the FAR clearly indicates that lack of adequate planning is not a
valid basis for limiting competition.

       Two other sampled contract actions totaled $10,868,131 and consisted
of five individual transactions, including a base task order and four
modifications. The contract involved systems engineering and technical
assistance services such as program and technical management, program
planning and oversight, technical evaluation, risk mitigation, database
development and management, and other technical support for technology
programs. For the base task order, the non-competitive justification in the
contract file did not explain the circumstances of why the task order was
necessary given delays in the award of another contract action.

Finding 3 – Administrative Costs

       Congress directed that we identify the administrative costs included in
the NIJ’s grants and contracts awarded during FYs 2005 through 2007. To
identify the administrative costs, we reviewed the: (1) grant files contained
in GMS for the 1,459 NIJ grants awarded during the period, and (2) contract
files for the 131 contracts awarded during the period.

      Based on Office of Management and Budget guidelines, we considered
indirect costs, both overhead and general and administrative (G&A)
expenses, to constitute administrative costs for both grants and contracts.
Indirect costs are costs identified with two or more projects or activities.
The cost of operating and maintaining facilities, depreciation, and
administrative salaries are examples of the types of costs that are usually
treated as indirect. G&A expenses represent the cost of activities that are


                                      xxi
necessary to the overall operation of the business as a whole, but for which
a direct relationship to any particular project cannot be shown. G&A
includes the top management functions for executive control and direction
over all personnel, departments, facilities, and activities of the contractor.

       We examined the 1,459 NIJ grants on the grant universe listing
provided by the OJP and found that 2 grants were actually adjusting
accounting entries and not grant awards during the period we reviewed.
Therefore we excluded the two grants from this review. The grant budgets
contained in GMS did not match the grant award amounts for 57 (4 percent)
of the remaining 1,457 grants. While some of the budgets for the 57 grants
identified administrative costs, we could not determine whether these
administrative costs were correct without the final approved budget that
matched the grant award amount. It is also essential that the final approved
budgets be maintained in the grant files so that future grant monitoring
activities can measure performance against the approved budgets.

       Our review of the remaining 1,400 grant files found that the
administrative costs for the grants totaled $64,092,600, or about 12 percent
of the $551,035,127 awarded for these grants. Of the 1,400 grants,
812 (58 percent) contained no administrative costs. For the remaining
588 grants (42 percent), we found that the administrative costs ranged from
0.03 to 65.65 percent of the total grant award amounts. We determined
that for each of the 588 grants that identified administrative costs, the
administrative costs were determined by the grantees and included in the
grantees’ grant budgets submitted to the NIJ. While the administrative cost
percentage for some grants appeared high, administrative costs can vary
significantly based on factors such as the type, size, and location of the
organization; age of facilities and equipment; and purpose of the grant.
According to an NIJ official, NIJ officials reviewed the administrative costs in
the budgets for reasonableness before NIJ made the awards.

       We reviewed the contract files for the 131 NIJ contracts awarded
during FYs 2005 through 2007 and determined that the administrative costs
were identifiable for all but 1 contract. We found that the administrative
costs for the 130 contracts totaled $990,383, or about 1.5 percent of the
$64,049,454 awarded for these contracts. We found that 86 of the contracts
contained no administrative costs. For the remaining 44 contracts, the
administrative costs ranged from 0.02 to 41 percent of the total contract
award amounts. We determined that for each of the 44 contracts that
identified administrative costs, the administrative costs were determined by
the contractors and included in the contractors’ proposals. As explained for
grants, the administrative cost percentages can vary significantly based on
various factors. According to a contracting office official, NIJ reviewed the


                                      xxii
administrative costs in the proposals during the contract award process to
make sure they were reasonable and in accordance with approved indirect
cost-rate agreements.

Conclusion and Recommendations

      Because it lacked policies that required detailed documentation of
award decision making be maintained in application files, the NIJ could not
support that the 15 competitively awarded grants between FY 2005 and
FY 2007 that we tested were based on fair and open competition. The
appearance of less than full and open competition was exacerbated when
potential conflicts of interest among the NIJ’s staff were not properly
reported or addressed by the NIJ.

      Further, problems with the NIJ’s grant application review process, peer
reviews, documentation of program office recommendations, and
documentation of NIJ Director selections raised concerns about the fairness
and openness of NIJ’s competitive grant-making process.

      In contrast to grant awards, most of the NIJ contract awards we tested
appeared to be based on fair and open competition. However,
improvements could be made in the documentation for some of the contract
award processes and in ensuring proposal evaluators complete the Conflict
of Interest and Non-disclosure Statement before being allowed to evaluate
contract proposals.

      The documentation for the NIJ’s non-competitive awards for
discretionary grant funds was consistently poor. While the OJP’s and NIJ’s
management of non-competitive contracts was substantially better than its
management of non-competitive grants, the basis for some non-competitive
contract awards was not properly documented.

      With respect to our congressional directive to identify administrative
costs for NIJ grants and contracts, we found that, overall, the administrative
costs for grants and contracts totaled about 12 percent and 1.5 percent,
respectively, of the total amounts awarded for grants and contracts. While
the percentage of administrative costs for some grants and contracts
appeared high, we recognize those costs can vary significantly from
organization to organization. We did not attempt to verify the
reasonableness of administrative costs for individual grants and contracts,
because such verification was beyond the scope of this review and would
have required conducting detailed audits of individual grants and contracts
with high administrative costs.



                                     xxiii
      We made nine recommendations for improving the NIJ’s grant and
contract award practices to ensure fair and open competition, which include:

     •   establishing procedures to ensure that key aspects of the pre-award
         and award process for grants and cooperative agreements are
         documented, with special attention to: (1) identifying and
         remedying any actual conflicts of interest or the appearance of
         conflicts of interest among agency staff involved in the pre-award
         evaluation process; (2) maintaining Disclosure of Conflicts of
         Interest forms for peer reviewers selected to review grant
         applications and ensuring that peer reviewers are not allowed to
         participate when they identify conflicts of interest; (3) maintaining
         individual peer review comments or evidence that the peer
         reviewers agree with the peer review consensus report; and
         (4) ensuring that the reasons for denying applications are
         accurately recorded in GMS and that copies of rejection letters sent
         to rejected applicants are maintained;

     •   establishing procedures to ensure that the required lobbying
         disclosure forms are submitted for all grantees, sub-grantees, and
         contractors and that the disclosures are considered when evaluating
         applications for award;

     •   requiring the NIJ to document the basis for non-competitive grant
         awards and issue guidelines for what constitutes a reasonable basis
         for making non-competitive grant awards;

     •   requiring the NIJ to document the basis for requiring grantees to
         use specific sub-grantees to perform work related to the grants;

     •   ensuring that justifications for non-competitive contract awards
         fully explain the circumstances that led to the sole-source awards;
         and

     •   ensuring that the final approved grant budgets for formula grants
         are maintained in GMS and that the budgets match the amount of
         funds awarded to the grantees.




                                    xxiv
                                  TABLE OF CONTENTS

                                                                                              Page

INTRODUCTION ..............................................................................         1
  Awards Process .............................................................................      2
  Prior Audits...................................................................................   5
  OIG Audit Objectives and Approach .................................................               5

FINDINGS AND RECOMMENDATIONS..............................................                          8

   1. COMPETITIVE GRANT AND CONTRACT AWARD PRACTICES ...                                            8

   Grant Awards Process ....................................................................         8
   NIJ Grant Awards during FYs 2005 through 2007...............................                      9
   Selection of Grant Awards to Test for Adequacy of Competition ...........                        10
   Adequacy of Competition for Grant Awards .......................................                 10
   Summary of Grant Analyses ...........................................................            31
   Competition Requirements for Contract Awards .................................                   32
   NIJ Contract Awards during FYs 2005 through 2007 ..........................                      33
   Selection of Contract Awards to Test for Adequacy of Competition .......                         35
   Adequacy of Competition for Contract Awards ...................................                  36
   Lobbying Activities.........................................................................     37
   Program Oversight ........................................................................       40
   Recommendations .........................................................................        41

   2. NON-COMPETITIVE GRANT AND CONTRACT AWARD
      PRACTICES ........................................................................... 43

   Requirements for Non-competitive Grant Awards...............................                     43
   NIJ Non-competitive Grant Awards ..................................................              44
   Adequacy of Justifications for Non-competitive Grant Awards ..............                       44
   Requirements for Non-competitive Contract Awards ..........................                      56
   NIJ Non-competitive Contract Awards ..............................................               57
   Adequacy of Justifications for Non-competitive Contract Awards ..........                        57
   Recommendations .........................................................................        59

   3. ADMINISTRATIVE COSTS FOR GRANTS AND CONTRACTS ....... 60

   Administrative Costs for Grants ....................................................... 62
   Administrative Costs for Contracts ................................................... 64
   Recommendation .......................................................................... 65
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 66

STATEMENT ON INTERNAL CONTROLS ............................................ 67

ACRONYMS ..................................................................................... 68

APPENDIX I:             Audit Objectives, Scope, and Methodology .......... 69

APPENDIX II:            Administrative Costs for Grant Awards During
                        FY 2005 through FY 2007 .................................... 75

APPENDIX III:           Differences in Award Amounts in Grant
                        Universe Data Provided by the NIJ for Grants
                        Awarded During FY 2005 through FY 2007 ......... 122

APPENDIX IV:            Grants Where Budget and Award Amounts
                        Differed in GMS for Grants Awarded During
                        FY 2005 through FY 2007 ................................... 128

APPENDIX V:             Administrative Costs for Contract Awards
                        During FY 2005 through FY 2007........................ 132

APPENDIX VI:            Items or Services Requiring Special Approval .... 137

APPENDIX VII:           Grantees that Received NIJ Grants for Purposes
                        Potentially Related to Issues Lobbied by the
                        Grantees ............................................................. 138

APPENDIX VIII: Sub-grantees that Received Sub-grants from
               NIJ Grantees for Purposes Potentially Related
               to Issues Lobbied by the Sub-grantees .............. 145

APPENDIX IX:            Office of Justice Programs’ Response to the
                        Draft Audit Report .............................................. 153

APPENDIX X:             Office of the Inspector General Analysis and
                        Summary of Actions Necessary to Close the
                        Report ................................................................ 160
                            INTRODUCTION

      The National Institute of Law Enforcement and Criminal Justice was
established under the Omnibus Crime Control and Safe Streets Act of
1968, as a component of the Law Enforcement Assistance Administration. In
1978, it was renamed the National Institute of Justice (NIJ). The NIJ is a
bureau within the Office of Justice Programs (OJP) and serves as the
research, development, and evaluation agency of the Department of Justice.

      The NIJ focuses on advancing law enforcement and corrections
technology, as well as criminology, criminal justice, and related social
science research. Much of this research is facilitated by providing grants and
contracts to academic institutions, non-profit research organizations, and
other entities.

     The NIJ has two operating offices: the Office of Research and
Evaluation (ORE) and the Office of Science and Technology (OST). Our audit
encompassed grants and contracts made by each office.

       The ORE develops, conducts, directs, and supervises research and
evaluation activities primarily through grants administered by its three
divisions: the Crime Control and Prevention Division, the Justice Systems
Research Division, and the Violence and Victimization Division.

       The OST manages technology and forensic science research and
development, and provides technology assistance to state and local law
enforcement and corrections agencies primarily through grants administered
by its three divisions: the Investigative and Forensic Sciences Division, the
Information and Sensor Technologies Division, and the Operational
Technologies Division.

      Exhibit 2 on the following page shows the organizational structure of
the NIJ.




                                      1
                    Exhibit 2: NIJ Organizational Structure




                  Source: National Institute of Justice website

       The NIJ often forms partnerships with other federal agencies, scientific
and academic institutions and experts, law enforcement and corrections
agencies, and professional organizations. Such joint ventures are intended
to bring together the best minds, experience, and resources to explore
emerging technologies, evaluate programs, develop standards, facilitate
research, and disseminate findings. One of the primary mechanisms
through which the NIJ accomplishes its mission is through a network of
regional technology assistance centers known as the National Law
Enforcement and Corrections Technology Centers (NLECTC). The NLECTC
are recipients of a significant portion of the NIJ’s annual awards of grants
and cooperative agreements.

Awards Process

      The NIJ’s processes for awarding grants and contracts are explained in
the following sections.




                                         2
Grant Awards

       The NIJ funds technology research and development primarily through
grants, cooperative agreements, and other funding mechanisms. 9 NIJ
funding is intended to stimulate and direct researchers to develop
technologies and tools to meet the specific needs of the nation's public
safety agencies. Annually, the NIJ typically releases about 40 solicitations,
each of which focus on a narrow range of research. The focus of NIJ's
solicitations varies from year to year based on research priorities and
available funding.

      Proposals received in response to an NIJ solicitation are reviewed by
independent peer review panels comprised of subject-matter experts from
academia, industry, and government organizations, along with practitioners
from federal, state, and local agencies. The peer review panel reviews the
proposals to identify strengths and weaknesses and to make
recommendations on whether the applications should be given further
consideration for funding. Once the peer reviewers have completed their
evaluations, NIJ Program Managers recommend individual proposals to the
NIJ Director, who makes final award decisions. 10 The NIJ Director reviews
and approves all solicitations, grants, and cooperative agreements. Annual
awards include initial awards and supplements to previous awards.

      Funding is awarded through discretionary grants that may be awarded
either competitively or non-competitively, and through non-discretionary
congressional earmarks and formula grants that are awarded
non-competitively. Available discretionary grant funds are announced
through program solicitations publicized on OJP’s website or on the
Grants.gov website. 11 Generally, discretionary grants are awarded on a
competitive basis to public and private agencies and private non-profit
organizations. However, certain discretionary programs may be awarded on
a non-competitive basis. According to data provided by the NIJ, about


       9
          Grants and cooperative agreements differ based on the involvement between the
NIJ and the recipient of federal funds. The NIJ uses a cooperative agreement when
substantial involvement is anticipated between the NIJ and the recipient during performance
of the activity funded. When such substantial involvement is not anticipated, NIJ uses a
grant as the funding instrument.
       10
           The peer review panel recommendations are advisory and are used by the NIJ
Program Managers in evaluating proposals and by the NIJ Director in making final award
decisions.

       11
          Grants.gov is a website managed by the Department of Health and Human
Services that contains information about finding and applying for federal grant programs.


                                             3
60 percent of the NIJ grant awards during FYs 2005 through 2007 were
either wholly or partially awarded on a competitive basis.

      Congressional earmarks are funds directed by Congress to be used for
specific projects or programs outside the Executive Branch’s merit-based or
competitive award processes. An earmark may specify the location or
recipient, or otherwise direct the Executive Branch in critical aspects of the
award process.

      Formula grants are primarily awarded to state and local governments
or to agencies in each state designated by the governor. Formula grants are
based on a predetermined formula, such as a jurisdiction's crime rate,
population, or other factors. The formula is usually provided in the
appropriation language or accompanying congressional conference report.
The states are generally required to pass awards to local agencies and
organizations through sub-grants.

        The Federal Grant and Cooperative Agreement Act of 1977
encourages competition when federal agencies award grants. Discretionary
grants may range from single awards for research, evaluation, and technical
assistance to multi-site awards for program development. OJP’s Grant
Manager’s Manual requires that non-competitive sub-grants exceeding
$100,000 be properly justified and that the basis for not competing the
award be approved by the Grants Financial Management Division in OJP’s
Office of the Chief Financial Officer.

Contract Awards

       The NIJ funds purchases of goods and services such as DNA testing,
conference management, and grant management support, through contracts
awarded either competitively or non-competitively. The requirements either
for competing acquisitions or for documenting the bases for non-competitive
acquisitions are contained in the Federal Acquisition Regulation, and are
dependent on variables such as the amount of the contract award and type
of contract used. The specific requirements for competing acquisitions and
documenting the bases for non-competitive acquisitions are discussed later
in this report.




                                      4
Prior Audits

      We found no previous audits by the Department of Justice Office of the
Inspector General (OIG) or the Government Accountability Office (GAO) that
reported on the NIJ’s grant and contract award processes. 12

OIG Audit Objectives and Approach

     In the Joint Explanatory Statement to Accompany the Consolidated
Appropriations Act, 2008, Congress directed the OIG to evaluate the NIJ’s
competitive programs. Specifically, Congress directed the following:

       The OIG is directed to audit competitive National Institute
       of Justice programs, projects and activities, including
       contracts and grants, awarded in the last three fiscal
       years. The audit shall examine whether these grants and
       contracts were awarded through a fair and open
       competitive process. The audit shall identify costs related
       to any grant or contract that are administrative in nature
       and provide a detailed breakout of how those costs were
       determined.

     In response to the directive, the OIG initiated this audit, which
examined grants and contracts awarded by NIJ in fiscal years (FY) 2005
through 2007. We performed audit work at the NIJ headquarters in
Washington, D.C., from March 2008 through July 2009.

     To accomplish our purpose, we first obtained data from OJP that
showed from FYs 2005 through 2007 the NIJ awarded:

       •    1,459 grants and grant supplements totaling more than
            $567 million, 13 and

       •    131 contract actions totaling more than $64 million. 14

       12
           In April 2009, the OIG issued an audit report on the procedures used by OJP’s
Office of Juvenile Justice and Delinquency Prevention to award discretionary grants in
FY 2007. The audit found similar problems as noted in this report, such as making non-
competitive awards without adequate justifications and making award recommendations
and decisions without adequate justifications.
       13
          The NIJ awards both grants and cooperative agreements when the principal
purpose of the relationship between the NIJ and the recipient is the transfer of money or
anything of value to the eligible recipient to accomplish the public purpose of support as
authorized by federal statute. In this report we refer to both cooperative agreement and
grant awards as grants.


                                              5
     Exhibit 3 illustrates the extent of grant and contract awards over the
3-year period.

Exhibit 3: FY 2005 through FY 2007 NIJ Grant and Contract Awards

    $250,000,000
                      $201,812,437
                       514 Awards      $183,040,179        $182,514,908
    $200,000,000                        494 Awards          451 Awards


    $150,000,000
                                                                                  Grants
    $100,000,000                                                                  Contracts


      $50,000,000              $16,719,470         $25,701,058      $21,870,164
                                41 Awards           45 Awards        45 Awards

                 $0
                         FY 2005             FY 2006             FY 2007

  Source: Office of Justice Programs

     Next, we judgmentally selected a sample of the NIJ grant and contract
awards for testing. We tested each sampled grant and contract to
determine if the:

       •    awards were properly advertised to potential awardees,

       •    grant applications and contract proposals were adequately
            evaluated against the grant or contract award criteria,

       •    award decisions and bases for the awards were adequately
            documented, and

       •    award processes were free of any actual or potential conflict of
            interest issues.


       14
           The universe of contracts provided to us by OJP identified 406 transactions as
contract awards totaling more than $71 million. We determined that 233 of the
transactions, totaling $1,112,690, were actually not contract awards, but were transactions
for travel and other reimbursements. Therefore, we excluded these 233 transactions from
our review. In addition, we excluded an additional 42 transactions, totaling $6,047,870,
that were for agreements such as interagency agreements, intergovernmental agreements,
and intergovernmental personnel agreements.


                                               6
      We also analyzed all grant and contract awards during the 3-year audit
period to identify the administrative costs associated with the awards and to
explain how those costs were determined. Appendix I contains further
details on our audit objectives, scope, and methodology.

       This report contains three sections of findings. The first finding
discusses the NIJ’s competitive contract and grant awards. The second
finding discusses the NIJ’s non-competitive contract and grant awards. The
third finding discusses the administrative costs related to NIJ contracts and
grants and explains how those costs were determined.




                                      7
              FINDINGS AND RECOMMENDATIONS

     1. COMPETITIVE GRANT AND CONTRACT AWARD
        PRACTICES

     For the grants we tested, OJP and the NIJ could not document
     that grant awards during FYs 2005 through 2007 were made
     based on fair and open competition because it did not maintain
     adequate pre-award records. In addition, NIJ managers did not
     properly address potential conflicts of interest among its staff
     involved in making award decisions. We also found a lack of
     documentation throughout NIJ’s grant application review
     process, including initial program office reviews, peer reviews,
     program office recommendations, and NIJ Director selections.
     The lack of documentation may leave the appearance that
     competition was not fair and open. For the contracts we tested,
     the OJP and NIJ generally made contract awards in a manner to
     ensure fair and open competition. However, even in some of
     these contract awards we found a lack of adequate
     documentation.

Grant Awards Process

      NIJ has a staff of program managers, assigned by division, who
oversee the various research projects. The process of awarding a grant
begins with a solicitation and ends with the award or denial of a grant,
through the following general stages.

     •   Development and posting of a solicitation – The program office
         starts with a need and constructs a plan to address this need. A
         program manager is assigned to lead in the development of a
         solicitation.

     •   Receipt of applications – Various interested organizations submit
         applications for grants based on proposed solutions for the need
         outlined in the solicitation.

     •   Review of applications by the Program Office – The program
         manager reviews the applications for responsiveness and to identify
         any problems including proposed purchases or activities that would
         not be allowed under the terms of the award.

     •   Peer review of applications resulting in a consensus review report –
         An OJP contractor manages the process for selecting a panel of


                                      8
          subject-matter experts to review applications to assess strengths
          and weaknesses and to make recommendations on whether the
          applications should be given further consideration for funding. The
          panelists prepare their individual evaluations in preparation for a
          face-to-face discussion among the peer review panel. The results
          of the panel discussion are recorded in the panel’s consensus
          review report. Peer reviewers are required to return to the OJP
          contractor or destroy proposals, evaluation forms, and other
          confidential materials at the conclusion of the review panel or after
          completing the consensus review reports.

      •   Program office recommendations – The Division Chief, program
          manager, and other NIJ personnel involved in the review of the
          applications for a solicitation meet to review the peer review
          recommendations and discuss the applications. Based on these
          discussions, the program office makes award recommendations to
          the NIJ Director.

      •   NIJ Director’s selection for awards – The program office
          recommendations and the peer review recommendations are
          discussed with the NIJ Director, and the Director makes the final
          award selection.

NIJ Grant Awards during FYs 2005 through 2007

      At the start of the audit, we requested that OJP or the NIJ provide us
with a listing of all NIJ grants awarded during FYs 2005 through 2007. In
response, the OJP provided us a report listing 1,459 NIJ grants and
cooperative agreements totaling more than $567 million during FYs 2005
through 2007 as shown in the following exhibit.

           Exhibit 4: NIJ Grants and Cooperative Agreements
                    Awarded During FYs 2005 - 2007

                    Fiscal      Number of           Amount
                     Year        Awards            Awarded
                    2005            514            $201,812,437
                    2006            494            $183,040,179
                    2007            451            $182,514,908
                    Total         1,459            $567,367,524
                 Source: Office of Justice Programs




                                       9
Selection of Grant Awards to Test for Adequacy of Competition

     To test whether the NIJ grant awards were awarded based on fair and
open competition, we judgmentally selected a sample of 40 of the
1,459 grants for testing as shown in the following exhibit.

           Exhibit 5: NIJ Grants and Cooperative Agreements
                        Selected for OIG Testing

                                         Number of          Amount
              Selection Basis          Awards Selected      Awarded
     Highest Award Amounts                   15             $22,740,917
     Lowest Award Amounts                     5                $126,303
     First Awards Made                        5              $2,098,363
     Last Awards Made                         5              $1,616,397
     Middle Awards Made                      10              $2,074,735
          Total Awards Sampled               40             $28,656,715
    Source: Office of Justice Programs

      We determined that of the 40 grant awards, 16 were awarded using
competitive procedures while 24 were awarded using non-competitive
procedures. Upon further examination of the 40 grant awards, we learned
that 1 of the 16 competitive awards was actually an accounting entry made
in 2005 to an earlier grant award. Since the adjusting entry was not actually
an award made in 2005, we excluded this grant from the grant universe and
our audit sample, leaving 39 sampled grants for testing. Our evaluation of
the adequacy of the competitive process used for the remaining
15 competitive awards is discussed in the following section. Our evaluation
of the adequacy of the non-competitive award justifications for the 24 non-
competitive awards is contained in Finding 2.

Adequacy of Competition for Grant Awards

      We analyzed the actions taken by the NIJ and OJP to award the
15 competitive grants sampled. The 15 competitive grants resulted from
10 solicitations that produced 315 applications. We tested the award
process for the 315 applications and found that deficiencies in administrative
practices and controls did not allow OJP and the NIJ to demonstrate that
grant award practices were based on fair and open competition. Specifically,
we found that the:

      •   OJP and the NIJ did not maintain a centralized file of pre-award
          records to support that grant awards were based on fair and open
          competition.




                                     10
      •   The appearance of conflicts of interest for program managers and
          management personnel was not adequately addressed by the NIJ.

      •   The NIJ’s grant application review process, including initial program
          office reviews, peer reviews, documentation of program office
          recommendations, and documentation of NIJ Director selections,
          raised concerns about the fairness and openness of the competition
          process.

Pre-award Records

        Federal agencies are required by 44 U.S.C. § 31 to maintain
adequate and proper documentation of the organization, functions, policies,
decisions, procedures, and essential transactions of the agency. Such
documentation is designed to protect the legal and financial rights of the
government and of persons directly affected by the agency's activities.

        To aid compliance with 44 U.S.C. § 31, OJP established the OJP
Handbook OJP HB 1330.2A containing its file maintenance and records
disposition policy. The policy specifies the types of records that should be
maintained in a case file for each grant application evaluated. The policy
states that records of pre-award activity related to grant applications should
include the application or proposal, evaluation papers, notes,
recommendations for award, letters of denial, and related papers and
correspondence. For withdrawn and rejected applications, the handbook
requires that the files be compiled through the end of the fiscal year in which
the action was completed and that the records be maintained for 2 years
and then retired to a records center. The files can be destroyed 5 years
after the file compilation cut-off date. For applications that result in the
award of a grant, the pre-award records should be filed in the appropriate
grant case file at the time the grant is awarded.

       We found that because the NIJ did not comply with documentation
requirements for pre-award files, it could not demonstrate that the grant
awards we reviewed were based on fair and open competition. When
applications are received at the NIJ, the grant manager performs an initial
review of the application for completeness to ensure that the information
presented is reasonable, understandable, measurable, and achievable, as
well as consistent with program or legislative requirements and agency
objectives. We interviewed NIJ grant managers and determined that case
files were not created for these initial evaluations of the applications.
Instead, it was left up to individual grant managers to maintain pre-award
documentation with little centralized guidance on what to maintain. We
found that different grant managers kept different documentation pertaining


                                       11
to the pre-award activity. Some managers kept most of the documentation,
others kept little, and others had left the NIJ and their files could not be
located.

        The only centralized file of pre-award records the NIJ maintained was
limited information in OJP’s Grants Management System (GMS). However,
we found that the GMS did not contain sufficient information to demonstrate
that NIJ awarded grants based on fair and open competition. The GMS
contains copies of the applications, and for unsuccessful applications, a
statement that the application was not selected for award. As applications
and statements of non-selection were entered into GMS, files were no longer
maintained in hardcopy format. Pre-award application reviews were often
recorded by a check mark in the electronic file or in summary format with
little or no narrative support for the review. For example, the program
manager’s review for completeness and the programmatic review of the
applicant’s eligibility and capability were supported by a summary statement
in GMS that such reviews had been accomplished, but no details were
provided in the GMS to show what the review included or what sources were
used in the review. In addition, as discussed later in this finding, records
related to individual peer reviewer evaluations were not maintained, and no
evidence existed to show the individual peer reviewers agreed with the peer
review consensus reports summarizing their comments.

      OJP’s Grant Manager’s Manual and the GMS place greater emphasis on
recording post-award management activities of grants rather than the
pre-award phase of the selection process. For example, the Grant Manager’s
manual requires the grant manager to maintain copies of the following
documents in the file for grant awards:

     •   Standard Form (SF) 424, Application for Federal Assistance

     •   Award document

     •   National Environmental Policy Act compliance documents

     •   Award letter

     •   Grant Manager's Memorandum

     •   Award special conditions

     •   Financial clearance memorandum (for discretionary grants only)

     •   Grant adjustments and back-up documentation, if any


                                     12
      •   SF 269, Quarterly Financial Reports

      •   Progress or Performance Reports

      •   Documentation on grant monitoring activities and reports

      •   Documentation on all contacts with the grantee

      •   Interim or final products

      Of these documents, only the grant application and the financial
clearance memorandum are pre-award records. All the other records relate
to the actual award or subsequent actions. The Grant Manager’s Manual
does not require specific documents to record the pre-award program office
reviews and the peer review results. The GMS audit trail tracks the progress
of the application through the review process, but provides no detail on the
evaluation conducted by NIJ at any stage of the pre-award process.
Because the GMS is accessible by applicants, the NIJ is reluctant to publish
detailed review results, particularly the identity of the peer reviewers, peer
reviewer individual comments, and any indication of rejection or award
success. Consequently, details of the pre-award activity are not maintained
in the GMS. As a result, the official record in the GMS that we reviewed was
not adequate to support that applications were reviewed without bias and
that grant awards were based on fair and open competition. OJP needs to
establish procedures to ensure that key aspects of the pre-award and award
process for grants and cooperative agreements are documented either in
GMS or in hardcopy grant files.

Management of Internal Conflicts of Interest

       Federal agencies are required by 5 C.F.R. §§ 2634 and 2635 to
perform a systematic review of the financial interests of officers and
employees to identify and remedy actual or potential conflicts of interest. To
identify conflicts, certain agency employees are required to complete a
confidential financial disclosure form that identifies financial-related
information for the employee and the employee’s spouse and dependent
children, including assets and income; liabilities; outside positions held;
agreements and arrangements, such as for a leave of absence or future
employment; gifts; and travel reimbursements. After completing the
financial disclosure reports, the employees submit the report to their
supervisors, who should review the information for actual or potential
conflicts with the employee’s official government duties.



                                      13
       According to 18 U.S.C. § 208, a federal employee cannot participate
personally and substantially in a particular matter, such as the approval of a
grant application, which will have a direct and predictable effect on the
employee’s financial interest or on the financial interest of the employee’s
spouse or an organization for which the employee serves as an officer or
director. In order to avoid criminal penalties, the employee must disclose
the financial interest to his supervisor and receive in advance a written
determination that the interest is not so substantial as to be deemed likely
to affect the integrity of the services which the government may expect from
such employee.

       In addition, pursuant to 5 C.F.R. § 2635.502, employees must take
appropriate steps to avoid an appearance of loss of impartiality in the
performance of their official duties. Where an employee knows that a
person with whom he has a “covered relationship” is or represents a party to
the matter, he should not participate in the matter without informing an
agency official and receiving authorization to participate. Included in the
definition of a “covered relationship” is a person for whom the employee’s
spouse serves as an employee, general partner, or attorney. An employee
may be authorized to participate in the matter if the agency designee
determines that the interest of the government in the employee’s
participation outweighs the concern that a reasonable person may question
the integrity of the agency’s programs and operations.

      OJP’s Office of General Counsel provided NIJ supervisors with guidance
on reviewing financial disclosure forms. This guidance required the
reviewers to determine whether any disclosures on the reports raise a
potential conflict with the filer’s official duties. The guidance instructed the
reviewers to contact the Office of General Counsel if any “potential” conflicts
were encountered in the reviews. The guidance included examples of the
types of conflicts or potential conflicts supervisors might encounter.

       We determined that in several instances NIJ supervisors were aware of
potential conflicts between employees’ reported financial interests and their
official duties but failed to consult with appropriate officials from the OJP
General Counsel’s office about the potential conflicts. As a result, the NIJ
supervisors did not consistently consider all the facts necessary to make a
determination about whether a conflict existed and, if so, whether a waiver
was appropriate under the circumstances.

      An OJP official provided us the financial disclosure forms for 96 staff
members employed by NIJ from calendar years 2005 through 2007. We
reviewed the 189 financial disclosure forms submitted by the 96 staff
members and found that 47 forms for 24 staff members indicated the staff


                                      14
members had financial interests in organizations that routinely receive
grants from the NIJ. We also obtained from the NIJ a listing from the GMS
showing the pre-award grant activities that the 24 staff members
participated in and the associated applicant organizations. By comparing the
financial interests identified on the financial disclosure forms to the pre-
award grant activities in the GMS for the 24 staff members, we determined
that 6 of the staff members approved grant applications during the same
year or the following year for organizations in which they reported having a
financial interest. In each of the six instances discussed below, the NIJ
official approved the applications while serving as a grant manager, program
manager, or branch chief, but the final decision to award the grants was the
responsibility of the NIJ Director.

      Instance 1: An NIJ official reported on his financial disclosure forms
for 2005 through 2007 that his wife worked for the National Forensic
Sciences Technology Center (NFSTC). 15 This official approved
12 applications between 2005 and 2008 that led to the award of more than
$33 million to the NFSTC as shown in Exhibit 6.




      15
          The NFSTC is a not-for-profit corporation primarily funded by cooperative
agreements with the NIJ and provides programs that build individual competency and
systems for the forensic science community in the United States. During FYs 2000 through
2008, the NIJ awarded the NFSTC cooperative agreements totaling more than $58 million.


                                           15
            Exhibit 6: Grant Awards to the NFSTC Approved by an
               NIJ Official Whose Wife Worked for the NFSTC
             Grant           Application     Grant          Type           Award
            Number            Approved     Awarded         Award          Amount
       2004-DN-BX-0079       03/30/05 16   09/19/05      Supplement      $5,728,286
       2006-MU-BX-K002        07/25/06     09/14/06        Initial       $4,951,379
       2006-MU-BX-K002       03/29/07 17   09/11/07      Supplement      $1,552,176
        2007-IJ-CX-K233       07/29/07     09/12/07        Initial       $1,000,000
        2007-IJ-CX-K023      06/27/07 18   09/11/07        Initial       $2,500,000
       2007-MU-BX-K008       07/20/07 19   09/14/07        Initial       $6,000,000
       2008-DN-BX-K186        07/28/08     09/11/08        Initial         $689,000
       2008-DN-BX-K073        07/24/08     09/11/08        Initial         $446,878
        2007-IJ-CX-K023       07/21/08     09/30/08      Supplement      $1,780,000
       2008-LT-BX-K002        07/21/08     09/12/08        Initial       $1,931,792
       2008-MU-MU-K003        07/30/08     09/30/08        Initial       $6,000,000
       2008-MU-MU-K212        07/30/08     09/30/08        Initial         $811,431
             Total                                                      $33,390,942
      Source: Office of Justice Programs’ data

       We interviewed the NIJ official’s supervisor who told us that he and the
official’s prior supervisor were aware that the official’s spouse was employed
by the NFSTC. The supervisor said that to avoid a conflict the prior
supervisor verbally instructed the official not to participate in decisions
relating to the specific grant associated with his wife’s employment. The
supervisor said that he believed that removing the NIJ official from decisions
concerning the specific grant related to his wife’s employment resolved the
conflict and allowed the official to otherwise act as the primary program
manager for the NIJ’s other grants to the NFSTC. However, the supervisor
told us that he did not discuss the situation with the OJP’s Office of General
Counsel or with higher-level management officials.

      We believe the official’s wife’s employment raised a potential conflict
for which the official’s supervisor should have requested advice from OJP’s
Office of General Counsel.


       16
         The NIJ official approved this application twice – once on March 30, 2005, as the
Grant Manager and again on July 21, 2005, as the Program Manager.

       17
          The NIJ official approved this application three times – once on
March 29, 2007, as the Grant Manager, and twice as the Program Manager on
July 25, 2007, and July 26, 2007.

       18
         The NIJ official approved this application twice – once on June 27, 2007, as the
Grant Manager and again on July 29, 2007, as the Branch Chief.

       19
         The NIJ official approved this application twice – once on July 20, 2007, as the
Grant Manager and again on July 26, 2007, as the Program Manager.


                                            16
      Instance 2: An NIJ Deputy Director who reported on his financial
disclosure forms for 2005 through 2007 that his wife was employed by the
Urban Institute approved five applications for the Urban Institute from
2005 through 2008 for awards of $1,897,292 as shown in Exhibit 7.

   Exhibit 7: Grant Awards to the Urban Institute Approved by an
    NIJ Official Whose Wife was Employed by the Urban Institute

            Grant           Application     Grant       Type        Award
           Number            Approved     Awarded      Award       Amount
       2005-IJ-CX-0039       07/27/05     09/21/05     Initial      $258,068
      2006-RP-BX-0040        07/26/06     09/12/06     Initial      $496,704
       2006-IJ-CX-0021       07/20/06     09/13/06     Initial      $246,597
      2003-DC-BX-1001        07/30/07     09/14/07   Supplement     $523,263
      2003-DC-BX-1001        08/13/08     09/18/08   Supplement     $372,660
            Total                                                 $1,897,292
     Source: Office of Justice Programs’ data

       We interviewed the Deputy Director’s supervisor who told us that the
Deputy Director’s wife’s relationship with the Urban Institute was well known
within the NIJ and that it was understood that the Deputy Director recused
himself from all funding-related discussions regarding the Urban Institute.
The supervisor told us he did not consider management actions on a project
after the funding decisions were made to be a conflict of interest. The
supervisor also stated that the information in the GMS record was not clear
as to what specific actions the Deputy Director approved for the Urban
Institute. However, the supervisor stated that based on the dates of those
approval actions he believed the actions had taken place after the funding
decisions had been made. The supervisor stated that he considered it
acceptable for the Deputy Director to assist in the process of finalizing grants
to the Urban Institute. The supervisor also told us that he had not discussed
the potential conflict with the Office of General Counsel.

       We believe the Deputy Director’s wife’s employment raised a potential
conflict for which the official’s supervisor should have requested assistance
from OJP’s Office of General Counsel as required by Office of General
Counsel’s guidance.

      Instance 3: An NIJ Branch Chief reported on his financial disclosure
forms for 2005 and 2006 that he received pension income from the
University of California school system. While receiving this pension income,
the Branch Chief approved four applications during 2005 and 2006 that led
to the award of $503,156 to the University of California school system as
shown in Exhibit 8.




                                        17
        Exhibit 8: Grant Awards to the University of California
       San Diego Approved by an NIJ Official Receiving Pension
        Income from the University of California School System

            Grant           Application     Grant       Type       Award
           Number            Approved     Awarded      Award      Amount
      2004-MU-MU-K002        07/21/05     09/07/05   Supplement     $99,999
       2005-IJ-CX-K051       07/28/05     09/16/05     Initial     $231,754
       2006-IJ-CX-K036       07/21/06     09/14/06     Initial      $40,000
       2005-IJ-CX-K051       07/26/06     09/14/06   Supplement    $131,403
            Total                                                  $503,156
     Source: Office of Justice Programs’ data

       We interviewed the Branch Chief’s supervisor who told us that he was
aware of the Branch Chief’s potential conflict with one specific school in the
University of California system. The supervisor stated that he did not
believe the conflict extended to other schools within the University of
California school system. The supervisor told us that he did not assign the
Branch Chief any work related to the school for which the Branch Chief had a
financial interest, and that the approvals shown in Exhibit 8 were all related
to grants to another school within the University of California school system.
The supervisor said he did not believe the actions taken by the Branch Chief
constituted a conflict of interest since the grants he participated in were not
the specific school in the University of California school system from which
he received his pension. However, the supervisor did agree that the Branch
Chief’s situation could be viewed as having an appearance of a conflict of
interest. The supervisor also told us that he had not discussed the potential
conflict with the Office of General Counsel.

      We asked an OJP Deputy General Counsel about this potential conflict.
The Deputy General Counsel stated that in such circumstances he would
recommend avoiding even the appearance of a conflict of interest by having
an employee associated with one school in the state system not work on
matters related to any schools in the state system. The Deputy General
Counsel told us that there is always someone else available with no conflicts
that could perform the work.

      We believe that the Branch Chief’s financial interest in the pension he
receives from the University of California Sacramento in the University of
California school system while approving awards for the University of
California San Diego may have created the appearance of a conflict of
interest and such appearance could have been avoided. Therefore, we
believe that the supervisor should have requested assistance from the Office
of General Counsel in developing a solution as required by the guidance
provided by the OJP’s Office of General Counsel.


                                        18
      Instance 4: An NIJ Deputy Director reported on his 2007 financial
disclosure form that his wife was employed by the Montgomery County,
Maryland, Police Department. The Deputy Director approved three
applications for the police department during 2007 and 2008 that led to the
award of $365,437 as shown in Exhibit 9.

    Exhibit 9: Grant Awards to the Montgomery County, Maryland
        Police Department Approved by an NIJ Official whose
             Wife was Employed by the Police Department

            Grant           Application     Grant     Type      Award
          Number             Approved     Awarded    Award     Amount
      2007-DN-BX-K100        07/25/07     09/07/07   Initial    $120,820
      2008-LT-BX-K005        07/24/08     09/12/08   Initial    $202,757
      2008-DN-BX-K020        07/14/08     09/12/08   Initial     $41,860
            Total                                               $365,437
     Source: Office of Justice Programs’ data

       The Deputy Director told us that he recognized that he had a conflict
with the Montgomery County, Maryland, Police Department and recused
himself from work on any discretionary grants involving the Police
Department. He told us he believed that it was not necessary to avoid
involvement with formula grants because regardless of any action on his
part, the grantee receives the amount of funds allowed by the approved
formula.

       We interviewed the Deputy Director’s supervisor, who told us he was
aware of the Deputy Director’s conflict with the Montgomery County,
Maryland, Police Department. The supervisor stated that while he did not
remember any specific discussion with the Deputy Director regarding the
potential conflict, he believes that he would have discussed the need for the
Deputy Director to recuse himself from any work related to Montgomery
County Police Department grants. The supervisor also stated that he did not
think it made any difference whether the grants were formula awards or
discretionary awards. In his view, the Deputy Director should not have
participated in any awards made to the Montgomery County Police
Department. The supervisor did not recall whether or not he discussed the
Deputy Director’s potential conflict with the OJP’s Office of General Counsel.

       We believe the Deputy Director’s wife’s employment raised a potential
conflict and that the supervisor should have requested assistance from the
Office of General Counsel in developing a solution as required by the
guidance provided by the OJP’s Office of General Counsel.




                                        19
      Instance 5: An NIJ Branch Chief reported on her financial disclosure
form for 2005 that she received consultant fees from the University of
Maryland, University College and held outside positions with the University of
Maryland, University College. On the disclosure form for 2006, the Branch
Chief again reported outside positions with the University of Maryland,
University College. In 2007, the Branch Chief was promoted to a Deputy
Director position and again reported outside positions with the University of
Maryland, University College, on her 2007 disclosure form. Subsequent to
the disclosures, the Branch Chief/Deputy Director approved three
applications for the University of Maryland school system during 2007 that
led to the award of $362,250 to the University of Maryland, College Park as
shown in Exhibit 10.

Exhibit 10: Grant Awards to the University of Maryland, College Park
        Approved by an NIJ Official Receiving Consultant Fees
       from and Holding Outside Positions with the University

            Grant           Application     Grant     Type      Award
           Number            Approved     Awarded    Award     Amount
      2007-DN-BX-0007        07/13/07     09/07/07   Initial    $292,341
       2008-IJ-CX-0011       07/28/08     09/11/08   Initial     $34,997
       2008-IJ-CX-0012       07/28/08     09/11/08   Initial     $34,912
            Total                                               $362,250
     Source: Office of Justice Programs’ data

       We interviewed the Deputy Director’s supervisor who told us he was
aware of the Deputy Director’s outside employment as a faculty member for
the University of Maryland, University College. The supervisor stated that
the outside position of teaching required specific approval from the Assistant
Attorney General and that he had not considered the outside employment in
the context of a potential financial conflict of interest. However, the
supervisor stated that even if he had considered the teaching position in the
context of a financial conflict of interest, he probably would not have
considered the relationship with one school in the University of Maryland
system a conflict with grant work related to other schools in the system. In
hindsight, the supervisor acknowledged that the Deputy Director’s
relationship could create the appearance of a potential conflict of interest.
The supervisor also told us that he had not discussed the potential conflict
with the Office of General Counsel.

      We asked an OJP Deputy General Counsel if he viewed separate
schools within the same state university system as separate entities or as a
single entity for conflict of interest purposes. The Deputy General Counsel
stated that he would view them as a single entity and as a precaution he
would recommend avoiding even the appearance of a conflict of interest by


                                        20
having an employee associated with one school in the state system not work
on matters related to any schools in the state system.

      We believe the Branch Chief’s disclosed financial interest raises a
potential conflict and that the supervisor should have requested assistance
from the Office of General Counsel in developing a solution as required by
the guidance provided by the OJP’s Office of General Counsel.

      Instance 6: An NIJ Grant Manager reported on his financial disclosure
form for 2007 that he: (1) had been employed by Lockheed Martin
Information Services, (2) held assets in a Lockheed Martin Aspen Systems
Corporation 401K retirement account, and (3) held assets in a Lockheed
Martin savings plan account. On two separate occasions in July 2008,
subsequent to the disclosures on his financial disclosure form, the Grant
Manager approved a grant application for the Lockheed Martin Aspen
Systems Corporation that led to a supplemental award to the company of
$3,740,000 under grant number 2005-MU-CX-K077 on August 21, 2008.

       We interviewed the Grant Manager’s supervisor who told us that he
was aware of the Grant Manager’s prior employment and financial interests.
The supervisor stated that while he did not remember any specific discussion
with the Grant Manager regarding the potential conflict, he believes that he
would have discussed the need for the Grant Manager to recuse himself from
any work related to Lockheed Martin or Aspen Systems. The supervisor told
us that he had not discussed the potential conflict with the Office of General
Counsel as required by the Office of General Counsel guidance. The
supervisor also stated that all new employees in OJP are required to meet
with the Office of General Counsel and that the Grant Manager had most
likely discussed the prior employment with the Office of General Counsel.
The supervisor acknowledged that the Grant Manager’s relationship produces
the appearance of a potential conflict of interest and that the Grant Manager
should not have participated in the award to the Lockheed Martin Aspen
Systems Corporation.

      We believe the Grant Manager’s disclosed financial interest raises a
potential conflict and that the supervisor should have requested assistance
from the Office of General Counsel in developing a solution as required by
the guidance provided by the OJP’s Office of General Counsel.

      In summary, six NIJ officials were allowed to participate in the
approval process for grants to entities in which they reported having a
financial interest. This situation occurred because the NIJ officials’
supervisors generally did not consider the employees’ reported financial
interests to be significant enough to create an actual conflict. However,


                                     21
these supervisors did not discuss the potential conflicts with OJP’s Office of
General Counsel and also did not consistently gather all the facts relevant to
making a determination about whether an actual conflict existed and if so,
whether a waiver was appropriate.

Application Review Process

       The NIJ’s process for reviewing grant applications generally consists of
four phases. In the initial phase, an NIJ program manager makes a review
of the applications to identify any problems including proposed purchases or
activities that would not be allowed. Next, the applications are subjected to
a peer review by a panel of subject-matter experts to identify strengths and
weaknesses and to make recommendations on whether the applications
should be given further consideration for funding. The panelists prepare
individual comments in preparation for a group discussion. The results of
the panel discussion are recorded in the panel’s consensus review report.
After the peer review, the applications are given a more comprehensive
internal review by program office staff, including the Division Chief and
program manager, who review the peer review recommendations and
discuss the applications. Based on these discussions, the program office
recommends to the NIJ Director which applications should receive awards.
Finally, the NIJ Director reviews the program office recommendations and
the peer review recommendations and makes the award selections.

      We found that the NIJ’s application review process used to evaluate
grant applications was not adequate to ensure fair and open competition.
We identified concerns in all phases of the process. The issues are discussed
in the following sections.

      Initial Program Office Reviews

      During the program office’s initial review of grant applications, grant
applications may be rejected because the applicant is ineligible for various
reasons. Applications are not subjected to competition at this stage of the
process. The OJP’s Grant Manager’s Manual requires that rejected applicants
be provided a letter explaining the reason why the application was rejected.
In the GMS, grant managers select one of several listed reasons for rejecting
applications. Only one of the listed reasons refers to being rejected on the




                                       22
basis of the competition, while the rest reflect eligibility concerns such as
lack of financial capability. 20

       We found that 20 of the 315 applications we reviewed were rejected
after the grant manager’s initial review and before any peer review. In the
GMS, 13 of the 20 applications rejected during the initial evaluation process
were identified as rejected because the “Competitive process selected other
applicants.” However, according to NIJ’s policies, applications rejected
during the initial evaluation should not be rejected on the basis of the
competitive process.

      NIJ could only provide copies of the rejection letters sent to 5 of the
13 rejected applicants. We reviewed the 5 rejection letters and other
records NIJ maintained showing the reason the applicants were rejected and
found that the 13 applications were rejected prior to initiation of the
competitive process. Reasons for the rejections included incomplete
applications, non-responsive applications, and duplicate applications. All of
the actual reasons for rejection were listed as options in the GMS but were
not used. Because the rejection letters were not available for 8 of the
13 rejected applicants, we could not determine if the rejected applicants
were told the actual reason for the rejection. In the five rejection letters
that were available for review, the applicants were told the actual reason for
the rejection. We believe NIJ should ensure that it maintains the letters sent
to rejected applicants, and that the actual reasons for rejections are
accurately recorded in GMS.

      Also, because the GMS is not accurate, it cannot be used to identify
trend data that might help identify weaknesses in the process. For example,
the GMS could be used to determine that a significant number of rejections
resulted from a certain reason, such as non-responsive applications. Such
data could indicate a need to clarify guidance in future solicitations that
could result in more responsive applications and thus more competition
among applicants.




       20
           The reasons for rejecting an application that can be selected in GMS are:
(1) applicant rejected due to disbarment or suspension, (2) applicant did not demonstrate
financial capability, (3) applicant failed to meet civil rights requirements, (4) applicant failed
to respond after submitting grant application, (5) applicant failed to satisfy grant
requirements, (6) applicant not eligible to apply, (7) applicant rejected due to unsatisfactory
past performance, (8) applicant submitted more than one application, (9) application
incomplete, (10) application submission in conflict with other state or local applicant,
(11) application submitted after deadline, (12) competitive process selected other
applicants, and (13) funding withdrawn or discontinued.


                                               23
       Peer Review Process

     We found multiple issues with the NIJ’s peer review process that raised
concerns about the fairness of the competitive award process. We
determined that:

       •    Peer reviewers who were not on the NIJ Director’s approved list of
            peer reviewers were selected to evaluate grant applications.

       •    The NIJ did not maintain completed Disclosure of Conflict of
            Interest forms for some peer reviewers identifying conflicts with
            applicants.

       •    Peer reviewers were allowed to participate in the review process
            even after identifying conflicts of interest with applicants.

       •    Individual peer review comments were not retained and the NIJ
            could not support that individual peer reviewers agreed with the
            peer review consensus report.

      In evaluating the peer review process for the 15 competitive grants
that we sampled, we determined that the 15 grants were awarded based on
11 solicitations which resulted in 315 applications submitted to the NIJ. 21

      According to NIJ program managers, for each solicitation the program
manager develops a list of potential peer reviewers from a database
maintained by a firm under contract to the NIJ. The program manager
provides the list of potential peer reviewers to the NIJ Director, who either
approves the list as received or makes modifications before approval. Once
the NIJ Director approves the list, the program manager provides the list to
the contractor to contact the potential peer reviewers and obtain the number
of peer reviewers needed to evaluate the grant applications.

      For the 11 solicitations that we reviewed, NIJ could not provide
documentation for 5 solicitations to show that the peer review panels were
chosen from the Director’s approved list of peer reviewers. In addition, NIJ
could not provide a list of the actual peer reviewers selected for 2 of the
11 solicitations. These two solicitations were part of the five solicitations for
which the Director’s approved list could not be provided. The program

       21
          While NIJ issued 10 solicitations for these grant awards, one of the 10 solicitations
was divided into 2 parts for separate grant awards, each of which followed a separate peer
review process. Therefore, for analysis purposes, we considered the two-part solicitation as
2 separate solicitations, and thus we evaluated the peer review process for 11 solicitations.



                                             24
managers for these two solicitations stated that they inherited the oversight
of these awards from former program managers after the peer review panels
had been selected and could not find documentation of the selections.

      We evaluated the peer review documentation available for the
11 solicitations to determine whether: (1) the peer reviewers were selected
from the list of approved peer reviewers, (2) Disclosure of Conflict of
Interest forms were maintained for all peer reviewers selected, (3) individual
peer reviewer comments were maintained, and (4) a peer review consensus
report was documented for each peer panel. As discussed in the following
paragraphs, we found problems in each of these areas.

       During the initial review process, 20 of the 315 applications received
for the 11 solicitations were rejected due to eligibility issues. In addition,
one application listed for a solicitation was actually for another NIJ office and
was not part of our sample. Another application was a test application and
thus was not evaluated. 22 The NIJ selected more than 122 peer reviewers to
evaluate the remaining 293 applications. 23 However, as shown in Exhibit 11,
we determined that 13 peer reviewers selected for 4 of the solicitations were
not on the Director’s approved list of peer reviewers for the solicitation.
According to an NIJ official, peer reviewers sometimes do not appear on the
Director's approved list because the originally selected reviewers drop out at
the last minute and replacement reviewers have to be selected. The NIJ
official stated that the approval for the replacement reviewers may be verbal
or by e-mail, but the NIJ did not provide us any e-mail approvals for the
13 reviewers not on the Director’s approved list. Also, as previously
discussed, for 5 solicitations we could not determine if the 49 peer reviewers
selected were on the Director’s approved list because the NIJ could not
provide the Director’s approved list for the solicitations.

      As part of the peer review process, each peer reviewer was required to
complete and submit a Disclosure of Conflict of Interest form disclosing
whether or not they had any potential conflicts with the proposals they were
assigned to review. On the form, the reviewer was to check a list of
potential conflicts that were applicable or check off on the statement “I do
not have a conflict with any of the proposals assigned to the panel on which
I served.” The NIJ’s peer review contractor maintained the peer reviewers’
disclosure forms.


       22
          The test application was entered into GMS by an OJP contractor and was not
intended to be an application for consideration of an award.
       23
          For one solicitation, two peer review panels were established but the NIJ could not
provide documentation to show the number of peer reviewers on one of the two panels.


                                             25
       We found that the NIJ could not provide documentation to show that
many of the selected peer reviewers for 10 of the 11 solicitations had
completed and submitted the required disclosure forms. For 3 of the
10 solicitations, documentation was not maintained to show that any of the
assigned peer reviewers had completed and submitted the disclosure forms.
For three other solicitations, documented disclosure forms were not available
for at least half of the assigned peer reviewers. For one solicitation,
documentation was not available to identify the peer reviewers assigned to
one peer review panel and whether those peer reviewers completed conflict
of interest forms. For the other three solicitations, a documented disclosure
form was not available for one of the assigned peer reviewers. As shown in
Exhibit 11, documented disclosure forms were not available for 67 of the
122 (55 percent) assigned peer reviewers for the 11 solicitations we
reviewed. NIJ officials stated that it was the responsibility of the NIJ’s peer
review contractor to maintain the disclosure forms, but the contractor was
unable to produce the 67 missing forms. Because of the missing disclosure
forms, we were unable to determine if the 67 peer reviewers had conflicts of
interest with the applications reviewed that could have impaired their ability
to fairly evaluate the applications.

            Exhibit 11: Peer Reviewers with No Documented
                 Disclosure of Conflict of Interest Form

     350
               315
     300                       293


     250

     200

     150
                                              122
     100
                                                                              67
      50
                                                              13
       0
            Applications    Applications Peer Reviewers Peer Reviewers Peer Reviwers
             Received      Peer Reviewed    Selected        Not On     Without Conflict
                                                         Approved List   of Interest
                                                                           Forms

   Source: Office of Justice Programs’ data and OIG analysis of data

      For the 55 peer reviewers for whom NIJ maintained the disclosure
forms, we found that 3 of the peer reviewers identified potential conflicts
with the applications they were assigned to review as discussed below.


                                            26
       •    One peer reviewer reported that she had a collaborative
            relationship with two applicants within the last 3 years. However,
            contrary to OJP’s peer review guidelines, we found no evidence that
            this reviewer was removed from the panel that rated these
            applicants.

       •    Another peer reviewer reported that he was or recently had been
            employed by an applicant organization that submitted a proposal
            for this solicitation. However, contrary to OJP’s peer review
            guidelines, we found that the reviewer still participated on the panel
            by reviewing, providing comments, and scoring the applicant’s
            application.

       •    A peer reviewer reported that he currently or recently had a
            collaborative relationship with the authors or project staff on one of
            the proposals. However, the peer reviewer’s name was listed as a
            reviewer for this application and there was no indication that he did
            not participate in the review panel.

       In addition, we found that three peer reviewers did not: (1) annotate
the disclosure form to show whether or not they had a conflict, or (2) check
the statement that read, “I do not have a conflict with any of the proposals
assigned to the panel on which I served.” We found no documentation to
show that the discrepancy for these three reviewers was resolved and
accordingly, we were not able to determine if these three individuals had any
conflicts of interests with the proposals assigned to them to review.

       During the peer review process, a selected number of peer reviewers
are assigned to a panel to review certain applications. Each peer reviewer
reviews each application separately to make recommendations on whether
the applications should be given further consideration for funding. Each
reviewer prepares individual comments about the applications in preparation
for face-to-face discussion with the other panel members. After the panel
members meet, the lead peer reviewer prepares a consensus report showing
the panels’ ratings and recommendations.

     We found that for 10 of the 11 solicitations we reviewed, a peer review
consensus report was prepared. 24 However, in reviewing the consensus

       24
           For another solicitation, a peer review consensus report was not prepared because
this solicitation was for only a few low-dollar grants to universities for graduate student
research. Therefore, instead of holding a peer panel discussion for only a few applications,
the program office collected the individual peer reviewer recommendations and ranked each
graduate student application based on the peer reviewer recommendations and the program
office’s own evaluation.


                                            27
reports we determined that in accordance with NIJ policy the individual
comments prepared by the peer reviewers were not maintained by the NIJ
or its peer review contractor. In addition, NIJ policy did not require the
individual peer reviewers to sign the peer review consensus report prepared
by the lead peer reviewer. Therefore, the NIJ could not document that the
peer review consensus reports accurately presented the views of the
individual peer reviewers. To ensure transparency in the competitive
process for reviewing and selecting grant applications for award, we believe
the NIJ should require that either:

      •   individual peer reviewer comments are maintained to support the
          consensus review reports, or

      •   each individual peer reviewer signs the consensus review report to
          acknowledge their agreement with the results of the review.

       In summary, the deficiencies we noted in the peer review process,
such as peer reviewers not approved by the Director being selected to
review applications, peer reviewers not completing Disclosure of Conflict of
Interest forms, and peer reviewers participating in reviews after identifying
conflicts of interest with applicants, raise concerns about whether NIJ’s
process for reviewing grants ensured that grant applications were provided a
fair and open review.

      Comprehensive Program Office Review Process

      For the 293 applications that were peer reviewed for the
11 solicitations we analyzed, we compared the program office’s
recommendations to the peer review recommendations and found that the
recommendations were not consistent for 22 of the 293 applications. For
20 of the 22 applications, the peer panel recommended the applications for
funding but the program office recommended against funding. For the
remaining two applications, the peer panel recommended against funding
but the program office recommended the applications for funding. The
program office documented the reasons why its recommendations differed
from the peer panel recommendations for only 2 of the 22 applications. For
these 2 applications, the program office selected the application ranked sixth
by the peer panel and did not select the application ranked fourth by the
peer panel. However, the program office staff documented that they only
had funding for five applications and work similar to that of the fourth
application was being separately funded by the NIJ. Consequently, the
program office denied funding for the fourth ranked application and selected
the sixth ranked application instead. We considered the program office’s
rationale for skipping over the fourth-ranked application to be valid.


                                      28
However, for the other 20 applications, we could not assess whether the
reasons for the differing recommendations appeared valid because the
program office did not document the basis for its differing
recommendations. 25

       NIJ Director’s Award Selections

      When deciding on applications to fund, the NIJ Director should give full
consideration to both the program office recommendations and the
recommendations of the peer review panel. For the 293 applications that
were peer reviewed for the 11 solicitations we analyzed, we compared the
NIJ Director’s selections to the program office’s recommendations and the
peer review recommendations. We found that the Director’s selections were
consistent with the recommendations of the program office for 292 of the
293 applications. For the one application, the Director denied the application
for funding while the program office and the peer review panel had
recommended the application for funding. We could not assess whether the
reasons for the differing recommendation negatively affected the fairness of
the process because the Director did not document the basis for his denial
that differed from the program office and peer review panel
recommendations. We also found that the Director’s selections were not
consistent with the peer reviewer panel recommendations for 26 of the
293 applications as explained below.

       •    For 4 of 26 applications, the NIJ Director selected applications for
            funding that the peer review panel recommended against funding.

       •    For 22 of 26 applications, the NIJ Director denied the applications,
            although the peer review panel recommended the applications for
            funding. As discussed above, for 1 of the 22 applications, the
            program office also recommended the application for funding.

      The NIJ Director documented the reasons why his selections differed
from the peer review panel recommendations for 2 of the 26 applications.
These were the same two applications discussed in the previous section
where the program office’s recommendation differed from the peer panel’s
recommendation and a valid explanation was documented. For the other
24 applications, we could not assess whether the reasons for the differing
recommendations negatively affected the fairness of the process because


       25
          The peer panels usually did not rank the applications but instead rated the
applications using categories such as highly recommended, recommended, recommended
with changes, and not recommended, or similar categories. Therefore, we could not
reasonably evaluate the variance in ratings between the peer panels and the program office.


                                            29
the Director did not document the basis for his selection that differed from
the peer review panel recommendations. 26

      We recognize that circumstances may warrant the NIJ Director making
award decisions that differ from the program office or peer panel
recommendations. However, we believe it is important to document the
basis for such award selections to ensure the integrity of the competitive
award process.

      In May 2008, after the award period we tested, the Associate Attorney
General directed the OJP Assistant Attorney General to document all
discretionary funding recommendations and decisions. Under the Associate
Attorney General’s policy, future award recommendations memoranda must:

       •    contain a list of all applications received that includes the lowest
            scoring application funded as well as every application scoring
            higher, regardless of whether it was selected for funding;

       •    briefly explain why a listed application was not recommended for
            funding; and

       •    only categorize selections by categories published in the original
            program solicitation.

      The Associate Attorney General told another OIG audit team that in
developing these new requirements he was concerned that OJP and other
relevant Department components did not always make or maintain the
records necessary to justify award selections. The Associate Attorney
General said he issued the policy in part to ensure that OJP documents its
reasons for selecting certain proposals over others. The policy allows OJP
bureaus and program offices to exercise discretion when awarding
competitive grants, but also requires each bureau or program office to list
reasons for not funding proposals with high-ranking peer review scores. The
Associate Attorney General also said that he believed the policy helps protect
decision makers from accusations regarding improper awards decisions.

      As a result of the Associate Attorney General’s memorandum, OJP now
requires each bureau or program office to provide reasons when low-scoring
applications are recommended over higher-scoring ones. In our opinion, the
Associate Attorney General’s policy requiring justification of award

       26
           As noted in footnote number 25, the peer panels usually did not rank the
applications but instead rated the applications using general categories. Therefore, we
could not reasonably evaluate the variance in ratings by the peer panels and award
selections and denials by the NIJ Director.


                                            30
recommendations addresses the concerns we identified in this review about
the NIJ’s failure to adequately document its award decisions. Therefore, we
make no recommendation regarding documenting the basis for the NIJ
Director’s award selections.

Summary of Grant Analyses

      Overall, for the grant awards we tested, deficiencies in administrative
practices and controls did not allow OJP and the NIJ to support that grant
award practices were based on fair and open competition because the:

      •   NIJ did not maintain adequate pre-award records to fully assess
          whether awards were based on fair and open competition;

      •   NIJ did not adequately address the appearance of conflicts of
          interest for program managers and management personnel; and

      •   NIJ’s grant application review process, including initial program
          office reviews, peer reviews, documentation of program office
          recommendations, and documentation of the NIJ Director’s
          selections, raised concerns about the fairness and openness of the
          competition process. However, we noted that recent policy issued
          by the Associate Attorney General regarding documenting the basis
          for award selections alleviates the concerns we had regarding the
          NIJ Director’s award selections.

     The NIJ needs to develop or improve procedures to ensure that key
aspects of the pre-award and award process for grants and cooperative
agreements are documented, such as:

      •   identifying and remedying any actual conflicts of interest, or the
          appearance of conflicts of interest, among agency staff involved in
          the pre-award evaluation process;

      •   maintaining Disclosure of Conflict of Interest forms for peer
          reviewers selected to review grant applications and ensuring that
          peer reviewers are not allowed to participate when they identify
          conflicts of interest;

      •   maintaining the NIJ Director’s approved list of peer reviewers for
          each solicitation and ensuring that peer reviewers selected are on
          the approved list;




                                      31
      •   maintaining individual peer review comments or evidence that the
          peer reviewers agree with the peer review consensus report; and

      •   ensuring that the reasons for denying applications are accurately
          recorded in GMS.

Competition Requirements for Contract Awards

       The Federal Acquisition Regulation (FAR) contains policies and
procedures for awarding government contracts. OJP’s Acquisition
Management Division also published an Acquisition Desk Guide in 2000 that
provides guidance to OJP acquisition personnel for awarding government
contracts. The requirements for awarding contracts non-competitively are
discussed in Finding 2 of this report. This finding discusses the NIJ’s
competitive contract awards and whether or not those awards met the
competition requirements of the FAR and the OJP guidelines. Agency actions
that promote fair and open competition include obtaining approvals for
requisitions to include certification of funding availability, publicizing contract
actions to potential vendors, performing evaluations of vendor proposals to
include price and technical analyses, and identifying and remedying conflicts
of interests among individuals involved in the award process. The FAR
requirements and OJP guidelines, as applicable, for these actions are
explained in the following paragraphs.

Requisition Approvals

      Based on the type of contract action, an acquisition is initiated based
on either a requisition or a request for contract action. A requisition is
generally used for acquisitions of $100,000 or less, while a request for
contract action is generally used for acquisitions greater than $100,000.

      For a requisition, the program official authorized to initiate the
acquisition must sign the requisition to certify that the items requested are
necessary. A designated budget official must also certify that funds are
available and can be spent for the items requested. As shown in
Appendix VI, other approvals are needed for certain acquisitions including
automatic data processing equipment, consulting services, and furniture.

Publicizing Contract Actions

      FAR Part 5 requires that contracting officers must usually publicize
contract actions to increase competition. Depending on the dollar value of
the expected award, the contract actions must be publicized by display in a



                                        32
public place or through any appropriate electronic means, or in the
government-wide point of entry at www.fedbizopps.gov. 27

      FAR Part 8 grants an exception to the publicizing requirement when an
ordering agency establishes a Blanket Purchase Agreement (BPA) or places
orders against an FSS contract awarded by the General Services
Administration. This exception is allowed because BPAs and orders placed
against an FSS, using the procedures in FAR Part 8, are considered to be
issued using full and open competition.

Evaluations of Proposals

      FAR Part 13 and OJP’s Acquisition Desk Guide require that all quotes or
offers received must be evaluated in an impartial manner and on the basis
established in the solicitation. FAR Part 13 and OJP’s Acquisition Desk Guide
give the contracting officer broad discretion in fashioning suitable evaluation
procedures. FAR Part 14 (for sealed bidding acquisitions) and Part 15 (for
contracting by negotiation) provide suggested evaluation procedures, but
FAR Part 13 allows the contracting officer to use discretion in determining
which, if any, of the procedures to use.

Conflicts of Interest

      In addition to the requirements of 5 C.F.R. § 2634 discussed earlier,
FAR Part 3 provides policies and procedures for avoiding improper business
practices and personal conflicts of interest and for dealing with their
apparent or actual occurrence. In general, the FAR provides that
government business should be conducted in a manner above reproach, with
complete impartiality. FAR Part 3.101-1 states that the general rule is to
avoid strictly any conflict of interest or even the appearance of a conflict of
interest in government contractor relationships.

NIJ Contract Awards during FYs 2005 through 2007

       At the start of the audit, we requested that OJP or the NIJ provide us
with a listing of all contracts awarded during FYs 2005 through 2007. In
response, the OJP provided us a report listing 406 NIJ non-grant obligations
totaling $71,451,252 during FYs 2005 through 2007. After discussing the
report contents with OJP officials, we learned that the report contained not
only contract actions, but also training and travel obligations for individual

       27
           The government-wide point of entry is the single point where government
business opportunities greater than $25,000, including synopses of proposed contract
actions, solicitations, and associated information, can be accessed electronically by the
public.


                                             33
NIJ staff members and obligations for other agreements such as
intergovernmental personnel agreements, reimbursable agreements, and
interagency agreements. With assistance from OJP, we narrowed the list to
131 contract actions totaling $64,290,692 during the 3-year period as shown
in the following exhibit.

               Exhibit 12: NIJ Contract Actions Awarded
                        During FYs 2005 - 2007

               Fiscal            Number of             Amount
                Year         Contract Actions          Awarded
               2005                   41                $16,719,470
               2006                   45                $25,701,058
               2007                   45                $21,870,164
               Total                 131                $64,290,692
            Source: Office of Justice Programs’ data

      During our review period, the NIJ used the following four types of
contracts to acquire goods and services.

     •   Blanket Purchase Agreements (BPA) are a simplified method of
         filling anticipated repetitive needs for supplies or services by
         establishing “charge accounts” with qualified vendors.

     •   General Services Administration (GSA) multiple award schedule
         contracts awarded for similar or comparable supplies or services
         and established with more than one supplier, at varying prices.

     •   Open market contracts are made supplies or services with non-GSA
         vendors.

     •   Negotiated contracts are competitive or non-competitive contracts
         that are made using other than sealed bids.

     As shown in the following exhibit, most of the NIJ contract actions
were awarded using BPAs.




                                        34
                  Exhibit 13: NIJ Contract Actions Awarded
                  During FYs 2005 - 2007 by Contract Type

            Contract        Number of         Number of                 Amount
             Type            Vendors        Contract Actions            Awarded
      BPA                       22                 85                   $39,484,836
      GSA 28                    14                 22                   $23,728,128
      Open Market               18                 22                      $821,773
      Negotiated                  1                  2                     $255,955
       Total                    55                131                   $64,290,692
     Source: Office of Justice Programs’ data

Selection of Contract Awards to Test for Adequacy of Competition

       To test whether the NIJ contract awards were awarded based on fair
and open competition, we asked OJP and NIJ officials to identify whether
each of the 131 contract actions were awarded competitively or
non-competitively. The officials explained that data was not readily available
to identify whether the contract actions were competitive or
non-competitive. The officials stated that documentation in each contract
file would identify the competitive or non-competitive basis for the award.
We judgmentally selected a sample of 34 of the 131 contract actions to test
whether the competition process resulted in fair and open competition. The
34 contract actions selected totaled $38,835,324 and accounted for more
than 60 percent of the funds awarded for the 131 contract actions.

      The following exhibit provides more details regarding the 34 contract
actions we selected for testing.

       Exhibit 14: NIJ Contract Actions Selected for OIG Testing

            Contract       Number of          Number of                 Amount
             Type            Vendors        Contract Actions            Awarded
      BPA                        3                 19                   $18,220,018
          31
      GSA                        4                   8                  $19,989,535
      Open Market                3                   5                     $369,816
      Negotiated                 1                   2                     $255,955
       Total                    11                 34                   $38,835,324
     Source: Office of Justice Programs’ data

    We determined that of the 34 contract actions, 27 were awarded using
competitive procedures while 7 were awarded using non-competitive

       28
           Initially, 2 of the 131 transactions, awarded to 1 vendor were not associated with
a specific contract number. After we selected these two transactions for detailed testing, we
subsequently determined that the transactions were delivery orders made against a GSA
multiple-award schedule contract.


                                            35
procedures. Our evaluation of the adequacy of the competitive process used
for the 27 competitive awards is discussed in the following section. Our
evaluation of the adequacy of the non-competitive award justifications for
the seven non-competitive awards is contained in Finding 2.

Adequacy of Competition for Contract Awards

      Based on the competition requirements previously discussed, we
analyzed the actions taken by the NIJ and OJP to award the 27 competitive
contract actions sampled. The 27 competitive contract actions consisted of
51 individual transactions, such as task orders, task order modifications,
base contract awards, or contract modifications. 29 We found that the
27 contract actions were generally based on fair and open competitive
procedures as required. Specifically, we found that generally requisitions
were prepared and approved as required, the availability of funds was
properly certified, the contact actions were publicized, and vendor proposals
were obtained and analyzed as required. However, we did note deficiencies
among individual transactions for some areas tested as follows.

       •    The contract files for 3 of the 51 transactions totaling $418,992 did
            not contain an approved requisition and evidence that the
            availability of funds was certified prior to the acquisition. An OJP
            official stated that the required requisitions and fund certifications
            were likely completed but could not be located in the contract files.

       •    For the 19 contract actions that required and received proposals,
            we found that the proposal evaluators completed and signed a
            Conflict of Interest and Non-disclosure Statement for only 4 of the
            19 transactions. For the 15 transactions for which the forms were
            not completed, the proposal evaluators were NIJ subject matter
            experts in 14 cases and the contracting officer in the other case.
            The contracting officer told us that he did not complete the form,
            and he did not require the NIJ subject matter experts to complete
            the forms, because he was following the format used by the
            previous contracting officer. However, the OJP Acquisition Desk
            Guide requires that all persons who evaluate the proposals
            complete the forms. For one of the four transactions that had the
            completed statement, we identified the appearance of a conflict of
            interest, but actions were documented in the contract file to show
            the evaluator’s appearance of conflict was remedied.


       29
          A task order is an order for services placed against an established contract or with
required government sources.



                                             36
        The effect from the missing requisitions and fund certifications for
three contract awards was minimal because other information in the contract
files indicated these awards were subjected to adequate review prior to
award. However, without the conflict of interest forms for individuals
involved in evaluating proposals for 15 of the contract awards, the files lack
assurance that the evaluators had no improper bias when evaluating the
proposals.

Lobbying Activities

      According to 28 C.F.R. § 69, no appropriated funds may be expended
by the recipient of a federal contract, grant, loan, or cooperative agreement
to pay any person for influencing or attempting to influence an officer or
employee of any agency, a member of Congress, an officer or employee of
Congress, or an employee of a member of Congress in connection with the:

      •   awarding of any federal contract;

      •   making of any federal grant;

      •   making of any federal loan;

      •   entering into of any cooperative agreement; or

      •   the extension, continuation, renewal, amendment, or modification
          of any federal contract, grant, loan, or cooperative agreement.

       Each person who requests or receives from an agency a federal
contract, grant, loan, or cooperative agreement must file with that agency a
certification that the person has not made, and will not make, any payment
prohibited by the above guidelines. Each person who requests or receives
from an agency a federal contract, grant, loan, or a cooperative agreement
must file with that agency a disclosure form if they have made or have
agreed to make any payment using non-appropriated funds that would be
prohibited under 28 C.F.R. § 69 if paid for with appropriated funds. This
certification must be submitted prior to recommendation for or against an
award. The lobbying disclosure requirements also apply to sub-grantees on
federal grants and sub-contractors on federal contracts. In the case of sub-
grantees and sub-contractors, the disclosure forms should be submitted to
the grantee or contractor, who then should forward the forms to the NIJ.

       In addition, the Lobbying Disclosure Act of 1995 requires all
professional lobbyists to register and file regular, semiannual reports
identifying their clients, the issues on which they lobby, and the amount of


                                        37
their compensation. The reports are filed with the Secretary of the Senate’s
Office of Public Records. The Act is designed to strengthen public confidence
in government by establishing a single, uniform statute covering the
activities of all professional lobbyists. 30

       For our sample of 40 grants awarded from FY 2005 through FY2007, we
identified the NIJ program managers and other key personnel involved in the
award process. Then from Opensecrets.org website, we used the database
search engine to determine if the sample grantees were involved in lobbying
activities related to their NIJ grants. 31 If the search engine identified such
lobbying activities, we obtained and reviewed the grantees’ lobbying
disclosure forms contained in Opensecrets.org to confirm the lobbying
activities reported by the grantees. We then obtained the lobbying disclosure
forms from the Secretary of the Senate’s Office of Public Records to further
verify any lobbying activities.

       We found that the grantees for 13 of the 40 sampled grants were
involved in lobbying efforts that potentially related to their NIJ grants. For
example, from January 2006 through December 2007 the General Electric
Company lobbied for various House and Senate appropriations and
authorization bills that appropriated money to the Department of Justice.
On September 12, 2007, the NIJ awarded a $499,878 grant to the General
Electric Company to develop a video-based site surveillance system that will
enable unattended remote monitoring of locations such as schools, public
parks, prison yards, and public venues. In another example, during the
period January through June 2006, the Florida International University
lobbied for the House bill appropriating money to the Department of Justice.
On September 11, 2006, the NIJ awarded a $347,399 grant to the Florida
International University to develop methods to better understand the effects
of inhibition and degradation in the recovery of DNA information from

       30
          Prior to passage of the Lobbying Disclosure Act of 1995, four primary statutes
required individuals or entities to disclose efforts to influence the federal government: The
1946 Federal Regulation of Lobbying Act, the Foreign Agents Registration Act, the 1989
Byrd Amendment, and Section 112 of the Housing and Urban Development Reform Act.
These statutes set forth different and sometimes conflicting disclosure requirements for
lobbyists. While some lobbyists were required to register under two or three of the statutes
at the same time, major segments of the lobbying community were excluded from coverage
altogether. The Lobbying Disclosure Act of 1995 rectified the inconsistencies and loopholes
of these prior statutes by creating a uniform standard that strengthened and streamlined
disclosure and reporting requirements.

       31
           OpenSecrets.org is an independent website operated by the Center for
Responsive Politics (CRP) that publishes the lobbying information from the quarterly reports
filed with the Senate Office of Public Records.




                                             38
casework samples. Appendix VII contains specific details about the lobbying
activities for all 13 grantees.

        We found that grantees for all but 1 of the 40 sampled grants had
submitted the required certification form to the NIJ indicating that they had
not and would not use appropriated funds to lobby in connection with their
NIJ grant. However, we found that none of the 13 grantees that were
involved in lobbying activities potentially related to their NIJ grants
submitted the required disclosure form to the NIJ indicating that they had
used non-appropriated funds to pay for lobbying activities potentially related
to their NIJ grant awards. The NIJ officials that we interviewed told us they
left it up to the grantees to submit the required lobbying disclosure forms.
The officials also told us that the NIJ did not have procedures in place to
identify whether the potential grantees had lobbying activities that needed to
be disclosed before NIJ made awards. Many of the lobbying disclosure forms
we reviewed contained general descriptions of the companies lobbying
activities, such as stating the company lobbied for H.R. 3093 FY 2008
Commerce, Justice, Science, and Related Agencies Appropriations, but did
not give details about specific funding within the appropriation for which the
company lobbied. While we did not contact the companies to determine the
specific funding for which they lobbied, we believe NIJ should make such
inquiries before making awards.

       We also determined that the grantees for 22 of the 40 grants we
sampled had used 99 sub-grantees to help carry out their grants, and that
15 of these 99 sub-grantees were involved in lobbying activities that
appeared to relate to the NIJ grants through which they received funds. For
example, during the period January through December 2006 Applied
Biosystems lobbied for the Commerce, Science, and Justice budget
appropriations for DNA analysis funding at the Office of Justice Programs,
and for legislative and regulatory issues related to genetic research and the
application of such research. On September 11, 2007, the NIJ awarded the
University of North Texas Health Science Center a grant for $1.4 million to
conduct DNA and anthropological testing on human remains, and the
university awarded a sub-grant to Applied Biosystems to perform work under
the grant. Appendix VIII contains specific details about the lobbying
activities for all 15 sub-grantees.

       We found that none of the 99 sub-grantees submitted the required
non-lobbying certification form through the grantees to the NIJ. We also
found that none of the 15 sub-grantees that were involved in lobbying
activities related to their NIJ grants submitted the required disclosure form
through the grantees to the NIJ indicating that they had used



                                      39
non-appropriated funds to pay for lobbying activities related to their NIJ
grant awards. The NIJ officials that we interviewed said they left it up to the
grantees to monitor the lobbying activities of their sub-grantees.

     We did not perform a similar analysis for the 34 contract transactions
because:

   •   27 of the transactions were awards made against BPAs awarded by
       GSA or against GSA Federal Supply Schedule contracts and the GSA
       was responsible for ensuring the anti-lobbying requirements were met
       for these transactions, and

   •   the remaining 7 transactions were either open market acquisitions or
       negotiated awards made by the NIJ, but we did not find where the
       4 contractors associated with these 7 transactions were involved in
       lobbying activities potentially related to their NIJ contracts.

       As noted, we found a significant number of grantees and sub-grantees
involved in lobbying activities potentially related to their NIJ awards did not
file lobbying disclosure forms with the NIJ. Therefore, we believe the NIJ
needs to establish procedures to ensure that any lobbying activities are
properly disclosed by entities seeking federal grants and contracts and that
those disclosures are adequately considered before making any awards.

Program Oversight

      The OJP’s Office of Audit, Assessment, and Management (OAAM),
established by the DOJ Reauthorization Act of 2005, serves as the principal
advisor to the Assistant Attorney General on matters involving audit,
investigation, and inspection resolution; business process improvement, and
grant policy and oversight. The OAAM began operations in FY 2007. The
OAAM has three divisions: the Audit and Review Division, the Grant
Management Division, and the Program Assessment Division.

      Officials from the Audit and Review Division and the Grant
Management Division told us that any evaluation of the NIJ’s processes for
awarding grants and contracts would be the responsibility of the Program
Assessment Division. We interviewed the Deputy Director of the Program
Assessment Division, who told us that the Division has focused on the
monitoring of grants and has not reviewed the NIJ processes for awarding
grants and contracts. In view of the deficiencies we noted in this Finding, as
well as those in Findings 2 and 3, we believe that OAAM should periodically
review the NIJ’s process for awarding grants to ensure that NIJ grants are
awarded based on fair and open competition.


                                      40
Recommendations

We recommend that OJP:

1. Establish procedures to ensure that key aspects of the pre-award and
   award process for grants and cooperative agreements are documented,
   such as:

   •   identifying and working with OJP’s Office of General Counsel to
       remedy any conflicts of interest, or the appearance of conflicts of
       interest, among agency staff involved in the pre-award evaluation
       process;

   •   maintaining Disclosure of Conflict of Interest forms for peer reviewers
       selected to review grant applications and ensuring that peer reviewers
       are not allowed to participate when they identify conflicts of interest;

   •   maintaining the NIJ Director’s approved list of peer reviewers for each
       solicitation and ensuring that peer reviewers selected are on the
       approved list;

   •   maintaining individual peer review comments or evidence that the
       peer reviewers agree with the peer review consensus report; and

   •   ensuring that the reasons for denying applications are accurately
       recorded in GMS and that copies of rejection letters sent to rejected
       applicants are maintained.

2. Establish procedures to ensure that key aspects of the pre-award and
   award process for contracts are documented, such as:

   •   completion of requisitions,

   •   completion of fund certifications, and

   •   identifying and remedying conflicts of interest among individuals
       involved in evaluating proposals.

3. Establish procedures to ensure that the required lobbying disclosure
   forms are submitted for all grantees and sub-grantees, and that the
   disclosures are considered when evaluating grant applications for award.




                                      41
4. Ensure that the Office of Audit, Assessment, and Management
   periodically reviews the NIJ’s process for awarding grants to ensure that
   NIJ grants are awarded based on fair and open competition.




                                     42
      2. NON-COMPETITIVE GRANT AND CONTRACT AWARD
         PRACTICES

      The NIJ generally did not appropriately document the basis for
      awarding discretionary grant funds without competition. We also
      found instances where the NIJ directed a grantee to use a
      specific organization to perform sub-grantee work without
      documenting the basis for this instruction. Finally, we found that
      the OJP’s Acquisition Management Division did not adequately
      document the basis for some non-competitive NIJ contract
      awards. Unless the non-competitive bases of NIJ awards are
      properly justified, the process lacks assurance that awards were
      properly made without competition.

Requirements for Non-competitive Grant Awards

       The Federal Grant and Cooperative Agreement Act of 1977 states that
federal agencies should encourage competition, when appropriate, in the
award of assistance agreements. The Office of Management and Budget
(OMB) has identified three basic elements that should exist to ensure
effective competition in assistance award processes:

      •    widespread solicitation of eligible applicants and disclosure of
           essential application and program information in written
           solicitations,

      •    independent application reviews that consistently apply written
           program evaluation criteria, and

      •    written justifications for award decisions that deviate from
           recommendations made by application reviewers.32

      The OJP Grant Manager’s Manual states that discretionary grants are
most often awarded on a competitive basis. The manual also reiterates the
requirement in the Federal Grant and Cooperative Agreement Act that
federal agencies should encourage competition, when appropriate, in the
award of assistance agreements. However, the manual does not provide
guidance to grant managers on when it is acceptable to award grants and




      32
          Office of Management and Budget, Managing Federal Assistance in the 1980’s: A
Report to the Congress of the United States Pursuant to the Federal Grant and Cooperative
Agreement Act of 1977 (Pub. L. 95-224), 1980.


                                           43
cooperative agreements non-competitively and on how justifications for
non-competitive awards should be documented.

      While the OJP and NIJ had not established guidelines for awarding
grants and cooperative agreements non-competitively, we found that other
federal agencies had established such guidelines. For example, the
Department of Transportation requires that a justification be prepared when
competition is not sought, unless the award has been congressionally
directed or is made to a state or local government. The justification must
include:

       • Why competition is not practicable;

       • The criteria that justifies the non-competitive (sole source) award,
         and why;

       • Program legislation (Authority for the Award);

       • Relevant legislative history;

       • Capabilities of the proposed recipient; and

       • Cost sharing offered by the recipient, if applicable.

NIJ Non-competitive Grant Awards

      As discussed in Finding 1, we judgmentally selected a sample of 40 of
the 1,459 grants made by the NIJ during FY 2005 through FY 2007 to test
whether the competition process resulted in fair and open competition. We
determined that 24 of the 40 grants were awarded using non-competitive
procedures. The 24 non-competitive grants totaled $21,872,084. Our
evaluation of the adequacy of the non-competitive award justifications for
23 of the 24 non-competitive awards is discussed in the following section. 33

Adequacy of Justifications for Non-competitive Grant Awards

      To evaluate the adequacy of justifications for awarding the 23 sampled
grants non-competitively, we first determined that the 23 grants were


       33
           For 1 of the 24 non-competitive awards, the NIJ provided award information
related to a different supplement than the one included in our sample. Once we realized the
mistaken information provided, we did not request that the NIJ provide information for the
correct supplement. Instead, we reviewed the non-competitive award information for the
other 23 awards included in our sample.


                                            44
grouped in 11 separate solicitation categories as shown in Exhibit 15. 34 As
shown, the NIJ received 828 applications for the 11 solicitation categories
and awarded 669 grants.

        Exhibit 15: Solicitations, Applications, and Grant Awards
          Related to the 23 Non-competitive Grants Sampled

   Number
  of Grants                                        Applications     Grants      Applications
  Sampled              Solicitation                 Received       Awarded        Denied
       1      FY 05 ORE Continuations                    19            12             7
       2      FY 05 OST Continuations                    48            39             9
       1      FY 06 OST Continuations                    66            54            12
       1      FY 07 OST Continuations                   117            77            40
              FY 05 DNA Capacity
      4       Enhancement Program                      105             105              0
              FY 06 DNA Capacity
      3       Enhancement Program                      106             106              0
      2       FY 05 DNA Forensic Casework               72              71              1
      2       FY 06 DNA Forensic Casework               87              87              0
              FY 06 Paul Coverdell Forensic
              Science Improvement Grants
      5       Program                                  178              88             90
              FY 05 Convicted Offender DNA
      1       Backlog Reduction Program                  14             14              0
              FY 06 Convicted Offender DNA
      1       Backlog Reduction Program                 16             16              0
     23               Totals                           828            669            159
 Source: Office of Justice Programs’ data

        We reviewed the 669 non-competitively awarded grants made during
FYs 2005 through 2007. We determined that 498 were based on either:
(1) formula awards in which all eligible applicants were invited to apply and
all eligible applicants that applied were awarded a grant based on a
congressionally approved formula, (2) pre-established dollar amounts per
DNA sample analyzed and all eligible applicants were invited to apply for
these awards and all eligible applicants that applied were awarded a grant;
or (3) congressionally directed funding (earmarks) stipulated for award to
specified grantees. For these non-competitive awards, the NIJ did not need
to justify further the basis for the award.



       34
           Four of the 11 solicitation categories were identified as “continuations” and were
not actual solicitations for grants in specific program areas. Instead, the “continuations”
categories were used to group all non-competitive grant awards such as those based on
unsolicited proposals, earmarks, and invited proposals.



                                              45
       For the remaining 171 continuation awards, an NIJ official provided us
information indicating that the bases for 92 of these 171 awards were
documented. The bases included continuations of ongoing research
projects, applications to competitive solicitations awarded under the
continuations category, and earmarks awarded under the continuations
category, among others. For the remaining 79 continuation awards, the NIJ
official stated there were no clear bases documented in GMS for awarding
the grants non-competitively. The official said that the decisions to award
these grants were usually made during meetings between program office
officials and the NIJ Director and that the final award decision was at the
discretion of the NIJ Director. However, the official said that the bases for
awarding grants without competition are usually not documented. As
discussed previously, in May 2008, after the award period we tested, the
Associate Attorney General directed the OJP Assistant Attorney General to
document all discretionary funding recommendations and decisions. Since
May 2008 OST program managers were required to prepare a memorandum
entitled Documentation of Discretionary Award Recommendations and
Decisions: Office of Science and Technology (OST) Continuations to explain
the reasons for awarding non-competitive awards. The memorandum is sent
from the NIJ Director through the OJP’s Deputy Assistant Attorney General
for Operations and Management to the head of OJP for approval. We
reviewed the award explanations in the August 13, 2008, memorandum
prepared by OST and found that the explanations were sometimes weak on
why the awards needed to be made on a non-competitive basis. For
example, for two non-competitive awards, the memorandum had the
following explanations.

     2008-90150-CO-IJ - The intent of this award is to inform state
     legislators and staff of the benefits and the requirements for
     building DNA capacity in criminal justice systems. NIJ did not
     have an FY 08 solicitation that would support this activity. NIJ
     awarded this grant to this professional organization because it is
     uniquely qualified to conduct that training, representing as it
     does the target audience.

     2008-92118-DC-IJ - The intent of this award is to inform policy
     makers and raise awareness at the state government level of
     electronic crime issues including child exploitation, identify theft
     and fraud. NIJ did not have an FY 08 solicitation that would
     support this activity. NIJ awarded this grant to this professional
     organization because it is uniquely qualified to conduct that
     training, representing as it does the target audience.




                                      46
       In both examples, the NIJ justified the award based on the
organization being uniquely qualified to conduct the training, but provided
no details to support why the organization was uniquely qualified. The OST
official told us that the NIJ has not developed procedures or guidance on
what constitutes a reasonable basis for awarding a grant non-competitively.
While we believe that the OST’s use of the memorandum to document the
justification for awarding grants non-competitively is a positive step,
additional guidance and procedures for justifying non-competitive grant
awards is needed to ensure the justification offered contains enough detail to
explain why the awards are justified.

      While performing our audit work related to lobbying activities as
discussed in Finding 1, we became aware of NIJ grant and sub-grant awards
other than those we sampled that were either awarded non-competitively to
a lobbying firm that had the appearance of a significant conflict of interest
related to the work funded, or were made non-competitively without
documented justifications for the non-competitive basis for the awards.

       The award to the lobbying firm with the clear appearance of a conflict
of interest was to Smith Alling Lane. Smith Alling Lane is a governmental
affairs firm located in Tacoma, Washington, with experience working with
law enforcement agencies and crime laboratories on forensic DNA issues.
According to records from the NIJ, OJP, and the NFSTC, from 2002 through
2007 Smith Alling Lane received about $663,000 in cooperative agreement
awards and sub-awards from the NIJ. We evaluated each of these awards
and sub-awards to determine if the awards were based on fair and open
competition.

       The non-competitive awards made without the required sole-source
justifications were to the National Forensic Sciences Technology Center
(NFSTC) in Largo, Florida. The NFSTC is a not-for-profit corporation
primarily funded by cooperative agreements with the NIJ and provides
programs that build individual competency and systems for the forensic
science community in the United States. In total, the NIJ has awarded the
NFSTC more than $58 million in cooperative agreements and supplements
from April 2000 to July 2009. We evaluated three of the agreements and
corresponding supplements totaling $34.2 million to determine if the awards
were based on fair and open competition.

     The details surrounding our evaluations of the Smith Alling Lane and
NFSTC awards are discussed in the following paragraphs.




                                      47
Cooperative Agreement 2002-LT-BX-K003

      On July 8, 2002, the NIJ awarded a non-competitive cooperative
agreement totaling $153,914 to Smith Alling Lane for the period June 30,
2002, through June 30, 2003, to conduct a comprehensive survey to develop
data for analyzing the effect of expanding DNA legislation on solving and
preventing crimes. The budget obligation documents showed that the funds
were not earmarked to Smith Alling Lane, but the NIJ awarded the company
a sole-source agreement.

      The NIJ prepared a sole-source justification for this award which
included the following explanation:

      •   Smith Alling Lane was the only organization in the country that had
          been systematically monitoring and synthesizing federal and state
          DNA policy issues since the first major congressional DNA
          legislation was enacted in 1994.

      •   Smith Alling Lane had committed resources to maintaining regular
          correspondence and discussions with almost every crime laboratory
          in the country, and as such was uniquely poised to fully survey the
          impact that existing and future legislative or policy activity would
          have on forensic DNA laboratories, law enforcement agencies, and
          courts.

      •   The NIJ required a very short turn-around time for in-depth data
          collection and analysis and Smith Alling Lane was the only resource
          that could begin the project immediately without requiring time for
          start-up logistics.

      •   Smith Alling Lane’s working relationships with law enforcement
          agencies and crime laboratories would ensure easy access to key
          decision makers, which would augment the quality and quantity of
          data to ensure that the NIJ’s needs are met.

     While the bases for the sole-source justification appear reasonable, we
found no documentation that supported how the NIJ established the bases.

      In addition, the award of the cooperative agreement to Smith Alling
Lane raises concerns because, as explained in the following paragraphs,
Smith Alling Lane appears to lack independence to perform the study funded
by the grant.




                                      48
       For more than 9 years, Smith Alling Lane has lobbied members of
Congress and the Department of Justice on legislation and policies related to
DNA issues. 35 Some of Smith Alling Lane’s clients benefit from these
lobbying efforts when Congress enacts legislation that provides more funding
for DNA-related work and when NIJ awards grants and contracts to Smith
Alling Lane’s clients to perform DNA-related work. Under the 2002
cooperative agreement, Smith Alling Lane completed a study with an
ultimate goal of estimating the number of unsolved cases of homicides,
rapes, and property crimes in the United States; the backlog that might be
anticipated if DNA testing was applied to those unsolved cases; and the
impact that such testing might have on law enforcement and crime
laboratory capacity. In our judgment, the study was designed to provide
data to the NIJ and Congress to help guide future policies and legislation
related to DNA testing. Because Smith Alling Lane’s clients could
significantly benefit from additional funding for more DNA testing,
Smith Alling Lane’s independence in performing the study is questionable.

       On September 30, 2002, the NIJ awarded Smith Alling Lane a non-
competitive supplement totaling $53,403 to the original cooperative
agreement. The supplement required Smith Alling Lane to complete two
additional studies – one to assess the effectiveness of the United Kingdom’s
use of DNA technology and DNA databases, and another to add
mitochondrial DNA evidence to the study being performed under the initial
award. The supplement also required Smith Alling Lane to expedite the
completion of the initial study. Smith Alling Lane’s total budget to complete
the two additional studies and expedite the initial study was $131,612. NIJ
awarded a second non-competitive supplement of $78,209 to Smith Alling
Lane on September 30, 2003, to fund the additional studies and expedited
work. The budget obligation documents showed that the funds for both
supplements were not earmarked to Smith Alling Lane and that the NIJ used
the same sole-source justification it had used for the initial award to support
the supplemental funds. As discussed above, we found no documentation
that supported how the NIJ established the bases for the sole-source
justification. Therefore, we could not confirm that the bases for the sole-
source award were accurate. However, the sole-source justification
appeared reasonable and we found no evidence to suggest the bases were
not accurate.




      35
          Smith Alling Lane lobbied for DNA issues from calendar year 2000 through 2006.
Beginning in calendar year 2007, Smith Alling Lane’s Government Services was renamed
Gordon Thomas Honeywell Governmental Affairs and continued to lobby for DNA issues into
calendar year 2009.


                                          49
Cooperative Agreement with the National Forensic Sciences
Technology Center

       On April 21, 2000, the NIJ awarded a non-competitive cooperative
agreement 2000-RC-CX-K001 totaling $414,651 to the NFSTC to expand the
range and scope of services they offer to forensic laboratories. According to
the grant documentation, the funding was based on a congressional
earmark, thereby explaining the non-competitive nature of the award. Over
the ensuing 5 years the NIJ also awarded five non-competitive supplements
totaling $17,538,906 to the NFSTC that were also based on congressional
earmarks.

     However, we found that the NIJ awarded the following three non-
competitive supplements under this agreement that were not based on
congressional earmarks and for which we found no evidence that the NIJ
prepared a required sole-source justification.

       •    Supplement 4 was awarded for $346,086 on September 30, 2002,
            to fund the development of an interactive CD-ROM on forensic DNA
            evidence to serve as an educational and resource tool for officers of
            the courts.

       •    Supplement 6 was awarded for $671,191 on September 30, 2002,
            to continue funding the interactive CD-ROM on forensic DNA.

       •    Supplement 8 was awarded for $2 million on September 21, 2004,
            to fund the development, testing, and evaluation of a program that
            builds on the success of conventional DNA academies. 36

      As previously discussed, until May 2008 NIJ’s practice was not to
prepare justifications for sole-source awards of grants and cooperative
agreements. Since May 2008, OJP policy requires that all discretionary
recommendations made absent a peer review process, which includes sole-
source awards, must be documented and must clearly explain the choices
made, the reasons for the choices, and the policy considerations on which
the decisions were based. However, as previously explained OJP has not
established specific criteria on when it is acceptable to make awards non-
competitively.



       36
           For Supplements 4 and 6, the NFSTC used Smith Alling Lane to perform work
related to the officers of the court program. According to NIJ and NFSTC officials, the NIJ
did not direct the NFSTC to use Smith Alling Lane for this work. Instead, the NFSTC
selected Smith Alling Lane independently of the NIJ.


                                             50
Cooperative Agreement 2004-DN-BX-0079

       On September 21, 2004, the NIJ awarded a non-earmarked
cooperative agreement totaling $1 million to the NFSTC for the period
October 2003 through September 2004 to develop and maintain a program
that links the DNA quality system audit and the grant program assessment
in a comprehensive format. In addition, on September 19, 2005, the NIJ
extended the cooperative agreement to NFSTC for 39 months through
December 2007 through a supplement for $5,728,286. Of the $5,728,286
awarded, $1,973,286 was earmarked to the NFSTC. Under the non-
earmarked portion of the supplement, the NFSTC contracted with Smith
Alling Lane to perform work related to content development support for the
DNA.gov website and to officers of the court training, compact disk
development, and workshops. OJP guidance requires that grantees prepare
sole-source justifications for acquisitions greater than $100,000. Despite
this requirement, according to an NIJ official and the Executive Director of
the NFSTC, the NIJ directed the NFSTC to use Smith Alling Lane to perform
the DNA.gov related work costing more than $100,000. For the DNA.gov
work directed by the NIJ, the NFSTC paid Smith Alling Lane $121,342. For
the other work performed by Smith Alling Lane, such as the officers of the
court training, the NFSTC selected Smith Alling Lane without direction from
the NIJ.

      We found no evidence to show the NIJ: (1) competed the grant,
(2) prepared a justification for the sole source selection of the NFSTC, and
(3) justified the basis for requiring the NFSTC to non-competitively select
Smith Alling Lane to perform the DNA.gov related work under the
supplemental cooperative agreement.

       The NIJ program manager responsible for the management and
oversight of the cooperative agreement confirmed to us that the cooperative
agreement to the NFSTC was non-competitively awarded and that there was
no documentation for the sole source selection of the NFSTC. The program
manager told us that in a meeting with a former NIJ Division Chief, the
Division Chief decided that the NFSTC had successfully demonstrated its
capabilities in prior work for the NIJ, and had the resources and
infrastructure in place to handle most any request. Therefore, according to
the program manager, the Division Chief decided to award the agreement to
the NFSTC without competition. The program manager also told us that
during the same meeting the Division Chief directed him to require the
NFSTC to use Smith Alling Lane to complete DNA.gov related work.

     We interviewed the former Division Chief regarding the selection of
NFSTC and Smith Alling Lane for work under this cooperative agreement.


                                      51
The Division Chief confirmed to us that no written justification for the sole
source selection of the NFSTC was prepared for the non-earmarked portion
of the cooperative agreement because the DNA program was so new.
However, the Division Chief stated that the non-earmarked awards were
discussed through the NIJ chain of command before any decisions were
made. The Division Chief told us that the NFSTC was awarded the
agreement non-competitively because it: (1) had contacts in the science
community, (2) was recognized and well accepted by the state and local
laboratory community, and (3) had established the resources and
infrastructure needed to complete the work during performance of the
earmarked awards previously made by the NIJ to the NFSTC. The Division
Chief told us she had no recollection of the events that led to Smith Alling
Lane being selected to perform the DNA.gov related work. The Division
Chief added that she believed that Smith Alling Lane was the likely candidate
for this work because Smith Alling Lane was recognized for its legislative
DNA expertise and was the most knowledgeable group.

      In summary, for cooperative agreement 2004-DN-BX-0079 the NIJ
awarded nearly $5 million of non-earmarked funds to the NFSTC non-
competitively without preparing justifications for the sole source awards. In
addition, the NIJ directed that the NFSTC hire Smith Alling Lane to perform
work under the agreement without documenting the rational for having the
NFSTC non-competitively contract with Smith Alling Lane for this work. The
NFSTC paid Smith Alling Lane $121,342 for this work.

Cooperative Agreement 2006-MU-BX-K002

      On September 14, 2006, the NIJ awarded a $4,951,379 cooperative
agreement to the NFSTC for the period of calendar year 2007 to support
various meetings, projects, and workshops involving the forensic science
community and state and local crime laboratories. The budget obligation
documents showed that $987,228 of the $4,951,379 was earmarked to the
NFSTC, while the remaining almost $4 million was not. Under the
agreement, the NFSTC hired Smith Alling Lane to perform work related to:
(1) researching and reporting on crime laboratory policies and practices that
influence the size and nature of DNA backlogs in forensic disciplines, and
(2) officers of the court training. In addition, on September 11, 2007, the
NIJ extended the cooperative agreement to NFSTC for 12 months through
December 2008 through a sole-sourced, non-earmarked supplement for
$1,552,176. According to an NIJ official and the Executive Director of the
NFSTC, the NIJ directed the NFSTC to use Smith Alling Lane to perform the
DNA backlog-related work and paid Smith Alling Lane $201,433 for the
period November 1, 2007, through December 30, 2008. For the officers of



                                     52
the court training, the NFSTC selected Smith Alling Lane without direction
from the NIJ. 37 Smith Alling Lane was paid $55,000 for this work.

        We found no evidence to show the NIJ: (1) competed the
non-earmarked portion ($3,964,151) of the initial cooperative agreement or
the supplemental award of $1,552,176, (2) prepared a justification for the
sole source selection of the NFSTC for the non-earmarked portion of the
initial award and the supplemental award, and (3) justified the basis for
requiring the NFSTC to select Smith Alling Lane without competition to
perform the DNA backlog study under the cooperative agreement.

        The NIJ program manager responsible for the management and
oversight of the cooperative agreement confirmed to us that the cooperative
agreement to the NFSTC was non-competitively awarded and that there was
no documented justification for the sole source selection of the NFSTC. The
program manager told us that in a meeting with a former NIJ Division Chief,
the Division Chief decided that the NFSTC had successfully demonstrated
itself in prior work for the NIJ, and had the resources and infrastructure in
place to handle this request. Therefore, according to the program manager,
the Division Chief decided to non-competitively award the agreement to the
NFSTC. The program manager also told us that during the same meeting,
the Division Chief decided to require the NFSTC to use Smith Alling Lane to
complete the DNA backlog study of laboratories and law enforcement.
Based on direction from the Division Chief, the program manager told the
NFSTC to revise its proposal to include Smith Alling Lane. However,
according to the program manager, an NIJ Deputy Director directed the
Division Chief to use Smith Alling Lane for only the laboratory portion of the
backlog study, and to solicit bids for the law enforcement portion of the
backlog study.

      We interviewed the former Division Chief regarding the selection of
NFSTC and Smith Alling Lane for work under this cooperative agreement.
The Division Chief told us that the NFSTC was awarded the agreement non-
competitively because it: (1) had contacts in the science community,
(2) was recognized and well accepted by the state and local laboratory
community, and (3) had established the resources and infrastructure needed
to complete the work during performance of the earmarked awards
previously made by the NIJ to the NFSTC. According to the Division Chief,
Smith Alling Lane was the logical choice to perform the DNA backlog study
because prior to passage of the President’s DNA initiative Smith Alling Lane


      37
         Smith Alling Lane Government Services changed its name to Gordon Thomas
Honeywell Governmental Affairs in 2007 during the time they performed work under the
NFSTC Cooperative Agreement 2006-MU-BX-K002.


                                          53
had surveyed crime laboratories on the status of DNA backlogs and had
obtained 100 percent participation from the laboratories. As a result, the
Division Chief said Smith Alling Lane: (1) had developed a quality survey
instrument, (2) had established contacts and relationships within the
laboratories, and (3) was highly thought of and recognized in the DNA
community. The Division Chief confirmed the program manager’s statement
that the NIJ Deputy Director directed that Smith Alling Lane be used only for
the laboratory portion of the backlog study, and to solicit bids for the law
enforcement portion of the backlog study.

      The Division Chief told us that no written justification for the sole
source selection of the NFSTC was prepared for the non-earmarked portion
of the cooperative agreement because the DNA program was new.
However, the Division Chief stated that the non-earmarked awards were
discussed with senior NIJ officials before any decisions were made.

      In summary, for cooperative agreement 2006-MU-BX-K002 the NIJ
awarded about $5.5 million of non-earmarked funds to the NFSTC
non-competitively without preparing justifications for the sole source
awards. In addition, the NIJ directed that the NFSTC hire Smith Alling Lane
to perform work under the agreement without documenting the rationale for
having the NFSTC non-competitively contract with Smith Alling Lane for this
work. The NFSTC paid Smith Alling Lane $201,433 for this work.

Potential Conflicts of Interest Relationships Between the NIJ and the NFSTC

       During the audit, we became aware of relationships between the NIJ
and the NFSTC that create the appearance of conflicts of interest. As
previously explained, the NFSTC is a not-for-profit corporation primarily
funded by cooperative agreements with the NIJ. The relationships involved
the NIJ using temporary assignments to hire key officials from the NFSTC to
manage and oversee NIJ grant programs. The temporary assignments,
known as Intergovernmental Personnel Act (IPA) assignments, involve the
temporary assignment of employees to or from state and local governments,
institutions of higher education, indian tribal governments, and other
organizations. The IPAs are intended to facilitate cooperation between the
federal government and the non-federal entity through the temporary
assignment of skilled personnel.

       Under one IPA assignment, the NIJ hired the then Deputy Executive
Director for the NFSTC for the period July 1, 2003, through June 30, 2004.
After the IPA assignment expired, the NFSTC manager returned to the
NFSTC where he currently serves as the Executive Director. During his IPA
tenure, the manager served as the key management official in the


                                     54
Investigative and Forensic Sciences Division within the NIJ’s Office of
Science and Technology. While at the NIJ, the manager’s duties included
managing all aspects of the Division’s strategic initiatives and programmatic
operations, to include planning, implementing, and evaluating the
development, application and dissemination of scientific and technological
research in the field of criminal investigation and forensic sciences. This
research included:

      •   DNA research and development, DNA laboratory improvement, and
          DNA testing;

      •   trace evidence, entomology, firearm lab analysis, data base design,
          equipment design and development, testing and evaluation, and
          weapons identification;

      •   questioned document identification;

      •   training in the uses of new technologies;

      •   research application and dissemination; and

      •   other forensic science techniques and technologies and methods of
          deploying them in reducing or preventing crime.

      We discussed the NIJ assignment with the NFSTC manager, who told
us that while he worked at the NIJ he was “walled off” from activities
involving the NFSTC. NIJ officials also told us that the manager did not work
on NFSTC-related activities while he worked at the NIJ. However, as
discussed in the following paragraphs, we obtained documentation from
OJP’s GMS system that indicates the manager apparently participated in
some NFSTC-related activities during his IPA assignment with the NIJ.

      According to documentation in GMS, on July 11, 2003, days after
then Deputy Executive Director for the NFSTC began his IPA assignment, an
application on behalf of the NFSTC for a supplement to its 2000 cooperative
agreement with the NIJ was submitted from the NFSTC GMS account
established by the NFSTC manager. The manager was not identified on the
application either as the person to contact on matters involving the
application or as the NFSTC’s authorized representative. However, on
May 20, 2004, about a month and a half before the IPA assignment expired,
another application was submitted for the NFSTC from the GMS account
established by the NFSTC manager. On this application, the manager was
shown as the person to contact on matters involving the application and as
the NFSTC’s authorized representative.


                                      55
Subsequent to the beginning of the NFSTC manager’s NIJ assignment
through July 2009, the NIJ awarded the NFSTC more than $45 million, much
of which was awarded non-competitively and without the required sole-
source justification, as previously discussed. By allowing the NFSTC
manager to manage the planning of scientific and technological research in
the field of criminal investigation and forensic sciences, especially when such
research involves the same type research activities for which the NFSTC
receives grant funding from the NIJ, we believe the NIJ has created a strong
appearance of a conflict of interest.

       Under another IPA, the NIJ hired an NFSTC program manager for the
period October 1, 2006, through September 30, 2007. The program
manager’s duties at the NIJ included designing and implementing
operational plans to execute activities of the NIJ’s Office of Science and
Technology. The program manager also provided programmatic oversight to
grantees, contractors, and peers in cooperative agreements, grants, and
contracts conducted or funded by the Office of Science and Technology. We
did not identify any evidence in GMS to indicate that the program manager
participated in any activities involving the NFSTC while working for the NIJ.
However, like for the other NFSTC manager, we believe that allowing key
officials for the NFSTC to be temporarily assigned to the NIJ to perform
planning activities and grant oversight work for the same NIJ office that
awards and oversees grants to the NFSTC creates a strong appearance of a
conflict of interest.

Requirements for Non-competitive Contract Awards

       The FAR requires that, with certain limited exceptions, contracting
officers must promote and provide for full and open competition in awarding
government contracts. However, for contracts worth less than $100,000,
contracting officers may solicit from one source if the contracting officer
determines that the circumstances of the contract action deem only one
source reasonably available. In such cases, the FAR requires that
documentation explaining the absence of competition be maintained in the
contract file.

        For most contracts exceeding $100,000, the FAR requires that a
contracting officer must not commence negotiations for a sole source
contract, commence negotiations for a contract resulting from an unsolicited
proposal, or award any other contract without providing for full and open
competition unless the contracting officer determines and documents that
certain conditions are met and obtains the requisite approval prescribed in
the FAR.



                                      56
       Awarding a contract without full and open competition can be justified
based on certain conditions, such as if only one responsible source is
available, the agency has an urgent need that must be filled quickly, or the
contract is needed to maintain an essential research capability. The
contracting officer must prepare a written document justifying the reasons
that less than full and open competition is required. The FAR also requires
that the justification for other than full and open competition usually be
approved in writing.

NIJ Non-competitive Contract Awards

       As discussed in Finding 1, we judgmentally selected a sample of 34 of
the 131 contract actions made by the NIJ from FY 2005 through FY 2007 to
test for fair and open competition. We determined that of the 34 contract
actions, 27 worth about $27.6 million were awarded using competitive
procedures while 7 worth $11.2 million were awarded using non-competitive
procedures. Our evaluation of the adequacy of the non-competitive award
justifications for the seven non-competitive awards is discussed in the
following section.

Adequacy of Justifications for Non-competitive Contract Awards

      Based on the non-competitive requirements previously discussed, we
analyzed the actions taken by the NIJ and OJP to award the seven
non-competitive contract actions sampled. The 7 non-competitive contract
actions consisted of 11 individual transactions, such as task orders, task
order modifications, base contract awards, or contract modifications. We
found that the non-competitive justifications were adequate for the sampled
contract actions, except as discussed in the following paragraphs.

Contract 2004C-002 to Aspen Systems Corporation

      The seven contract actions we sampled included a contract action for
$33,778 consisting of two modifications in 2006 to a contract issued in 2003.
To determine whether the non-competitive basis for this contract was
appropriate and properly documented, we obtained information related to
the initial award of this contract. The 2003 contract was non-competitively
awarded to Aspen Systems Corporation to bridge the gap between a
National Criminal Justice Reference Service (NCJRS) contract to provide
various support functions, such as distribution and warehousing, conference
exhibitions, computer operations, and publications support, that expired on
November 30, 2003, and the follow-on competitive contracts. The bridge
contract was awarded for a 3-month period through February 2004, and
contained an option for a 3-month extension through May 2004, if


                                     57
necessary. For each 3-month period, the expected cost was estimated at
about $4.5 million.

      On November 28, 2003, 2 days prior to the expiration of the NCJRS
contract, the contracting officer prepared a justification for other than full
and open competition for the bridge contract. We found that the justification
contained all the minimum requirements required by the FAR, except a
description of the supplies or services required to meet the agency’s needs.

       However, while the justification contained the minimum requirements
identified in the FAR, we believe that the reasons cited by the contracting
officer did not sufficiently justify the basis for the sole-source award because
the justification did not provide important details to explain why the new
contracts were not ready for award before the current contract expired.
These details are crucial because the FAR clearly indicates that lack of
adequate planning is not a valid basis for limiting competition.

Contract GS-23F-0232K to Lockheed Martin Integrated Technology, LLC

       The seven contract actions we sampled included two contract actions
totaling $10,868,131 consisting of one base task order in 2006 to provide
systems engineering and technical assistance for NIJ programs and four
modifications to extend the performance period.

      We found that the justification for the base task order contained a
written response to all the minimum requirements for a sole source contract.

      Lockheed Martin Integrated Technology was performing the
engineering and technical assistance services for the NIJ under a GSA
contract, which the GSA decided not to renew. Based on the insufficient
lead-time for the OJP to award a new contract for these services, we
concluded that the contracting officer appropriately prepared a justification
to show that Lockheed Martin was the only responsible source that could
continue the services in such a short timeframe when it issued the original
task order as a sole source. The original task order allowed Lockheed Martin
Integrated Technology to continue the services for 9 months, through
September 2006, and allowed time for OJP to award a new competitive
contract for the services.

      However, when the new contract was not ready for award by the end
of September 2006, OJP awarded the first modification to extend the
performance period for 3-months. Three subsequent modifications extended
the performance period through September 2007. We found that the
contracting officer did not provide adequate justification as to why the task


                                      58
orders had to be extended on a sole source basis. Specifically, the
justification did not explain the circumstances of why award of the follow-on
contract was delayed.

Recommendations

We recommend that OJP:

5. Require the NIJ to document the basis for non-competitive grant awards
   and issue guidelines for what constitutes a reasonable basis for making
   non-competitive grant awards.

6. Require the NIJ to assess the independence of grant applicants for
   performing research studies before awarding the grants.

7. Require the NIJ to document the basis for requiring grantees to use
   specific sub-grantees to perform work related to the grants.

8. Ensure that non-competitive justifications for contract awards fully
   explain the circumstances that led to the sole-source awards.




                                      59
      3. ADMINISTRATIVE COSTS FOR GRANTS AND
         CONTRACTS

      We reviewed the final grant budgets for 1,400 grants and
      determined the administrative costs for the grants totaled about
      $64.1 million, or about 12 percent of the $551 million awarded
      for these grants. 38 We found that 812 of the 1,400 grants listed
      no administrative costs. The administrative costs for the
      remaining 588 grants ranged from 0.03 ($54) to 65.65 percent
      ($327,373) of the total grant award amounts. For the
      130 contracts we reviewed, we determined the administrative
      costs totaled about $990,000, or about 1.5 percent of the
      $64 million awarded for these contracts. We found that 86 of
      the 130 contracts listed no administrative costs, while the
      administrative costs for the remaining 44 contracts ranged from
      0.02 ($14) to 41 percent ($20,053) of the total contract award
      amounts.

       We reviewed the NIJ grants and contracts awarded during FY 2005
through FY 2007 to identify related costs that were administrative in nature.
To identify those costs, we first had to define administrative costs. For
contract costs, the Federal Acquisition Regulation (FAR) defines types of
cost, but does not specifically define what constitutes administrative costs.
The FAR basically establishes two types of costs for contracts – direct costs
and indirect costs. Based on the definitions of direct and indirect costs as
explained below, we considered only indirect costs to be administrative
costs.

       Direct costs are costs identified with a specific project. Direct costs
include, but are not limited to, items that are incorporated in the end
product such as labor and material. Other direct costs include items such as
office supplies, postage, reproduction, ground transportation, and travel.

       Indirect costs are costs identified with two or more projects or
activities. The cost of operating and maintaining facilities, depreciation, and
administrative salaries are examples of the types of costs that are usually
treated as indirect. Because of their nature, indirect costs cannot be
charged to final cost objectives on an individual basis. Therefore, indirect
costs must be classified and grouped together into indirect cost pools,

      38
         For 57 of the 1,459 NIJ grants awarded during FYs 2005 through 2007, the grant
budgets maintained in GMS did not match the grant award amounts. Without the final
budgets, we were unable to determine the administrative costs for these 57 grants. Two of
the remaining 1,402 grants were actually adjusting accounting entries and not actually
grant awards during the period.


                                           60
typically either an overhead cost pool or the general and administrative
expense (G&A) cost pool. The pools in turn are allocated to final cost
objectives using an indirect cost allocation base that best links the cost pool
to the cost objectives. Costs that are incurred for or that only benefit an
identifiable unit or activity, such as an engineering or manufacturing
department, are considered overhead costs. Examples of overhead costs
include:

       •    department supervision,

       •    depreciation of department buildings and equipment,

       •    training of department employees, and

       •    fringe benefits of department employees.

       G&A expenses represent indirect costs that are necessary to the
overall operation of the business as a whole, but for which a direct
relationship to any particular cost objective cannot be shown. G&A includes
the top management functions for executive control and direction over all
personnel, departments, facilities, and activities of the contractor. Typically,
it includes human resources, accounting, finance, public relations, contract
administration, legal, and an expense allocation from the corporate home
office.

       The guidelines for grants also identify two types of grant costs – direct
costs and indirect – but do not define what constitutes administrative
costs. 39

      We explained our methodology for identifying administrative costs to
NIJ and OJP officials. An OJP contracting official stated that our
methodology was reasonable, given the lack of a clear definition for
administrative costs. An OJP finance official generally agreed with our
methodology but stated that grants without approved indirect cost or G&A
rates may also include direct administrative costs in the grant budgets. An
NIJ grant making official stated that the OJP budget detail worksheet does
not contain a category for administrative costs, but that some solicitations
define allowable administrative costs. We reviewed the 10 solicitations for
our sampled grants and found that none of the solicitations defined or
mentioned administrative costs. Without a clear definition of administrative

       39
         The cost principles for grants are contained in 2 C.F.R. § 220 – Cost Principles for
Educational Institutions; 2 C.F.R. § 225 – Cost Principles for State, Local, and Indian Tribal
Governments; and 2 C.F.R. § 230 – Cost Principles for Non-profit Institutions.



                                             61
costs, we considered all indirect costs to be administrative costs, including
overhead costs, G&A expenses, and certain expenses identified as “Other
Costs” in grantee and contractor proposals that appeared to be indirect
costs. 40 While some direct costs may be administrative in nature, we
considered these costs as program costs and did not attempt to distinguish
any of the direct costs as administrative costs. Therefore, our calculation of
the administrative costs is conservative.

Administrative Costs for Grants

      We reviewed the grant files contained in GMS for the 1,459 NIJ grants
awarded during FYs 2005 through 2007 to identify their administrative costs.
However, we excluded 61 (4 percent) of the 1,459 grant files because of
discrepancies between the information in GMS and the grant files.

        We determined that the award amounts provided to us by the NIJ
differed from the initial award amounts for 112 of the 1,459 awards. The
initial award amounts were generally more than the amounts provided us by
the NIJ generally because the amounts provided by the NIJ included
reductions for deobligations made after the initial awards. 41 We consider
these differences to be the result of how the NIJ captured the data for us,
and not a deficiency in the recorded award amounts. As a result of these
differences, we adjusted the actual initial award amounts for the
1,459 grants to $568,126,833, or $759,309 more than reported to us by the
NIJ. We did not exclude these grants from our review, but instead used the
adjusted grant award amounts in our analyses.

      We found two types of discrepancies. First, we found that 2 of the
1,459 grants recorded on the OJP’s grant universe listing were adjusting
accounting entries and not actually grant awards during the period we
reviewed. Therefore, we excluded these two grants from this review.

      Second, after excluding the 2 grants that were actually adjusting
entries, we determined that the grant budgets contained in GMS did not
match the grant award amounts for 57 of the remaining 1,457 grants. While
some of the budgets for the 57 grants identified administrative costs, there
was no assurance that the administrative cost amounts were correct because
the budget was not the final budget that matched the grant award amount.
Therefore, we were unable to draw a conclusion regarding the administrative

       40
          Appendices II and V show the administrative costs for grants and contracts by
various sub-categories.

       41
         Appendix III contains the details regarding the differing award amounts for the
112 grants.


                                            62
costs for these 57 grants and excluded them for our review. 42 All but 1 of
the 57 grants were formula grants which do not go through a formal budget
review by the Office of the Chief Financial Officer. However, NIJ officials
confirmed that the budgets submitted for the formula grants should match
the grant award amounts.

      Our review of the remaining 1,400 grant files found that the
administrative costs for the grants totaled $64,092,600, or about 12 percent
of the $551,035,127 awarded for these grants.

               Exhibit 16: Administrative Costs in NIJ Grants
                  Awarded During FYs 2005 through 2007

                                                                Administrative Costs
                                         Grant    Total Award              Percent of
                                        Awards      Amount       Amount      Award
 Grants Without Administrative Costs       812    $230,496,413          $0     0%
 Grants With Administrative Costs          588    $320,538,714 $64,092,600    20%
 Totals                                  1,400    $551,035,127 $64,092,600    12%
Source: OIG analyses of grant budgets

        As shown in Exhibit 16, 812 of the grants contained no administrative
costs. For the remaining 588 grants, we found that the administrative costs
ranged from 0.03 percent to 65.65 percent of the total grant award
amounts. Appendix II contains the details regarding the administrative
costs for each of the 1,400 grants. We determined that for each of the
588 grants that identified administrative costs, the administrative costs were
determined by the grantees and included in the grantees’ grant budgets
submitted to the NIJ. While the administrative cost percentage for some
grants appeared high, administrative costs can vary significantly based on
factors such as the type, size, and location of the organization; age of
facilities and equipment; and purpose of the grant. According to an NIJ
official, the administrative costs in the budgets were reviewed for
reasonableness before NIJ made the awards. We did not attempt to analyze
the administrative cost percentages for individual grantees to evaluate the
reasonableness of the administrative costs budgeted because such analysis
was beyond the scope of this review and would have required conducting
detailed audits of individual grants with high administrative costs.




       42
           Appendix IV contains the details regarding the 59 grants with budgets that
differed from the award amounts.


                                            63
Administrative Costs for Contracts

      We reviewed the contract files for the 131 NIJ contracts awarded in
FYs 2005 through 2007 to identify the administrative costs included in the
contracts. We could not determine the administrative costs for one contract
because the purchase was part of a purchase with other OJP offices and the
administrative costs associated with the NIJ portion of the purchase was not
readily identifiable. As shown in the following table, we determined that the
administrative costs for the remaining 130 contracts totaled $990,383, or
about 1.5 percent of the $64,049,454 awarded for these contracts. 43

             Exhibit 17: Administrative Costs in NIJ Contracts
                 Awarded During FYs 2005 through 2007

                                                                    Administrative Costs
                                          Contract Total Award                  Percent
                                          Awards     Amount          Amount of Award
 Contracts Without Administrative
 Costs                                   86          $38,349,986           $0         0%
 Contracts With Administrative Costs     44          $25,699,468     $990,383       3.9%
 Totals                                130           $64,049,454     $990,383       1.5%
Source: OIG analyses of contract documentation

       As shown in Exhibit 17, 86 of the contracts contained no
administrative costs. For the remaining 44 contracts, we found that the
administrative costs ranged from 0.02 to 41 percent of the total contract
award amounts. Appendix V contains the details regarding the
administrative costs associated with each of the 130 contract awards. We
determined that for each of the 44 contracts that identified administrative
costs, the administrative costs were determined by the contractors and
included in the contractors’ proposals. As explained for grants, the
administrative cost percentages can vary significantly based on various
factors. According to a contracting office official, NIJ reviewed the
administrative costs in the proposals during the contract award process to
make sure they were reasonable and in accordance with approved indirect
cost-rate agreements. We did not attempt to analyze the administrative
cost percentages for individual contracts to evaluate the reasonableness of
the administrative costs budgeted because such verification was beyond the
scope of this review and would have required conducting detailed audits of
individual contracts with high administrative costs.




       43
           We noted, however, that the rate of administrative costs in grants was
significantly higher than for contracts.


                                            64
Recommendation

We recommend that OJP:

9. Ensure that the final approved grant budgets for formula grants are
   maintained in GMS and that the budgets match the amount of funds
   awarded to the grantees.




                                    65
            STATEMENT ON COMPLIANCE WITH LAWS
                     AND REGULATIONS

      As required by the Government Auditing Standards, we tested the
NIJ’s processes, controls, and records to obtain reasonable assurance that
the NIJ complied with laws and regulations that, if not complied with, could
have a material effect on the NIJ’s ability to effectively manage its
competitive award of grants and contracts. Compliance with laws and
regulations applicable to the NIJ’s awarding of grants and contracts is the
responsibility of NIJ management. An audit includes examining, on a test
basis, evidence about compliance with laws and regulations. The specific
laws and regulations we reviewed included the relevant portions of the:

      •   Federal Acquisition Regulation;

      •   2 C.F.R. § 220 – Cost Principles for Educational Institutions;

      •   2 C.F.R. § 225 – Cost Principles for State, Local, and Indian Tribal
          Governments;

      •   2 C.F.R. § 230 – Cost Principles for Non-profit Institutions;

      •   5 C.F.R. § 2634 – Executive Branch Financial Disclosure, Qualified
          Trusts, and Certificates of Divestiture;

      •   28 C.F.R § 69 – Judicial Administration, Department of Justice, New
          Restrictions on Lobbying;

      •   44 U.S.C. § 3101 – Records Management by Federal Agencies;

      Except for instances of non-compliance identified in the Finding and
Recommendations section of this report, the NIJ complied with the laws and
regulations cited above. With respect to those activities not tested, nothing
came to our attention that caused us to believe that the NIJ was not in
compliance with the laws and regulations cited above.




                                       66
              STATEMENT ON INTERNAL CONTROLS


      In planning and performing our audit, we examined whether the NIJ
implemented effective processes to ensure that grants and contracts were
awarded on a fair and open basis. We considered management’s controls,
decisions, policy, and guidelines for the purposes of determining our auditing
procedures. The evaluation of internal controls was not made for the
purpose of providing assurance on the NIJ’s internal control structure as a
whole.

      Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect the NIJ’s ability to
award grants and contracts on a fair and open basis. As discussed in the
Findings and Recommendations section of our report, we identified
weaknesses in the NIJ’s processes for awarding grants and contracts.

       Because we are not expressing an opinion on the NIJ’s internal control
structure as a whole, this statement is intended solely for the information
and use of the NIJ. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                       67
                      ACRONYMS

 Acronym                        Description
ADP        Automatic Data Processing
BPA        Blanket Purchase Agreement
CRP        Center for Responsive Politics
FAR        Federal Acquisition Regulation
FSS        Federal Supply Schedule
FY         Fiscal Year
GAO        Government Accountability Office
GMS        Grants Management System
GSA        General Services Administration
IRMD       Information Resources Management Division
NCJRS      National Criminal Justice Reference Service
NIJ        National Institute of Justice
NFSTC      National Forensic Sciences Technology Center
NLECTC     National Law Enforcement and Corrections
           Technology Center
OAAM       Office of Audit, Assessment, and Management
OIG        Office of the Inspector General
OJP        Office of Justice Programs
ORE        Office of Research and Evaluation
OST        Office of Science and Technology
SETA       Systems Engineering and Technical Assistance
SF         Standard Form




                           68
                                                             APPENDIX I

           Audit Objectives, Scope, and Methodology

     In the Joint Explanatory Statement to Accompany the Consolidated
Appropriations Act, 2008, Congress directed the Office of the Inspector
General (OIG) to evaluate the NIJ’s competitive programs. Specifically,
Congress directed the following.

     The OIG is directed to audit competitive National Institute
     of Justice programs, projects and activities, including
     contracts and grants, awarded in the last three fiscal
     years. The audit shall examine whether these grants and
     contracts were awarded through a fair and open
     competitive process. The audit shall identify costs related
     to any grant or contract that are administrative in nature
     and provide a detailed breakout of how those costs were
     determined.

Objectives

      In response to the congressional directive, we established the
following objectives for this audit:

     •   Determine whether competitive NIJ grants and contracts awarded
         in FYs 2005 through 2007 were awarded based on fair and open
         competition.

     •   Determine whether non-competitive NIJ grants and contracts
         awarded in those fiscal years were properly justified.

     •   Identify costs related to grants and contracts that are
         administrative in nature and explain how those costs were
         determined.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a




                                     69
reasonable basis for our findings and conclusions based on our audit
objectives.

      The audit covered competitive and non-competitive grant and contract
award practices from October 2004 through September 2007. 44 We
performed audit work at OJP and OJP’s National Institute of Justice (NIJ).

      To accomplish the audit objectives, we reviewed laws, regulations, and
other guidelines regarding the award of grants and contracts. We also
interviewed NIJ and OJP officials regarding the processes used to award
grants and contracts.

     To test whether competitively awarded grants and contracts were
based on fair and open competition, we first obtained data from OJP that
showed from Fiscal Years (FY) 2005 through 2007, the NIJ awarded:

       •    1,459 grants and grant supplements totaling more than
            $567 million 45 and

       •    131 contract actions totaling more than $64 million. 46

     The following exhibit illustrates the extent of grant and contract
awards over the 3-year period.




       44
         While our audit work concentrated on the NIJ’s grant and contract awards in
FYs 2005 through 2007, we expanded our testing to awards made outside this time period
as necessary to fully explore the NIJ’s competitive award practices.
       45
           The NIJ awards both grants and cooperative agreements when the principal
purpose of the relationship between the NIJ and the recipient is the transfer of money or
anything of value to the eligible recipient to accomplish the public purpose of support as
authorized by federal statute. The NIJ uses a cooperative agreement when substantial
involvement is anticipated between the NIJ and the recipient during performance of the
activity funded. When such substantial involvement is not anticipated, the NIJ uses a grant
as the funding instrument. In this report we refer to both cooperative agreement and grant
awards as grants.
       46
           The universe of contracts provided to us by OJP identified 406 transactions as
contract awards totaling more than $71 million. We determined that 233 of the
transactions, totaling $1,112,690, were actually not contract awards, but were transactions
for travel and other reimbursements. Therefore, we excluded these 233 actions from our
review. We determined that an additional 42 transactions, totaling $6,047,870, were for
agreements such as interagency agreements, intergovernmental agreements, and
intergovernmental personnel agreements.


                                            70
             Exhibit 18: FY 2005 through FY 2007 NIJ Grant
                          and Contract Awards

    $250,000,000
                     $201,812,437
                      514 Awards       $183,040,179       $182,514,908
    $200,000,000                        494 Awards         451 Awards


    $150,000,000
                                                                                 Grants
    $100,000,000                                                                 Contracts


     $50,000,000              $16,719,470         $25,701,058      $21,870,164
                               41 Awards           45 Awards        45 Awards

                $0
                        FY 2005             FY 2006             FY 2007

  Source: Office of Justice Programs

       For the universe of grants and contracts, we asked NIJ and OJP
officials to identify whether the awards were made competitively or
non-competitively. The officials explained that information was readily
available to show whether the grants were competitively or
non-competitively awarded. However, the officials stated that the
information was not readily available for the contracts and would need to be
obtained by reviewing each of the contract files. Therefore, the officials
identified the competitive nature of the grant awards only. The 1,459 grant
awards included 98 grant supplements that were made against the original
grant number. Therefore, the universe of grant awards contained
1,361 separate grant numbers. According to the officials, the 1,361 grant
awards included 137 non-competitive awards and 1,209 competitive awards.
The remaining 15 awards contained both competitive and non-competitive
transactions, such as an original competitive award and a supplemental
non-competitive award.

      Next, we judgmentally selected a sample of the NIJ grant and contract
awards for testing. From the universe of 1,209 competitive awards and
15 awards that included both competitive and non-competitive transactions,
we judgmentally selected the following 40 awards, totaling $28,656,715, for
testing by choosing from the grantees that received 7 or more awards:

      •   15 awards, totaling $22,740,917, with the highest award amounts;




                                             71
       •    5 awards, totaling $126,303, with the lowest award amounts;

       •    5 awards, totaling $2,098,363, with the earliest award dates;

       •    5 awards, totaling $1,616,397, with the latest award dates; and

       •    10 awards, totaling $2,074,735, with award dates in the middle of
            the universe period.

      We reviewed the 40 sampled grant awards and found that 1 was
actually an adjustment to the accounting records and was not an actual
award during our period. Of the remaining 39 grant awards, we determined
that 15 were actual competitive awards and 24 were non-competitive
awards. We tested each of the 15 competitively awarded grants to
determine if:

       •    pre-award records were maintained to support that the grant
            awards were based on fair and open competition;

       •    the NIJ program managers and management personnel involved in
            awarding the grants were free of conflicts of interest, and if not,
            were the conflicts adequately addressed by the NIJ; and

       •    the NIJ’s grant application review process, including initial program
            office reviews, peer reviews, documentation of program office
            recommendations, and documentation of NIJ Director selections,
            was implemented effectively to ensure fairness and openness of the
            competition process.

       We tested 23 of the 24 non-competitively awarded grants to determine
if:

       •    congressionally directed awards (earmarks) were supported by
            documentations showing the authority for the earmark and

       •    discretionary awards were supported by a written justification
            supporting the basis for the sole-source award. 47


       47
           For 1 of the 24 non-competitive awards, the NIJ provided award information
related to a different supplement than the one included in our sample. Once we realized the
mistaken information provided, we did not request that the NIJ provide information for the
correct supplement. Instead, we reviewed the non-competitive award information for the
other 23 awards included in our sample.



                                            72
     From the universe of 131 contracts, we judgmentally selected
34 awards, totaling $38,835,324, for testing by choosing:

      •    19 awards, totaling $18,220,018, made to the 3 award recipients
           receiving the highest cumulative award amounts of blanket
           purchase agreements;

      •    8 awards, totaling $19,989,535, made to the 4 award recipients
           receiving the highest cumulative award amounts of orders against
           General Services Administration multiple award schedule contracts;

      •    5 awards, totaling $369,816, made to the 3 award recipients
           receiving the highest cumulative award amounts of open market
           purchases; and

      •    2 awards, totaling $255,955, made using a negotiated contract. 48

      We reviewed the 34 sampled contract actions and determined that
27 were awarded using competitive procedures while 7 were awarded using
non-competitive procedures. We reviewed the 27 competitively awarded
contract actions to determine if:

      •    the award was based on a properly approved requisition and
           certification of the availability of funds for the acquisition,

      •    price analyses were completed for the acquisition,

      •    the proposal were adequately evaluated and rated,

      •    individuals involved in evaluating proposals and making award
           recommendations and decisions completed the Conflict of Interest
           and Non-disclosure Statements, and

      •    appropriate actions were taken when conflicts of interest were
           identified.



      48
          Blanket purchase agreements are a simplified method of filling anticipated
repetitive needs for supplies or services by establishing “charge accounts” with qualified
vendors. General Services Administration (GSA) contracts are awarded for similar or
comparable supplies or services and established with more than one supplier, at varying
prices. Open market purchases are made for supplies or services from non-GSA vendors.
Negotiated contracts are above the simplified purchase threshold of $100,000 and are
made using other than sealed bids.



                                            73
      We tested each of the seven non-competitively awarded contract
actions to determine if documentation was available to support the basis for
the sole-source award.

      We also analyzed all 1,459 grant and contract awards during FY 2005
through FY 2007 to identify the administrative costs associated with the
awards and to explain how those costs were determined. To identify those
costs, we first had to define administrative costs. The cost guidelines for
contracts are contained in the Federal Acquisition Regulation (FAR). The
cost guidelines for grants are contained in 2 C.F.R. § 220 – Cost Principles
for Educational Institutions; 2 C.F.R. § 225 – Cost Principles for State, Local,
and Indian Tribal Governments; and 2 C.F.R. § 230 – Cost Principles for
Non-profit Institutions. The cost guidelines for grants and contracts identify
that costs are comprised of two types of costs – direct costs and indirect
costs. We further determined that administrative costs are captured under
the indirect cost category and typically include overhead costs and general
and administrative expenses. Therefore, for the purposes of our review, we
considered indirect costs, both overhead and G&A expenses, to constitute
administrative costs for both grants and contracts.

       To identify the administrative costs for each grant, we obtained the
latest grant budget and determined if it matched the grant award amount.
If the budget did not match the grant award amount, then we could not
identify the administrative costs for the grant since we had no assurance
that the latest grant budget was accurate. For the budgets that did match
the award amount, we identified the administrative costs included in the
budget and reviewed the budget to determine how the costs were
calculated. We performed a similar review for the contracts by analyzing the
award documentation in the contract file to identify the administrative costs
included in the award and to determine how those costs were calculated.




                                      74
                                                                                             APPENDIX II

                               Administrative Costs for Grant Awards
                                 During FY 2005 through FY 2007

                     FY 2005          Total        Percent                Categories of Indirect Costs
           Grant      Award       Administrative   of Total                                Indirect
          Number     Amount           Cost         Award      Overhead       G&A             Cost         Other
FY 2005 Awards
    1 2000MUMU0014     $300,000          $86,732    28.91%           $0            $0           $86,732           $0
    2 2001LTBXK002   $2,959,930       $1,152,748    38.95%           $0            $0        $1,152,748           $0
    3 2001LTBXK011     $550,000          $66,143    12.03%           $0            $0           $66,143           $0
    4 2001MUMU0007     $250,000          $35,590    14.24%           $0       $35,590                $0           $0
    5 2001MUMUK009   $2,859,930         $199,421     6.97%           $0            $0          $199,421           $0
    6 2001RDCXK001     $374,603          $74,938    20.00%           $0            $0           $74,938           $0
    7 2002GPCX1003   $1,199,992         $241,299    20.11%           $0            $0          $241,299           $0
    8 2002IJCXK010     $184,105          $61,776    33.55%           $0            $0           $61,776           $0
    9 2002LPCXK007     $246,661               $0     0.00%           $0            $0                $0           $0
   10 2002MUCXK006     $149,493          $50,162    33.55%           $0            $0           $50,162           $0
   11 2002MUMUK011   $6,806,503       $1,111,407    16.33%           $0            $0        $1,111,407           $0
   12 2003DCBX1001   $3,427,055         $134,862     3.94%           $0      $134,862                $0           $0
   13 2003DDBXK013      $98,664          $13,640    13.82%           $0            $0           $13,640           $0
   14 2003IJCXK004      $30,002           $3,091    10.30%           $0            $0            $3,091           $0
   15 2003IJCXK011   $2,959,929         $618,568    20.90%           $0            $0          $618,568           $0
   16 2003IJCXK016     $989,477          $63,677     6.44%           $0            $0           $63,677           $0
   17 2003IJCXK024   $2,959,930       $1,065,575    36.00%           $0            $0        $1,065,575           $0
   18 2003IJCXK025   $1,973,286         $571,127    28.94%           $0            $0          $571,127           $0
   19 2003IJCXK104     $254,549          $72,009    28.29%           $0            $0           $72,009           $0
   20 2003RCCXK001   $3,948,912         $805,082    20.39%           $0            $0          $805,082           $0
   21 2003RCCXK001     $340,000         $112,807    33.18%           $0            $0          $112,807           $0
   22 2004DNBX0079   $1,973,286          $51,488     2.61%           $0       $51,488                $0           $0
   23 2004DNBX0079   $3,755,000          $99,948     2.66%           $0       $99,948                $0           $0
   24 2004DNBX4069     $226,674               $0     0.00%           $0            $0                $0           $0



                                                      75
                    FY 2005          Total          Percent                 Categories of Indirect Costs
           Grant     Award        Administrative    of Total                                 Indirect
          Number    Amount            Cost          Award      Overhead        G&A             Cost        Other
25   2004DNBX4141      $173,440               $0      0.00%            $0            $0               $0        $0
26   2004DNBX4155      $230,328               $0      0.00%            $0            $0               $0        $0
27   2004DNBX4178       $80,233               $0      0.00%            $0            $0               $0        $0
28   2004DNBX4184       $80,233               $0      0.00%            $0            $0               $0        $0
29   2004DNBX4210       $79,175                $0     0.00%            $0            $0               $0        $0
30   2004DNBXK017      $500,000        $100,284      20.06%            $0            $0         $100,284        $0
31   2004DNBXK212    $1,484,782          $43,246      2.91%            $0            $0          $43,246        $0
32   2004IJCX0005       $28,978           $7,383     25.48%            $0            $0           $7,383        $0
33   2004IJCX0096      $986,643        $322,306      32.67%            $0            $0         $322,306        $0
34   2004IJCXK016      $100,000                $0     0.00%            $0            $0               $0        $0
35   2004IJCXK035      $249,995        $102,581      41.03%            $0            $0         $102,581        $0
36   2004IJCXK039      $250,000          $83,555     33.42%            $0            $0               $0   $83,555
37   2004IJCXK040      $300,000          $96,926     32.31%            $0            $0               $0   $96,926
38   2004IJCXK055   $10,900,000          $23,640      0.22%            $0            $0          $23,640        $0
39   2004LPCXK049      $493,322               $0      0.00%            $0            $0               $0        $0
40   2004LTBXK001      $542,654        $140,777      25.94%            $0            $0         $140,777        $0
41   2004LTBXK002      $986,643        $164,008      16.62%       $18,491      $145,517               $0        $0
42   2004LTBXK003    $1,973,000          $10,229      0.52%            $0            $0          $10,229        $0
43   2004LTBXK086       $50,000                $0     0.00%            $0            $0               $0        $0
44   2004MUMUK002       $99,999          $34,205     34.21%            $0            $0          $34,205        $0
45   2004RCCXK019      $197,329               $0      0.00%            $0            $0               $0        $0
46   2004RGCXK001      $986,643        $186,744      18.93%            $0            $0         $186,744        $0
47   2005ACBX0011      $457,200          $94,343     20.63%            $0            $0          $94,343        $0
48   2005DABXK001      $205,407           $4,767      2.32%            $0            $0           $4,767        $0
49   2005DABXK002      $225,616          $69,233     30.69%            $0            $0          $69,233        $0
50   2005DABXK003      $256,000               $0      0.00%            $0            $0               $0        $0
51   2005DABXK004      $555,601               $0      0.00%            $0            $0               $0        $0
52   2005DABXK005       $45,980                $0     0.00%            $0            $0               $0        $0
53   2005DABXK006      $387,065                $0     0.00%            $0            $0               $0        $0
54   2005DABXK007      $265,728               $0      0.00%            $0            $0               $0        $0
55   2005DABXK008       $89,212                $0     0.00%            $0            $0               $0        $0
56   2005DABXK009      $191,928               $0      0.00%            $0            $0               $0        $0


                                                      76
                    FY 2005         Total          Percent                Categories of Indirect Costs
           Grant     Award       Administrative    of Total                                Indirect
          Number    Amount           Cost          Award      Overhead       G&A             Cost         Other
57   2005DABXK010     $154,655               $0      0.00%           $0             $0               $0        $0
58   2005DABXK011     $751,737               $0      0.00%           $0             $0               $0        $0
59   2005DABXK012     $105,891               $0      0.00%           $0             $0               $0        $0
60   2005DABXK013     $110,552               $0      0.00%           $0             $0               $0        $0
61   2005DABXK014      $89,371                $0     0.00%           $0             $0               $0        $0
62   2005DABXK015     $121,932           $2,510      2.06%           $0             $0           $2,510        $0
63   2005DABXK016     $112,809               $0      0.00%           $0             $0               $0        $0
64   2005DABXK017     $171,743               $0      0.00%           $0             $0               $0        $0
65   2005DABXK018      $52,539                $0     0.00%           $0             $0               $0        $0
66   2005DABXK019     $100,000               $0      0.00%           $0             $0               $0        $0
67   2005DABXK020     $335,414               $0      0.00%           $0             $0               $0        $0
68   2005DABXK021     $277,030           $4,704      1.70%           $0             $0               $0    $4,704
69   2005DABXK022     $687,975               $0      0.00%           $0             $0               $0        $0
70   2005DABXK023     $135,000               $0      0.00%           $0             $0               $0        $0
71   2005DABXK024      $83,904                $0     0.00%           $0             $0               $0        $0
72   2005DABXK025      $87,332                $0     0.00%           $0             $0               $0        $0
73   2005DABXK026     $135,732               $0      0.00%           $0             $0               $0        $0
74   2005DABXK027     $482,392               $0      0.00%           $0             $0               $0        $0
75   2005DABXK028     $352,970               $0      0.00%           $0             $0               $0        $0
76   2005DABXK029     $621,250               $0      0.00%           $0             $0               $0        $0
77   2005DABXK030      $94,807                $0     0.00%           $0             $0               $0        $0
78   2005DABXK031      $93,201           $2,715      2.91%           $0             $0               $0    $2,715
79   2005DABXK032     $199,051               $0      0.00%           $0             $0               $0        $0
80   2005DABXK033     $130,479               $0      0.00%           $0             $0               $0        $0
81   2005DABXK034      $71,352                $0     0.00%           $0             $0               $0        $0
82   2005DABXK035     $593,232               $0      0.00%           $0             $0               $0        $0
83   2005DABXK036     $164,395               $0      0.00%           $0             $0               $0        $0
84   2005DABXK037     $189,093               $0      0.00%           $0             $0               $0        $0
85   2005DABXK038      $96,492                $0     0.00%           $0             $0               $0        $0
86   2005DABXK039      $38,554                $0     0.00%           $0             $0               $0        $0
87   2005DABXK040     $170,019               $0      0.00%           $0             $0               $0        $0
88   2005DABXK041     $107,141               $0      0.00%           $0             $0               $0        $0


                                                     77
                     FY 2005          Total          Percent                 Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                 Indirect
           Number    Amount            Cost          Award      Overhead        G&A             Cost        Other
 89   2005DABXK042      $372,193           $9,580      2.57%        $9,580             $0              $0        $0
 90   2005DABXK043      $181,600               $0      0.00%            $0             $0              $0        $0
 91   2005DABXK044      $214,851               $0      0.00%            $0             $0              $0        $0
 92   2005DABXK045      $148,634               $0      0.00%            $0             $0              $0        $0
 93   2005DABXK046       $43,166                $0     0.00%            $0             $0              $0        $0
 94   2005DABXK047    $1,541,793          $79,000      5.12%            $0             $0              $0   $79,000
 95   2005DABXK048       $70,000                $0     0.00%            $0             $0              $0        $0
 96   2005DABXK049      $821,039               $0      0.00%            $0             $0              $0        $0
 97   2005DABXK050      $149,981               $0      0.00%            $0             $0              $0        $0
 98   2005DABXK051      $219,322               $0      0.00%            $0             $0              $0        $0
 99   2005DABXK052      $111,280               $0      0.00%            $0             $0              $0        $0
100   2005DABXK053    $1,309,335           $1,500      0.11%            $0             $0              $0    $1,500
101   2005DABXK054      $585,725                $0     0.00%            $0             $0              $0        $0
102   2005DABXK055      $279,234          $20,800      7.45%            $0             $0              $0   $20,800
103   2005DABXK056       $66,135                $0     0.00%            $0             $0              $0        $0
104   2005DABXK057      $210,000                $0     0.00%            $0             $0              $0        $0
105   2005DABXK058      $340,360                $0     0.00%            $0             $0              $0        $0
106   2005DABXK059       $24,171                $0     0.00%            $0             $0              $0        $0
107   2005DABXK060      $105,152                $0     0.00%            $0             $0              $0        $0
108   2005DABXK061      $163,228                $0     0.00%            $0             $0              $0        $0
109   2005DABXK062      $515,000                $0     0.00%            $0             $0              $0        $0
110   2005DABXK063      $325,815                $0     0.00%            $0             $0              $0        $0
111   2005DABXK064      $119,775                $0     0.00%            $0             $0              $0        $0
112   2005DABXK065       $64,976                $0     0.00%            $0             $0              $0        $0
113   2005DABXK066      $443,476                $0     0.00%            $0             $0              $0        $0
114   2005DABXK067      $156,591                $0     0.00%            $0             $0              $0        $0
115   2005DABXK068       $79,046                $0     0.00%            $0             $0              $0        $0
116   2005DABXK069    $1,207,226          $35,827      2.97%            $0             $0         $35,827        $0
117   2005DABXK070      $639,666          $12,000      1.88%            $0             $0              $0   $12,000
118   2005DABXK071       $46,324                $0     0.00%            $0             $0              $0        $0
119   2005DABXK072       $48,058                $0     0.00%            $0             $0              $0        $0
120   2005DABXK073      $103,517                $0     0.00%            $0             $0              $0        $0


                                                       78
                     FY 2005          Total          Percent                Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                Indirect
           Number    Amount            Cost          Award      Overhead       G&A             Cost        Other
121   2005DABXK074      $397,788               $0      0.00%           $0             $0              $0        $0
122   2005DABXK075      $152,103               $0      0.00%           $0             $0              $0        $0
123   2005DABXK076      $711,386               $0      0.00%           $0             $0              $0        $0
124   2005DABXK077      $150,539               $0      0.00%           $0             $0              $0        $0
125   2005DABXK078       $97,445                $0     0.00%           $0             $0              $0        $0
126   2005DABXK079      $492,225          $14,105      2.87%           $0             $0         $14,105        $0
127   2005DABXK080      $157,663                $0     0.00%           $0             $0              $0        $0
128   2005DABXK081      $130,049                $0     0.00%           $0             $0              $0        $0
129   2005DABXK082       $40,017                $0     0.00%           $0             $0              $0        $0
130   2005DABXK083       $54,075           $1,575      2.91%           $0             $0              $0    $1,575
131   2005DABXK084      $511,584           $5,653      1.10%           $0             $0          $5,653        $0
132   2005DABXK085       $17,317                $0     0.00%           $0             $0              $0        $0
133   2005DABXK086       $53,033                $0     0.00%           $0             $0              $0        $0
134   2005DABXK087       $53,393                $0     0.00%           $0             $0              $0        $0
135   2005DABXK088      $183,400                $0     0.00%           $0             $0              $0        $0
136   2005DABXK089    $1,389,080                $0     0.00%           $0             $0              $0        $0
137   2005DABXK090      $176,188           $5,285      3.00%           $0             $0              $0    $5,285
138   2005DABXK091      $453,476                $0     0.00%           $0             $0              $0        $0
139   2005DABXK092      $365,474                $0     0.00%           $0             $0              $0        $0
140   2005DABXK093      $445,803                $0     0.00%           $0             $0              $0        $0
141   2005DABXK094    $1,215,071                $0     0.00%           $0             $0              $0        $0
142   2005DABXK095      $283,868           $8,268      2.91%           $0             $0              $0    $8,268
143   2005DABXK096       $38,366                $0     0.00%           $0             $0              $0        $0
144   2005DABXK097      $866,226                $0     0.00%           $0             $0              $0        $0
145   2005DABXK098      $102,026                $0     0.00%           $0             $0              $0        $0
146   2005DABXK099       $42,629           $1,279      3.00%           $0             $0          $1,279        $0
147   2005DABXK100       $20,000                $0     0.00%           $0             $0              $0        $0
148   2005DABXK101      $638,098        $117,200      18.37%           $0             $0        $117,200        $0
149   2005DABXK102      $574,557        $190,306      33.12%           $0             $0        $190,306        $0
150   2005DABXK103      $306,072                $0     0.00%           $0             $0              $0        $0
151   2005DABXK105       $78,034                $0     0.00%           $0             $0              $0        $0
152   2005DABXK106      $692,014             $514      0.07%           $0             $0              $0      $514


                                                       79
                     FY 2005          Total          Percent                 Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                 Indirect
           Number    Amount            Cost          Award      Overhead        G&A             Cost        Other
153   2005DABXK107     $382,242                $0      0.00%            $0            $0               $0        $0
154   2005DABXK108      $18,399                 $0     0.00%            $0            $0               $0        $0
155   2005DABXK109     $391,905                $0      0.00%            $0            $0               $0        $0
156   2005DABXK110     $101,627                $0      0.00%            $0            $0               $0        $0
157   2005DABXK111     $269,985                 $0     0.00%            $0            $0               $0        $0
158   2005DCBX1064     $196,495           $76,809     39.09%            $0       $24,975          $51,834        $0
159   2005DDBX0002     $474,435         $158,616      33.43%       $94,026       $62,670               $0    $1,920
160   2005DDBX0037     $367,960         $140,987      38.32%            $0            $0         $140,987        $0
161   2005DDBX1009     $662,455         $193,870      29.27%            $0            $0         $193,870        $0
162   2005DDBXK002     $493,322                 $0     0.00%            $0            $0               $0        $0
163   2005DDBXK012     $596,478         $202,971      34.03%            $0            $0         $202,971        $0
164   2005DDBXK056     $126,601            $8,518      6.73%            $0            $0           $8,518        $0
165   2005DDBXK187     $986,643         $145,515      14.75%            $0      $145,515               $0        $0
166   2005DDCXK078     $246,661           $63,175     25.61%            $0            $0          $63,175        $0
167   2005DEBXK001     $274,875           $73,560     26.76%            $0            $0          $73,560        $0
168   2005DEBXK005     $350,000                 $0     0.00%            $0            $0               $0        $0
169   2005DEBXK029     $340,505           $92,269     27.10%            $0            $0          $92,269        $0
170   2005DEBXK034     $149,916           $33,710     22.49%            $0            $0          $33,710        $0
171   2005DEBXK040     $123,000           $23,186     18.85%        $8,124       $15,062               $0        $0
172   2005DEBXK070     $200,000           $39,779     19.89%            $0            $0          $39,779        $0
173   2005DEBXK072       $20,000                $0     0.00%            $0            $0               $0        $0
174   2005DNBX0001       $82,639                $0     0.00%            $0            $0               $0        $0
175   2005DNBX0002       $95,000                $0     0.00%            $0            $0               $0        $0
176   2005DNBX0005       $95,000                $0     0.00%            $0            $0               $0        $0
177   2005DNBX0007       $65,403                $0     0.00%            $0            $0               $0        $0
178   2005DNBX0010       $82,639                $0     0.00%            $0            $0               $0        $0
179   2005DNBX0012       $82,639                $0     0.00%            $0            $0               $0        $0
180   2005DNBX0013       $91,810                $0     0.00%            $0            $0               $0        $0
181   2005DNBX0014      $65,495                 $0     0.00%            $0            $0               $0        $0
182   2005DNBX0016       $95,000           $9,500     10.00%            $0            $0           $9,500        $0
183   2005DNBX0017       $95,000                $0     0.00%            $0            $0               $0        $0
184   2005DNBX0020       $82,639           $6,270      7.59%            $0            $0           $6,270        $0


                                                       80
                     FY 2005          Total          Percent                Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                Indirect
           Number    Amount            Cost          Award      Overhead       G&A             Cost          Other
185   2005DNBX0026      $18,000                 $0     0.00%           $0             $0                $0        $0
186   2005DNBX0054      $82,639            $8,264     10.00%           $0             $0                $0    $8,264
187   2005DNBX0058     $371,657           $35,746      9.62%           $0             $0                $0   $35,746
188   2005DNBX0061      $87,850                 $0     0.00%           $0             $0                $0        $0
189   2005DNBX0062     $113,634                 $0     0.00%           $0             $0                $0        $0
190   2005DNBX0064       $82,824                $0     0.00%           $0             $0                $0        $0
191   2005DNBX0065       $82,639                $0     0.00%           $0             $0                $0        $0
192   2005DNBX0066       $82,639           $8,263     10.00%           $0             $0                $0    $8,263
193   2005DNBX0068       $95,000                $0     0.00%           $0             $0                $0        $0
194   2005DNBX0071       $76,134                $0     0.00%           $0             $0                $0        $0
195   2005DNBX0072       $92,501                $0     0.00%           $0             $0                $0        $0
196   2005DNBX0073     $564,253                 $0     0.00%           $0             $0                $0        $0
197   2005DNBX0074       $95,000                $0     0.00%           $0             $0                $0        $0
198   2005DNBX0075       $89,985                $0     0.00%           $0             $0                $0        $0
199   2005DNBX0076     $134,467                 $0     0.00%           $0             $0                $0        $0
200   2005DNBX0078       $94,624                $0     0.00%           $0             $0                $0        $0
201   2005DNBX0079       $57,305                $0     0.00%           $0             $0                $0        $0
202   2005DNBX0080     $412,349                 $0     0.00%           $0             $0                $0        $0
203   2005DNBX0082       $56,600                $0     0.00%           $0             $0                $0        $0
204   2005DNBX0083     $140,051            $2,267      1.62%           $0             $0                $0    $2,267
205   2005DNBX0084       $55,918                $0     0.00%           $0             $0                $0        $0
206   2005DNBX0085     $327,989                 $0     0.00%           $0             $0                $0        $0
207   2005DNBX0087       $82,639                $0     0.00%           $0             $0                $0        $0
208   2005DNBX0088       $95,000                $0     0.00%           $0             $0                $0        $0
209   2005DNBX0090       $94,307                $0     0.00%           $0             $0                $0        $0
210   2005DNBX0092       $94,988                $0     0.00%           $0             $0                $0        $0
211   2005DNBX0093       $82,639                $0     0.00%           $0             $0                $0        $0
212   2005DNBX0095       $60,068                $0     0.00%           $0             $0                $0        $0
213   2005DNBX0096      $45,420                 $0     0.00%           $0             $0                $0        $0
214   2005DNBX0097       $82,639                $0     0.00%           $0             $0                $0        $0
215   2005DNBX0098     $116,585                 $0     0.00%           $0             $0                $0        $0
216   2005DNBX0099       $74,300                $0     0.00%           $0             $0                $0        $0


                                                       81
                     FY 2005          Total          Percent                Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                Indirect
           Number    Amount            Cost          Award      Overhead       G&A             Cost        Other
217   2005DNBX0101      $149,240           $4,019      2.69%           $0             $0          $4,019           $0
218   2005DNBX0107       $69,650                $0     0.00%           $0             $0              $0           $0
219   2005DNBX0108       $95,000                $0     0.00%           $0             $0              $0           $0
220   2005DNBX0109       $58,250                $0     0.00%           $0             $0              $0           $0
221   2005DNBX0111       $48,188                $0     0.00%           $0             $0              $0           $0
222   2005DNBX0112       $22,306                $0     0.00%           $0             $0              $0           $0
223   2005DNBX0113       $88,722                $0     0.00%           $0             $0              $0           $0
224   2005DNBX0114      $282,136           $8,085      2.87%           $0             $0          $8,085           $0
225   2005DNBX0115      $146,930           $4,687      3.19%           $0             $0          $4,687           $0
226   2005DNBX0116       $30,516                $0     0.00%           $0             $0              $0           $0
227   2005DNBX0117       $72,486                $0     0.00%           $0             $0              $0           $0
228   2005DNBX0118       $40,967                $0     0.00%           $0             $0              $0           $0
229   2005DNBX0119       $95,000                $0     0.00%           $0             $0              $0           $0
230   2005DNBX0120       $28,191                $0     0.00%           $0             $0              $0           $0
231   2005DNBX0121       $84,116                $0     0.00%           $0             $0              $0           $0
232   2005DNBX0123       $95,000                $0     0.00%           $0             $0              $0           $0
233   2005DNBX0124       $50,720                $0     0.00%           $0             $0              $0           $0
234   2005DNBX0128       $95,000                $0     0.00%           $0             $0              $0           $0
235   2005DNBX0129       $38,250                $0     0.00%           $0             $0              $0           $0
236   2005DNBXK001      $196,112                $0     0.00%           $0             $0              $0           $0
237   2005DNBXK002      $661,878                $0     0.00%           $0             $0              $0           $0
238   2005DNBXK003      $188,264                $0     0.00%           $0             $0              $0           $0
239   2005DNBXK004       $64,929                $0     0.00%           $0             $0              $0           $0
240   2005DNBXK005      $136,947                $0     0.00%           $0             $0              $0           $0
241   2005DNBXK006    $1,224,751                $0     0.00%           $0             $0              $0           $0
242   2005DNBXK008      $455,301                $0     0.00%           $0             $0              $0           $0
243   2005DNBXK009      $363,751                $0     0.00%           $0             $0              $0           $0
244   2005DNBXK010      $226,098                $0     0.00%           $0             $0              $0           $0
245   2005DNBXK011      $122,692           $1,337      1.09%           $0             $0          $1,337           $0
246   2005DNBXK012      $525,815                $0     0.00%           $0             $0              $0           $0
247   2005DNBXK013      $342,060                $0     0.00%           $0             $0              $0           $0
248   2005DNBXK014       $75,014           $1,670      2.23%           $0             $0          $1,670           $0


                                                       82
                     FY 2005          Total          Percent                Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                Indirect
           Number    Amount            Cost          Award      Overhead       G&A             Cost        Other
249   2005DNBXK015      $48,175                 $0     0.00%           $0             $0              $0           $0
250   2005DNBXK016     $352,480                $0      0.00%           $0             $0              $0           $0
251   2005DNBXK017     $714,150                $0      0.00%           $0             $0              $0           $0
252   2005DNBXK018     $799,583                $0      0.00%           $0             $0              $0           $0
253   2005DNBXK019     $882,399                 $0     0.00%           $0             $0              $0           $0
254   2005DNBXK020     $500,000                 $0     0.00%           $0             $0              $0           $0
255   2005DNBXK021     $171,159           $10,423      6.09%           $0             $0         $10,423           $0
256   2005DNBXK022     $435,961                 $0     0.00%           $0             $0              $0           $0
257   2005DNBXK023     $106,743                 $0     0.00%           $0             $0              $0           $0
258   2005DNBXK024     $250,349                 $0     0.00%           $0             $0              $0           $0
259   2005DNBXK025     $205,701                 $0     0.00%           $0             $0              $0           $0
260   2005DNBXK026     $790,276                 $0     0.00%           $0             $0              $0           $0
261   2005DNBXK027       $97,385                $0     0.00%           $0             $0              $0           $0
262   2005DNBXK028     $728,970                 $0     0.00%           $0             $0              $0           $0
263   2005DNBXK029     $263,200                 $0     0.00%           $0             $0              $0           $0
264   2005DNBXK030     $532,832                 $0     0.00%           $0             $0              $0           $0
265   2005DNBXK031     $374,761                 $0     0.00%           $0             $0              $0           $0
266   2005DNBXK032     $233,559            $2,668      1.14%           $0             $0          $2,668           $0
267   2005DNBXK033     $419,017                 $0     0.00%           $0             $0              $0           $0
268   2005DNBXK034     $472,554                 $0     0.00%           $0             $0              $0           $0
269   2005DNBXK035     $179,364                 $0     0.00%           $0             $0              $0           $0
270   2005DNBXK036       $60,500                $0     0.00%           $0             $0              $0           $0
271   2005DNBXK037     $600,624                 $0     0.00%           $0             $0              $0           $0
272   2005DNBXK038       $11,365                $0     0.00%           $0             $0              $0           $0
273   2005DNBXK039     $266,998                 $0     0.00%           $0             $0              $0           $0
274   2005DNBXK040     $863,280                 $0     0.00%           $0             $0              $0           $0
275   2005DNBXK041     $756,927           $22,028      2.91%           $0             $0         $22,028           $0
276   2005DNBXK042       $53,313                $0     0.00%           $0             $0              $0           $0
277   2005DNBXK043      $42,494                 $0     0.00%           $0             $0              $0           $0
278   2005DNBXK044     $200,000                 $0     0.00%           $0             $0              $0           $0
279   2005DNBXK045       $80,094                $0     0.00%           $0             $0              $0           $0
280   2005DNBXK046     $227,213                 $0     0.00%           $0             $0              $0           $0


                                                       83
                     FY 2005          Total          Percent                Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                Indirect
           Number    Amount            Cost          Award      Overhead       G&A             Cost        Other
281   2005DNBXK047      $237,000               $0      0.00%           $0             $0              $0        $0
282   2005DNBXK048      $419,391               $0      0.00%           $0             $0              $0        $0
283   2005DNBXK049       $39,566                $0     0.00%           $0             $0              $0        $0
284   2005DNBXK050       $66,227           $1,921      2.90%           $0             $0              $0    $1,921
285   2005DNBXK051    $1,375,407          $39,412      2.87%           $0             $0         $39,412        $0
286   2005DNBXK052      $118,800                $0     0.00%           $0             $0              $0        $0
287   2005DNBXK053      $482,225                $0     0.00%           $0             $0              $0        $0
288   2005DNBXK054       $67,775                $0     0.00%           $0             $0              $0        $0
289   2005DNBXK055      $329,164                $0     0.00%           $0             $0              $0        $0
290   2005DNBXK056      $229,164                $0     0.00%           $0             $0              $0        $0
291   2005DNBXK057      $265,655                $0     0.00%           $0             $0              $0        $0
292   2005DNBXK058      $190,445                $0     0.00%           $0             $0              $0        $0
293   2005DNBXK059      $134,163                $0     0.00%           $0             $0              $0        $0
294   2005DNBXK060      $622,144          $16,374      2.63%           $0             $0         $16,374        $0
295   2005DNBXK061       $53,356                $0     0.00%           $0             $0              $0        $0
296   2005DNBXK062       $73,529                $0     0.00%           $0             $0              $0        $0
297   2005DNBXK063      $115,104           $3,453      3.00%           $0             $0          $3,453        $0
298   2005DNBXK064       $40,000                $0     0.00%           $0             $0              $0        $0
299   2005DNBXK065      $126,800                $0     0.00%           $0             $0              $0        $0
300   2005DNBXK066       $69,524                $0     0.00%           $0             $0              $0        $0
301   2005DNBXK067      $277,116                $0     0.00%           $0             $0              $0        $0
302   2005DNBXK068      $112,236                $0     0.00%           $0             $0              $0        $0
303   2005DNBXK069      $306,134                $0     0.00%           $0             $0              $0        $0
304   2005DNBXK070      $539,204                $0     0.00%           $0             $0              $0        $0
305   2005DNBXK071       $52,620                $0     0.00%           $0             $0              $0        $0
306   2005DNBXK072       $77,215           $2,249      2.91%           $0             $0              $0    $2,249
307   2005DNBXK073      $242,321                $0     0.00%           $0             $0              $0        $0
308   2005DNBXK074       $79,937                $0     0.00%           $0             $0              $0        $0
309   2005DNBXK075       $32,000                $0     0.00%           $0             $0              $0        $0
310   2005DNBXK076      $134,548                $0     0.00%           $0             $0              $0        $0
311   2005DNBXK077       $58,821                $0     0.00%           $0             $0              $0        $0
312   2005DNBXK078       $68,079                $0     0.00%           $0             $0              $0        $0


                                                       84
                     FY 2005          Total          Percent                Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                Indirect
           Number    Amount            Cost          Award      Overhead       G&A             Cost        Other
313   2005DNBXK079      $143,284               $0      0.00%           $0             $0              $0        $0
314   2005DNBXK080    $1,338,036               $0      0.00%           $0             $0              $0        $0
315   2005DNBXK081       $40,000                $0     0.00%           $0             $0              $0        $0
316   2005DNBXK082      $508,371               $0      0.00%           $0             $0              $0        $0
317   2005DNBXK083      $111,580                $0     0.00%           $0             $0              $0        $0
318   2005DNBXK084      $263,185                $0     0.00%           $0             $0              $0        $0
319   2005DNBXK085      $600,623                $0     0.00%           $0             $0              $0        $0
320   2005DNBXK086       $91,188                $0     0.00%           $0             $0              $0        $0
321   2005DNBXK087      $287,425          $50,830     17.68%           $0             $0         $50,830        $0
322   2005DNBXK088      $282,756                $0     0.00%           $0             $0              $0        $0
323   2005DNBXK089      $331,761                $0     0.00%           $0             $0              $0        $0
324   2005DNBXK090      $118,846                $0     0.00%           $0             $0              $0        $0
325   2005DNBXK091      $223,548                $0     0.00%           $0             $0              $0        $0
326   2005DNBXK092      $135,911                $0     0.00%           $0             $0              $0        $0
327   2005DNBXK093       $61,576                $0     0.00%           $0             $0              $0        $0
328   2005DNBXK094      $314,715           $9,018      2.87%           $0             $0          $9,018        $0
329   2005DNBXK095      $426,593          $12,442      2.92%           $0             $0              $0   $12,442
330   2005DNBXK096       $40,206                $0     0.00%           $0             $0              $0        $0
331   2005DNBXK097       $69,602                $0     0.00%           $0             $0              $0        $0
332   2005DNBXK098       $89,840                $0     0.00%           $0             $0              $0        $0
333   2005DNBXK099      $118,830                $0     0.00%           $0             $0              $0        $0
334   2005DNBXK100      $136,308                $0     0.00%           $0             $0              $0        $0
335   2005DNBXK101      $130,732          $14,111     10.79%           $0             $0         $14,111        $0
336   2005DNBXK102       $33,212                $0     0.00%           $0             $0              $0        $0
337   2005DNBXK103      $528,597          $15,396      2.91%           $0             $0         $15,396        $0
338   2005DNBXK104       $52,621                $0     0.00%           $0             $0              $0        $0
339   2005DNBXK106    $1,496,748           $7,816      0.52%           $0             $0          $7,816        $0
340   2005DNBXK107      $739,534                $0     0.00%           $0             $0              $0        $0
341   2005DNBXK108      $470,033                $0     0.00%           $0             $0              $0        $0
342   2005DNBXK109       $33,299                $0     0.00%           $0             $0              $0        $0
343   2005DNBXK110      $223,866                $0     0.00%           $0             $0              $0        $0
344   2005DNBXK111       $88,552                $0     0.00%           $0             $0              $0        $0


                                                       85
                     FY 2005          Total          Percent                 Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                 Indirect
           Number    Amount            Cost          Award      Overhead        G&A             Cost        Other
345   2005DNBXK112       $28,429             $853      3.00%            $0             $0            $853        $0
346   2005DNBXK113       $52,973                $0     0.00%            $0             $0              $0        $0
347   2005DNBXK118       $99,992                $0     0.00%            $0             $0              $0        $0
348   2005DNBXK119      $161,953               $0      0.00%            $0             $0              $0        $0
349   2005DNBXK120       $30,727                $0     0.00%            $0             $0              $0        $0
350   2005DNBXK121      $288,660           $8,659      3.00%        $8,659             $0              $0        $0
351   2005DNBXK122      $399,379                $0     0.00%            $0             $0              $0        $0
352   2005DNBXK123    $1,175,886                $0     0.00%            $0             $0              $0        $0
353   2005DNBXK124      $369,240          $11,077      3.00%            $0             $0              $0   $11,077
354   2005DNBXK125      $115,100                $0     0.00%            $0             $0              $0        $0
355   2005DNBXK126      $168,700                $0     0.00%            $0             $0              $0        $0
356   2005DNBXK127      $561,747          $16,852      3.00%            $0             $0         $16,852        $0
357   2005DNBXK128      $314,135                $0     0.00%            $0             $0              $0        $0
358   2005FSBX0004      $501,676        $166,832      33.25%            $0             $0        $166,832        $0
359   2005FSBX0057      $998,870        $332,957      33.33%            $0             $0        $332,957        $0
360   2005IJBXK022      $200,000                $0     0.00%            $0             $0              $0        $0
361   2005IJCX0002      $106,702          $29,950     28.07%            $0             $0         $29,950        $0
362   2005IJCX0003      $160,079           $9,373      5.86%            $0             $0          $9,373        $0
363   2005IJCX0004      $246,796          $68,197     27.63%            $0             $0         $68,197        $0
364   2005IJCX0005      $219,813          $85,781     39.02%            $0             $0         $85,781        $0
365   2005IJCX0006      $271,882          $61,136     22.49%            $0             $0              $0   $61,136
366   2005IJCX0007       $30,918           $5,153     16.67%            $0             $0              $0    $5,153
367   2005IJCX0008       $35,000          $13,660     39.03%            $0         $4,448          $9,212        $0
368   2005IJCX0010      $284,715          $83,233     29.23%            $0             $0         $83,233        $0
369   2005IJCX0011       $35,000          $10,198     29.14%            $0             $0         $10,198        $0
370   2005IJCX0012      $118,167          $23,352     19.76%            $0             $0         $23,352        $0
371   2005IJCX0013      $143,926          $42,716     29.68%            $0             $0         $42,716        $0
372   2005IJCX0014       $20,000                $0     0.00%            $0             $0              $0        $0
373   2005IJCX0015      $141,163          $40,765     28.88%            $0             $0         $40,765        $0
374   2005IJCX0016      $199,439          $39,888     20.00%            $0             $0         $39,888        $0
375   2005IJCX0019      $275,587        $101,165      36.71%            $0             $0        $101,165        $0
376   2005IJCX0020       $32,356           $8,851     27.36%            $0             $0          $8,851        $0


                                                       86
                     FY 2005          Total          Percent                 Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                 Indirect
           Number    Amount            Cost          Award      Overhead        G&A             Cost        Other
377   2005IJCX0024      $269,495        $114,487      42.48%            $0            $0         $114,487           $0
378   2005IJCX0026      $282,835          $46,642     16.49%            $0            $0          $46,642           $0
379   2005IJCX0028      $324,764          $57,371     17.67%            $0            $0          $57,371           $0
380   2005IJCX0029      $272,978               $0      0.00%            $0            $0               $0           $0
381   2005IJCX0030      $187,167          $65,234     34.85%            $0            $0          $65,234           $0
382   2005IJCX0031      $259,782          $89,433     34.43%            $0            $0          $89,433           $0
383   2005IJCX0034      $207,744          $70,860     34.11%            $0            $0          $70,860           $0
384   2005IJCX0035       $75,237                $0     0.00%            $0            $0               $0           $0
385   2005IJCX0038      $103,525                $0     0.00%            $0            $0               $0           $0
386   2005IJCX0039      $258,068          $68,281     26.46%            $0       $23,889          $44,392           $0
387   2005IJCX0041      $252,964          $54,050     21.37%            $0       $21,555          $32,495           $0
388   2005IJCX0045      $350,994        $127,431      36.31%            $0            $0         $127,431           $0
389   2005IJCX0046      $994,613        $347,891      34.98%            $0            $0         $347,891           $0
390   2005IJCX0047      $232,200          $26,713     11.50%            $0            $0          $26,713           $0
391   2005IJCX0048      $375,655        $129,324      34.43%            $0            $0         $129,324           $0
392   2005IJCX0050      $797,094        $225,202      28.25%       $57,575      $167,627               $0           $0
393   2005IJCX0051      $175,496          $30,171     17.19%            $0            $0          $30,171           $0
394   2005IJCX0053      $336,177          $43,124     12.83%            $0            $0          $43,124           $0
395   2005IJCX0054      $208,354          $65,155     31.27%            $0            $0          $65,155           $0
396   2005IJCX0055      $376,255          $74,844     19.89%            $0            $0          $74,844           $0
397   2005IJCX0056      $647,387        $118,780      18.35%            $0            $0         $118,780           $0
398   2005IJCX0059      $298,900        $112,367      37.59%            $0            $0         $112,367           $0
399   2005IJCX0060       $49,997          $13,380     26.76%            $0            $0          $13,380           $0
400   2005IJCX0200      $314,840          $86,302     27.41%            $0            $0          $86,302           $0
401   2005IJCXK001    $2,709,930        $794,498      29.32%            $0            $0         $794,498           $0
402   2005IJCXK003    $2,712,601        $817,761      30.15%      $417,693      $400,068               $0           $0
403   2005IJCXK004      $332,571                $0     0.00%            $0            $0               $0           $0
404   2005IJCXK005      $100,000          $30,347     30.35%            $0            $0          $30,347           $0
405   2005IJCXK006      $100,000          $30,347     30.35%            $0            $0          $30,347           $0
406   2005IJCXK008       $31,151                $0     0.00%            $0            $0               $0           $0
407   2005IJCXK013      $147,391          $49,619     33.66%            $0            $0          $49,619           $0
408   2005IJCXK014      $169,091          $53,275     31.51%            $0            $0          $53,275           $0


                                                       87
                     FY 2005          Total          Percent                Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                Indirect
           Number    Amount            Cost          Award      Overhead       G&A             Cost        Other
409   2005IJCXK016      $201,853          $53,943     26.72%           $0             $0         $53,943        $0
410   2005IJCXK017      $419,995        $105,919      25.22%           $0             $0        $105,919        $0
411   2005IJCXK018      $399,816        $115,951      29.00%           $0             $0        $115,951        $0
412   2005IJCXK021      $125,000          $37,587     30.07%           $0             $0         $37,587        $0
413   2005IJCXK023      $739,982                $0     0.00%           $0             $0              $0        $0
414   2005IJCXK025      $100,000                $0     0.00%           $0             $0              $0        $0
415   2005IJCXK026      $225,000                $0     0.00%           $0             $0              $0        $0
416   2005IJCXK030    $2,884,930        $763,874      26.48%           $0             $0        $763,874        $0
417   2005IJCXK031       $97,019          $19,408     20.00%           $0             $0         $19,408        $0
418   2005IJCXK032      $167,000          $42,964     25.73%           $0             $0         $42,964        $0
419   2005IJCXK036       $24,995                $0     0.00%           $0             $0              $0        $0
420   2005IJCXK037      $337,790                $0     0.00%           $0             $0              $0        $0
421   2005IJCXK042      $499,999        $148,270      29.65%           $0             $0        $148,270        $0
422   2005IJCXK045       $74,598           $8,860     11.88%           $0             $0          $8,860        $0
423   2005IJCXK046      $773,341        $184,578      23.87%           $0             $0        $184,578        $0
424   2005IJCXK049       $36,103           $1,462      4.05%           $0             $0          $1,462        $0
425   2005IJCXK050       $99,856           $6,979      6.99%           $0             $0          $6,979        $0
426   2005IJCXK051      $231,754          $37,668     16.25%           $0             $0         $37,668        $0
427   2005IJCXK052      $100,000                $0     0.00%           $0             $0              $0        $0
428   2005IJCXK053       $93,781                $0     0.00%           $0             $0              $0        $0
429   2005IJCXK055      $267,054           $3,993      1.50%           $0             $0              $0    $3,993
430   2005IJCXK057      $496,737        $124,313      25.03%           $0             $0        $124,313        $0
431   2005IJCXK058       $93,235          $15,439     16.56%           $0             $0         $15,439        $0
432   2005IJCXK059      $431,556        $181,540      42.07%           $0             $0        $181,540        $0
433   2005IJCXK060      $499,962        $216,091      43.22%           $0             $0        $216,091        $0
434   2005IJCXK061      $194,780                $0     0.00%           $0             $0              $0        $0
435   2005IJCXK062      $150,000          $70,985     47.32%           $0             $0         $70,985        $0
436   2005IJCXK064      $261,258          $66,359     25.40%           $0             $0         $66,359        $0
437   2005IJCXK065      $375,000          $71,847     19.16%           $0             $0         $71,847        $0
438   2005IJCXK066      $437,592          $98,890     22.60%           $0             $0         $98,890        $0
439   2005IJCXK067    $1,800,597                $0     0.00%           $0             $0              $0        $0
440   2005IJCXK069      $292,149          $63,733     21.82%           $0             $0         $63,733        $0


                                                       88
                     FY 2005           Total         Percent                 Categories of Indirect Costs
            Grant     Award        Administrative    of Total                                 Indirect
           Number    Amount            Cost          Award      Overhead        G&A             Cost         Other
441   2005IJCXK071    $1,448,788                $0     0.00%            $0            $0                $0           $0
442   2005IJCXK103      $303,820          $58,452     19.24%            $0            $0           $58,452           $0
443   2005IJCXK107       $24,752           $7,799     31.51%            $0            $0            $7,799           $0
444   2005IJCXK108      $130,000          $25,411     19.55%       $10,557       $14,854                $0           $0
445   2005IJCXK140       $20,000                $0     0.00%            $0            $0                $0           $0
446   2005JPFXK011      $500,000                $0     0.00%            $0            $0                $0           $0
447   2005MUBXK020    $4,520,121       $1,159,520     25.65%            $0            $0        $1,159,520           $0
448   2005MUBXK071      $124,753          $33,905     27.18%            $0            $0           $33,905           $0
449   2005MUBXK073      $171,394          $32,225     18.80%            $0            $0           $32,225           $0
450   2005MUBXK074      $469,123          $99,735     21.26%            $0            $0           $99,735           $0
451   2005MUBXK075      $224,776          $63,080     28.06%            $0            $0           $63,080           $0
452   2005MUBXK076      $431,255          $54,250     12.58%            $0            $0           $54,250           $0
453   2005MUBXK078      $199,635          $41,881     20.98%            $0            $0           $41,881           $0
454   2005MUCXK077    $2,884,930       $1,058,926     36.71%      $729,293      $329,633                $0           $0
455   2005MUMU0003      $428,837         $127,914     29.83%       $76,907       $51,007                $0           $0
456   2005MUMU0033      $999,662         $307,197     30.73%            $0            $0          $307,197           $0
457   2005MUMU0052      $235,585          $72,539     30.79%            $0            $0           $72,539           $0
458   2005MUMUK001      $190,246          $64,255     33.77%            $0            $0           $64,255           $0
459   2005MUMUK007      $341,024          $96,152     28.20%            $0            $0           $96,152           $0
460   2005MUMUK019      $387,400                $0     0.00%            $0            $0                $0           $0
461   2005MUMUK033    $1,025,000          $58,019      5.66%            $0            $0           $58,019           $0
462   2005MUMUK044      $928,984         $268,461     28.90%            $0            $0          $268,461           $0
463   2005MUMUK054      $252,924         $122,180     48.31%            $0            $0          $122,180           $0
464   2005MUMUK063      $461,495                $0     0.00%            $0            $0                $0           $0
465   2005RPBX0002      $466,475         $221,783     47.54%            $0            $0          $221,783           $0
466   2005VRGX0101      $425,200                $0     0.00%            $0            $0                $0           $0
467   2005WGBX0001       $20,000                $0     0.00%            $0            $0                $0           $0
468   2005WGBX0002       $20,000                $0     0.00%            $0            $0                $0           $0
469   2005WGBX0003      $389,925         $119,337     30.61%            $0            $0          $119,337           $0
470   2005WGBX0004      $250,902                $0     0.00%            $0            $0                $0           $0
471   2005WGBX0005      $356,830         $112,642     31.57%            $0            $0          $112,642           $0
472   2005WGBX0006      $447,796          $49,312     11.01%            $0            $0           $49,312           $0


                                                       89
                        FY 2005         Total         Percent                 Categories of Indirect Costs
             Grant       Award       Administrative   of Total                                 Indirect
            Number      Amount           Cost         Award      Overhead        G&A             Cost        Other
 473   2005WGBX0007       $277,807          $41,904    15.08%           $0              $0         $41,904           $0
 474   2005WGBX0008       $650,033        $134,134     20.63%           $0              $0        $134,134           $0
 475   2005WGBX0009       $570,448          $98,398    17.25%           $0              $0         $98,398           $0
 476   2005WGBX0010       $324,877               $0     0.00%           $0              $0              $0           $0
 477   2005WGBX0011       $180,042          $53,430    29.68%           $0              $0         $53,430           $0
 478   2005WGBX0012       $438,054        $114,050     26.04%           $0              $0        $114,050           $0
 479   2005WTBX0002       $425,210        $114,288     26.88%           $0              $0        $114,288           $0
FY 2005 Subtotal      $193,622,093     $22,395,721    11.57%     $1,430,905    $1,728,708     $18,764,835    $471,273




                                                        90
                             FY 2006            Total          Percent                   Categories of Indirect Costs
                              Award         Administrative     of Total                                      Indirect
        Grant Number         Amount             Cost           Award       Overhead          G&A               Cost           Other
FY 2006 Awards
  480 2001MUMU0007             $360,000             $59,527     16.54%              $0         $59,527                $0            $0
  481 2001MUMUK009          $2,886,684 49          $184,201      6.38%              $0              $0          $184,201            $0
                                       49
  482 2001MUMUK009                                       $0      0.00%              $0              $0                $0            $0
  483 2002LPCXK007             $123,404                  $0      0.00%              $0              $0                $0            $0
  484 2002MUMUK011           $3,298,661            $830,770     25.19%              $0              $0          $830,770            $0
  485 2003DDBXK013             $246,807             $61,680     24.99%              $0              $0           $61,680            $0
  486 2003IJCXK011             $977,356            $129,821     13.28%              $0              $0          $129,821            $0
  487 2003IJCXK018              $11,018              $3,548     32.20%              $0              $0            $3,548            $0
  488 2003IJCXK024          $1,682,11949           $605,563     36.00%              $0              $0          $605,563            $0
                                       49
  489 2003IJCXK024                                       $0      0.00%              $0              $0                $0            $0
  490 2003RCCXK001            $3,948,912           $805,082     20.39%              $0              $0          $805,082            $0
  491 2004DCBXK005               $99,996            $15,333     15.33%              $0              $0           $15,333            $0
  492 2004DNBXK017              $400,000            $98,042     24.51%              $0              $0           $98,042            $0
  493 2004DNBXK212            $1,400,000            $40,777      2.91%              $0              $0           $40,777            $0
  494 2004IJCX0029              $199,540            $36,628     18.36%              $0              $0           $36,628            $0
  495 2004IJCX0096              $394,891           $135,094     34.21%              $0              $0          $135,094            $0
  496 2004IJCXK013              $200,000            $66,131     33.07%         $56,894              $0                $0        $9,237
  497 2004IJCXK035              $499,949           $155,866     31.18%              $0              $0          $155,866            $0
  498 2004IJCXK037              $300,000            $52,931     17.64%              $0              $0           $52,931            $0
  499 2004IJCXK040              $150,000            $50,133     33.42%              $0              $0           $50,133            $0
  500 2004IJCXK047               $29,059             $8,809     30.31%              $0              $0            $8,809            $0
  501 2004LPCXK015              $989,475                 $0      0.00%              $0              $0                $0            $0
  502 2004LTBXK002            $1,727,649           $406,430     23.53%              $0              $0          $406,430            $0
  503 2004LTBXK003            $1,974,456            $11,038      0.56%              $0              $0           $11,038            $0
  504 2004MUMUK001              $185,000            $18,500     10.00%              $0              $0           $18,500            $0

           49
               The grant universe listing provided by OJP identified this grant twice with separate award amounts. However, our
     review of the grant files in GMS found that the grant was a single award for the combined total of the two separate award
     amounts shown on OJP’s grant listing. The grant budget in GMS was also a single budget covering the total award amount.
     Therefore, we consolidated the award amounts and the administrative cost data into the first occurrence of this award number
     for the applicable fiscal year.


                                                                  91
                       FY 2006          Total          Percent                 Categories of Indirect Costs
                        Award        Administrative    of Total                                  Indirect
       Grant Number    Amount            Cost          Award      Overhead        G&A              Cost        Other
505   2004RGCXK001      $1,480,842        $280,807      18.96%            $0             $0         $280,807           $0
506   2004RGCXK018        $250,000                $0     0.00%            $0             $0               $0           $0
507   2004WGBX0002         $19,245           $6,415     33.33%            $0             $0           $6,415           $0
508   2005DDBX0002        $474,435        $158,616      33.43%            $0             $0         $158,616           $0
509   2005DDBXK002        $863,825                $0     0.00%            $0             $0               $0           $0
510   2005DDBXK187      $1,974,456                $0     0.00%            $0             $0               $0           $0
511   2005DEBXK001        $424,830        $113,690      26.76%            $0             $0         $113,690           $0
512   2005DEBXK029        $298,293          $80,612     27.02%            $0             $0          $80,612           $0
513   2005IJCX0046        $200,000          $75,468     37.73%            $0             $0          $75,468           $0
514   2005IJCXK001      $3,140,000        $860,137      27.39%            $0             $0         $860,137           $0
515   2005IJCXK003      $2,764,238        $717,075      25.94%      $390,436       $326,639               $0           $0
516   2005IJCXK004        $350,000                $0     0.00%            $0             $0               $0           $0
517   2005IJCXK016        $169,735          $31,402     18.50%            $0             $0          $31,402           $0
518   2005IJCXK017        $725,000        $216,613      29.88%            $0             $0         $216,613           $0
519   2005IJCXK025         $75,000                $0     0.00%            $0             $0               $0           $0
520   2005IJCXK026        $211,781                $0     0.00%            $0             $0               $0           $0
521   2005IJCXK030      $2,772,000        $781,368      28.19%            $0             $0         $781,368           $0
522   2005IJCXK031         $95,134          $19,330     20.32%            $0             $0          $19,330           $0
523   2005IJCXK036         $24,966                $0     0.00%            $0             $0               $0           $0
524   2005IJCXK037        $200,000                $0     0.00%            $0             $0               $0           $0
525   2005IJCXK045        $100,000          $33,511     33.51%            $0             $0          $33,511           $0
526   2005IJCXK051        $131,403          $35,815     27.26%            $0             $0          $35,815           $0
527   2005IJCXK053         $11,309                $0     0.00%            $0             $0               $0           $0
528   2005IJCXK058         $44,952           $8,660     19.26%            $0             $0           $8,660           $0
529   2005IJCXK065        $315,000          $62,524     19.85%            $0             $0          $62,524           $0
530   2005IJCXK066         $90,000          $12,322     13.69%            $0             $0          $12,322           $0
531   2005IJCXK071      $1,448,788                $0     0.00%            $0             $0               $0           $0
532   2005IJCXK103         $49,984          $14,111     28.23%            $0             $0          $14,111           $0
533   2005LXFX0001        $500,000          $43,609      8.72%            $0             $0          $43,609           $0
534   2005MUBXK020    $4,692,52549        $931,107      19.84%            $0             $0         $931,107           $0
                                49
535   2005MUBXK020                                $0     0.00%            $0             $0               $0           $0



                                                         92
                      FY 2006          Total          Percent                 Categories of Indirect Costs
                       Award        Administrative    of Total                                  Indirect
       Grant Number   Amount            Cost          Award      Overhead        G&A              Cost       Other
536   2005MUCXK077     $3,614,182       $1,132,042     31.32%      $719,084      $412,958               $0           $0
537   2005MUMUK019       $348,419                $0     0.00%            $0            $0               $0           $0
538   2005MUMUK033       $279,993          $15,849      5.66%            $0            $0          $15,849           $0
539   2005MUMUK044     $1,450,000         $399,296     27.54%            $0            $0         $399,296           $0
540   2006DDBX0004       $148,084          $17,738     11.98%            $0            $0          $17,738           $0
541   2006DDBX0025       $493,614                $0     0.00%            $0            $0               $0           $0
542   2006DDBX0557     $1,322,042         $401,601     30.38%            $0            $0         $401,601           $0
543   2006DDBXK002       $172,765          $45,031     26.06%            $0            $0          $45,031           $0
544   2006DDBXK015     $1,954,985         $691,657     35.38%            $0            $0         $691,657           $0
545   2006DDBXK099     $2,961,684         $530,547     17.91%            $0            $0         $530,547           $0
546   2006DEBXK001       $300,000                $0     0.00%            $0            $0               $0           $0
547   2006DEBXK002       $149,804          $13,619      9.09%            $0            $0          $13,619           $0
548   2006DEBXK006       $498,000         $162,016     32.53%            $0            $0         $162,016           $0
549   2006DEBXK007       $200,000                $0     0.00%            $0            $0               $0           $0
550   2006DNBX0001     $1,480,842         $530,923     35.85%            $0            $0         $530,923           $0
551   2006DNBX0005        $82,639                $0     0.00%            $0            $0               $0           $0
552   2006DNBX0007       $175,061           $8,692      4.97%            $0            $0           $8,692           $0
553   2006DNBX0008       $219,183                $0     0.00%            $0            $0               $0           $0
554   2006DNBX0009        $99,628                $0     0.00%            $0            $0               $0           $0
555   2006DNBX0010       $167,818           $5,700      3.40%            $0            $0           $5,700           $0
556   2006DNBX0011        $91,015                $0     0.00%            $0            $0               $0           $0
557   2006DNBX0012        $91,015                $0     0.00%            $0            $0               $0           $0
558   2006DNBX0013        $95,000                $0     0.00%            $0            $0               $0           $0
559   2006DNBX0014       $155,450          $15,545     10.00%            $0            $0          $15,545           $0
560   2006DNBX0015        $65,598                $0     0.00%            $0            $0               $0           $0
561   2006DNBX0016       $202,568                $0     0.00%            $0            $0               $0           $0
562   2006DNBX0017        $94,787                $0     0.00%            $0            $0               $0           $0
563   2006DNBX0018        $94,803                $0     0.00%            $0            $0               $0           $0
564   2006DNBX0019        $84,450                $0     0.00%            $0            $0               $0           $0
565   2006DNBX0020     $1,232,336          $42,900      3.48%            $0            $0          $42,900           $0
566   2006DNBX0021        $73,151                $0     0.00%            $0            $0               $0           $0



                                                        93
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
567   2006DNBX0022        $94,100                $0     0.00%           $0             $0               $0        $0
568   2006DNBX0023        $93,200                $0     0.00%           $0             $0               $0        $0
569   2006DNBX0024        $95,000                $0     0.00%           $0             $0               $0        $0
570   2006DNBX0025        $51,650                $0     0.00%           $0             $0               $0        $0
571   2006DNBX0026        $95,000                $0     0.00%           $0             $0               $0        $0
572   2006DNBX0027        $62,146                $0     0.00%           $0             $0               $0        $0
573   2006DNBX0028        $95,000                $0     0.00%           $0             $0               $0        $0
574   2006DNBX0029        $95,000           $3,760      3.96%           $0             $0           $3,760        $0
575   2006DNBX0030        $95,000                $0     0.00%           $0             $0               $0        $0
576   2006DNBX0031        $80,000                $0     0.00%           $0             $0               $0        $0
577   2006DNBX0032        $93,855                $0     0.00%           $0             $0               $0        $0
578   2006DNBX0033        $43,975                $0     0.00%           $0             $0               $0        $0
579   2006DNBX0034        $94,435                $0     0.00%           $0             $0               $0        $0
580   2006DNBX0035        $95,000                $0     0.00%           $0             $0               $0        $0
581   2006DNBX0036        $72,560                $0     0.00%           $0             $0               $0        $0
582   2006DNBX0037        $95,000           $9,500     10.00%           $0             $0           $9,500        $0
583   2006DNBX0038        $91,015                $0     0.00%           $0             $0               $0        $0
584   2006DNBX0039        $91,015           $9,101     10.00%           $0             $0           $9,101        $0
585   2006DNBX0040      $159,112            $4,120      2.59%           $0             $0           $4,120        $0
586   2006DNBX0041      $606,747                 $0     0.00%           $0             $0               $0        $0
587   2006DNBX0042      $386,482           $30,943      8.01%           $0             $0          $30,943        $0
588   2006DNBX0043      $191,009                 $0     0.00%           $0             $0               $0        $0
589   2006DNBX0044        $91,015                $0     0.00%           $0             $0               $0        $0
590   2006DNBX0045        $91,015           $9,101     10.00%           $0             $0           $9,101        $0
591   2006DNBX0046        $95,000                $0     0.00%           $0             $0               $0        $0
592   2006DNBX0047        $91,015                $0     0.00%           $0             $0               $0        $0
593   2006DNBX0048      $435,312           $43,531     10.00%           $0             $0               $0   $43,531
594   2006DNBX0049      $213,914                 $0     0.00%           $0             $0               $0        $0
595   2006DNBX0051      $101,171           $10,117     10.00%           $0             $0               $0   $10,117
596   2006DNBX0052        $82,349                $0     0.00%           $0             $0               $0        $0
597   2006DNBX0053        $90,000                $0     0.00%           $0             $0               $0        $0



                                                        94
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
598   2006DNBX0054        $93,410                $0     0.00%           $0             $0               $0        $0
599   2006DNBX0055      $142,340                 $0     0.00%           $0             $0               $0        $0
600   2006DNBX0056        $94,988                $0     0.00%           $0             $0               $0        $0
601   2006DNBX0057      $154,284                 $0     0.00%           $0             $0               $0        $0
602   2006DNBX0058        $95,000                $0     0.00%           $0             $0               $0        $0
603   2006DNBX0059      $305,476                 $0     0.00%           $0             $0               $0        $0
604   2006DNBX0060      $197,827                 $0     0.00%           $0             $0               $0        $0
605   2006DNBX0061        $51,034                $0     0.00%           $0             $0               $0        $0
606   2006DNBX0062        $91,015                $0     0.00%           $0             $0               $0        $0
607   2006DNBX0063        $95,000           $1,995      2.10%           $0             $0           $1,995        $0
608   2006DNBX0064      $297,337            $7,082      2.38%           $0             $0           $7,082        $0
609   2006DNBX0065      $751,705           $65,670      8.74%           $0             $0               $0   $65,670
610   2006DNBX0066      $296,154            $5,923      2.00%           $0             $0           $5,923        $0
611   2006DNBX0067      $104,085                 $0     0.00%           $0             $0               $0        $0
612   2006DNBX0068      $124,353           $10,332      8.31%           $0             $0               $0   $10,332
613   2006DNBX0069        $93,611                $0     0.00%           $0             $0               $0        $0
614   2006DNBX0070      $485,997                 $0     0.00%           $0             $0               $0        $0
615   2006DNBX0071      $216,005                 $0     0.00%           $0             $0               $0        $0
616   2006DNBX0072      $423,929                 $0     0.00%           $0             $0               $0        $0
617   2006DNBX0073        $95,000                $0     0.00%           $0             $0               $0        $0
618   2006DNBX0074      $145,125            $1,334      0.92%           $0             $0           $1,334        $0
619   2006DNBX0075        $94,233                $0     0.00%           $0             $0               $0        $0
620   2006DNBX0076        $84,385                $0     0.00%           $0             $0               $0        $0
621   2006DNBX0077      $119,723                 $0     0.00%           $0             $0               $0        $0
622   2006DNBX0078        $91,015                $0     0.00%           $0             $0               $0        $0
623   2006DNBX0079      $345,186                 $0     0.00%           $0             $0               $0        $0
624   2006DNBX0080        $91,015                $0     0.00%           $0             $0               $0        $0
625   2006DNBX0081        $91,015                $0     0.00%           $0             $0               $0        $0
626   2006DNBX0082      $203,375                 $0     0.00%           $0             $0               $0        $0
627   2006DNBX0083      $779,670                 $0     0.00%           $0             $0               $0        $0
628   2006DNBX0084        $82,007                $0     0.00%           $0             $0               $0        $0



                                                        95
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost       Other
629   2006DNBX0085        $95,000                $0     0.00%           $0             $0              $0        $0
630   2006DNBX0086        $93,424                $0     0.00%           $0             $0              $0        $0
631   2006DNBX0087        $91,015                $0     0.00%           $0             $0              $0        $0
632   2006DNBX0088        $91,015                $0     0.00%           $0             $0              $0        $0
633   2006DNBX0090      $214,453           $21,308      9.94%           $0             $0              $0   $21,308
634   2006DNBX0091      $120,561                 $0     0.00%           $0             $0              $0        $0
635   2006DNBX0092      $188,820                 $0     0.00%           $0             $0              $0        $0
636   2006DNBX0093        $91,015           $6,905      7.59%           $0             $0          $6,905        $0
637   2006DNBX0094      $600,000         $157,308      26.22%           $0             $0        $157,308        $0
638   2006DNBX0095      $600,000         $106,523      17.75%           $0             $0        $106,523        $0
639   2006DNBXK001      $186,602           $61,366     32.89%           $0             $0         $61,366        $0
640   2006DNBXK002        $20,000                $0     0.00%           $0             $0              $0        $0
641   2006DNBXK005      $174,025           $52,329     30.07%           $0             $0         $52,329        $0
642   2006DNBXK006      $347,399           $91,012     26.20%           $0             $0         $91,012        $0
643   2006DNBXK007      $299,940           $86,160     28.73%           $0             $0         $86,160        $0
644   2006DNBXK009      $257,134           $68,525     26.65%           $0             $0         $68,525        $0
645   2006DNBXK010        $15,696                $0     0.00%           $0             $0              $0        $0
646   2006DNBXK011      $451,382         $247,557      54.84%           $0             $0        $247,557        $0
647   2006DNBXK012      $212,344           $91,468     43.08%           $0             $0         $91,468        $0
648   2006DNBXK013      $370,121         $214,721      58.01%           $0             $0        $214,721        $0
649   2006DNBXK014      $484,545         $151,656      31.30%           $0             $0        $151,656        $0
650   2006DNBXK015      $136,220                 $0     0.00%           $0             $0              $0        $0
651   2006DNBXK016      $533,746         $168,167      31.51%           $0             $0        $168,167        $0
652   2006DNBXK017      $414,145           $65,590     15.84%           $0             $0         $65,590        $0
653   2006DNBXK018      $453,472         $203,131      44.79%           $0             $0        $203,131        $0
654   2006DNBXK019      $200,307           $91,028     45.44%           $0             $0         $91,028        $0
655   2006DNBXK020      $205,000                 $0     0.00%           $0             $0              $0        $0
656   2006DNBXK021      $324,104           $98,978     30.54%           $0             $0         $98,978        $0
657   2006DNBXK022      $399,836         $110,955      27.75%           $0             $0        $110,955        $0
658   2006DNBXK023      $199,957           $49,881     24.95%           $0             $0         $49,881        $0
659   2006DNBXK025      $153,289                 $0     0.00%           $0             $0              $0        $0



                                                        96
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
660   2006DNBXK026       $123,311          $42,003     34.06%           $0             $0          $42,003        $0
661   2006DNBXK027       $249,446          $57,649     23.11%           $0             $0          $57,649        $0
662   2006DNBXK028       $324,547                $0     0.00%           $0             $0               $0        $0
663   2006DNBXK029       $149,477          $23,336     15.61%           $0        $23,336               $0        $0
664   2006DNBXK030       $102,798          $16,049     15.61%           $0        $16,049               $0        $0
665   2006DNBXK031       $126,505          $34,202     27.04%           $0             $0          $34,202        $0
666   2006DNBXK032       $191,429          $85,243     44.53%           $0             $0          $85,243        $0
667   2006DNBXK033       $106,474           $3,194      3.00%           $0             $0               $0    $3,194
668   2006DNBXK034       $311,948          $85,706     27.47%           $0             $0          $85,706        $0
669   2006DNBXK035         $6,915             $760     10.99%           $0             $0             $760        $0
670   2006DNBXK036       $185,476          $39,234     21.15%           $0             $0          $39,234        $0
671   2006DNBXK037        $82,820                $0     0.00%           $0             $0               $0        $0
672   2006DNBXK038       $357,181                $0     0.00%           $0             $0               $0        $0
673   2006DNBXK039        $67,444                $0     0.00%           $0             $0               $0        $0
674   2006DNBXK040       $244,503                $0     0.00%           $0             $0               $0        $0
675   2006DNBXK041       $168,868                $0     0.00%           $0             $0               $0        $0
676   2006DNBXK042        $73,128                $0     0.00%           $0             $0               $0        $0
677   2006DNBXK043       $293,234           $8,666      2.96%           $0             $0           $8,666        $0
678   2006DNBXK044     $1,096,775          $27,954      2.55%           $0             $0          $27,954        $0
679   2006DNBXK045        $42,455                $0     0.00%           $0             $0               $0        $0
680   2006DNBXK046        $67,345                $0     0.00%           $0             $0               $0        $0
681   2006DNBXK047        $41,757                $0     0.00%           $0             $0               $0        $0
682   2006DNBXK048        $45,775                $0     0.00%           $0             $0               $0        $0
683   2006DNBXK049        $50,000                $0     0.00%           $0             $0               $0        $0
684   2006DNBXK050        $60,194                $0     0.00%           $0             $0               $0        $0
685   2006DNBXK051        $82,516                $0     0.00%           $0             $0               $0        $0
686   2006DNBXK052       $200,323                $0     0.00%           $0             $0               $0        $0
687   2006DNBXK053       $545,256                $0     0.00%           $0             $0               $0        $0
688   2006DNBXK054        $69,432                $0     0.00%           $0             $0               $0        $0
689   2006DNBXK055       $230,844                $0     0.00%           $0             $0               $0        $0
690   2006DNBXK056       $155,314           $4,524      2.91%           $0             $0           $4,524        $0



                                                        97
                      FY 2006          Total          Percent                 Categories of Indirect Costs
                       Award        Administrative    of Total                                  Indirect
       Grant Number   Amount            Cost          Award      Overhead        G&A              Cost        Other
691   2006DNBXK057      $135,697                 $0     0.00%            $0             $0               $0        $0
692   2006DNBXK058      $101,862                 $0     0.00%            $0             $0               $0        $0
693   2006DNBXK059        $58,725                $0     0.00%            $0             $0               $0        $0
694   2006DNBXK060      $104,231                 $0     0.00%            $0             $0               $0        $0
695   2006DNBXK061      $107,923            $1,870      1.73%            $0             $0           $1,870        $0
696   2006DNBXK062        $60,730                $0     0.00%            $0             $0               $0        $0
697   2006DNBXK063        $97,713                $0     0.00%            $0             $0               $0        $0
698   2006DNBXK064        $84,522           $2,536      3.00%            $0             $0           $2,536        $0
699   2006DNBXK065      $498,570                 $0     0.00%            $0             $0               $0        $0
700   2006DNBXK066        $70,000                $0     0.00%            $0             $0               $0        $0
701   2006DNBXK067      $331,946                 $0     0.00%            $0             $0               $0        $0
702   2006DNBXK068      $200,858                 $0     0.00%            $0             $0               $0        $0
703   2006DNBXK069      $148,193                 $0     0.00%            $0             $0               $0        $0
704   2006DNBXK070        $92,782                $0     0.00%            $0             $0               $0        $0
705   2006DNBXK071      $103,115                 $0     0.00%            $0             $0               $0        $0
706   2006DNBXK072        $24,093                $0     0.00%            $0             $0               $0        $0
707   2006DNBXK073        $63,706                $0     0.00%            $0             $0               $0        $0
708   2006DNBXK074        $38,219                $0     0.00%            $0             $0               $0        $0
709   2006DNBXK075        $43,311                $0     0.00%            $0             $0               $0        $0
710   2006DNBXK076      $513,761           $13,761      2.68%            $0             $0               $0   $13,761
711   2006DNBXK077        $30,063                $0     0.00%            $0             $0               $0        $0
712   2006DNBXK078      $203,919                 $0     0.00%            $0             $0               $0        $0
713   2006DNBXK079      $308,328            $7,344      2.38%            $0             $0           $7,344        $0
714   2006DNBXK080        $18,220                $0     0.00%            $0             $0               $0        $0
715   2006DNBXK081      $118,106                 $0     0.00%            $0             $0               $0        $0
716   2006DNBXK082        $24,222                $0     0.00%            $0             $0               $0        $0
717   2006DNBXK083      $850,000                 $0     0.00%            $0             $0               $0        $0
718   2006DNBXK084      $210,910            $6,314      2.99%        $6,314             $0               $0        $0
719   2006DNBXK085        $54,221                $0     0.00%            $0             $0               $0        $0
720   2006DNBXK086      $145,843                 $0     0.00%            $0             $0               $0        $0
721   2006DNBXK087      $947,192                 $0     0.00%            $0             $0               $0        $0



                                                        98
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
722   2006DNBXK088        $98,123                $0     0.00%           $0             $0               $0        $0
723   2006DNBXK089        $41,139                $0     0.00%           $0             $0               $0        $0
724   2006DNBXK090        $24,053                $0     0.00%           $0             $0               $0        $0
725   2006DNBXK091        $75,000                $0     0.00%           $0             $0               $0        $0
726   2006DNBXK092        $94,890                $0     0.00%           $0             $0               $0        $0
727   2006DNBXK093      $103,485                 $0     0.00%           $0             $0               $0        $0
728   2006DNBXK094        $77,978                $0     0.00%           $0             $0               $0        $0
729   2006DNBXK095        $90,407                $0     0.00%           $0             $0               $0        $0
730   2006DNBXK096      $208,007                 $0     0.00%           $0             $0               $0        $0
731   2006DNBXK097      $263,695                 $0     0.00%           $0             $0               $0        $0
732   2006DNBXK098      $248,381            $7,304      2.94%           $0             $0               $0    $7,304
733   2006DNBXK099        $75,158                $0     0.00%           $0             $0               $0        $0
734   2006DNBXK100      $267,342           $59,580     22.29%           $0             $0          $59,580        $0
735   2006DNBXK101        $72,975                $0     0.00%           $0             $0               $0        $0
736   2006DNBXK102      $180,000                 $0     0.00%           $0             $0               $0        $0
737   2006DNBXK103      $391,897                 $0     0.00%           $0             $0               $0        $0
738   2006DNBXK104      $151,580                 $0     0.00%           $0             $0               $0        $0
739   2006DNBXK105      $177,517                 $0     0.00%           $0             $0               $0        $0
740   2006DNBXK106        $67,656                $0     0.00%           $0             $0               $0        $0
741   2006DNBXK107      $307,146                 $0     0.00%           $0             $0               $0        $0
742   2006DNBXK108        $72,046                $0     0.00%           $0             $0               $0        $0
743   2006DNBXK109        $90,000                $0     0.00%           $0             $0               $0        $0
744   2006DNBXK110      $536,845                 $0     0.00%           $0             $0               $0        $0
745   2006DNBXK111      $508,498                 $0     0.00%           $0             $0               $0        $0
746   2006DNBXK112        $41,810                $0     0.00%           $0             $0               $0        $0
747   2006DNBXK113        $45,000           $1,310      2.91%           $0             $0               $0    $1,310
748   2006DNBXK114      $332,766            $1,492      0.45%           $0             $0           $1,492        $0
749   2006DNBXK115      $681,455                 $0     0.00%           $0             $0               $0        $0
750   2006DNBXK116      $788,300                 $0     0.00%           $0             $0               $0        $0
751   2006DNBXK117        $26,205                $0     0.00%           $0             $0               $0        $0
752   2006DNBXK118        $28,568                $0     0.00%           $0             $0               $0        $0



                                                        99
                      FY 2006           Total         Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
753   2006DNBXK119       $728,911                $0     0.00%           $0             $0               $0           $0
754   2006DNBXK120       $385,992                $0     0.00%           $0             $0               $0           $0
755   2006DNBXK121       $140,374                $0     0.00%           $0             $0               $0           $0
756   2006DNBXK122        $84,874                $0     0.00%           $0             $0               $0           $0
757   2006DNBXK123        $30,063                $0     0.00%           $0             $0               $0           $0
758   2006DNBXK127       $316,681                $0     0.00%           $0             $0               $0           $0
759   2006DNBXK128       $219,986                $0     0.00%           $0             $0               $0           $0
760   2006DNBXK129       $819,081          $13,748      1.68%           $0             $0          $13,748           $0
761   2006DNBXK130       $138,263                $0     0.00%           $0             $0               $0           $0
762   2006DNBXK131     $1,253,871                $0     0.00%           $0             $0               $0           $0
763   2006DNBXK132     $2,184,050          $25,980      1.19%           $0             $0          $25,980           $0
764   2006DNBXK133       $430,467                $0     0.00%           $0             $0               $0           $0
765   2006DNBXK134        $64,783                $0     0.00%           $0             $0               $0           $0
766   2006DNBXK135       $406,442                $0     0.00%           $0             $0               $0           $0
767   2006DNBXK136       $915,862                $0     0.00%           $0             $0               $0           $0
768   2006DNBXK137       $613,986                $0     0.00%           $0             $0               $0           $0
769   2006DNBXK138       $169,977              $54      0.03%           $0             $0              $54           $0
770   2006DNBXK139        $48,278                $0     0.00%           $0             $0               $0           $0
771   2006DNBXK140       $235,189                $0     0.00%           $0             $0               $0           $0
772   2006DNBXK141       $624,657                $0     0.00%           $0             $0               $0           $0
773   2006DNBXK142       $136,825                $0     0.00%           $0             $0               $0           $0
774   2006DNBXK143       $145,710                $0     0.00%           $0             $0               $0           $0
775   2006DNBXK144       $117,064                $0     0.00%           $0             $0               $0           $0
776   2006DNBXK145       $202,766                $0     0.00%           $0             $0               $0           $0
777   2006DNBXK146       $972,915                $0     0.00%           $0             $0               $0           $0
778   2006DNBXK147       $261,576                $0     0.00%           $0             $0               $0           $0
779   2006DNBXK148       $478,218                $0     0.00%           $0             $0               $0           $0
780   2006DNBXK149       $481,397                $0     0.00%           $0             $0               $0           $0
781   2006DNBXK150       $341,764                $0     0.00%           $0             $0               $0           $0
782   2006DNBXK151        $48,988                $0     0.00%           $0             $0               $0           $0
783   2006DNBXK152       $136,825                $0     0.00%           $0             $0               $0           $0



                                                        100
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
784   2006DNBXK153       $768,640                $0     0.00%           $0             $0               $0        $0
785   2006DNBXK154       $136,825                $0     0.00%           $0             $0               $0        $0
786   2006DNBXK155       $525,255                $0     0.00%           $0             $0               $0        $0
787   2006DNBXK156       $158,805                $0     0.00%           $0             $0               $0        $0
788   2006DNBXK157       $652,289                $0     0.00%           $0             $0               $0        $0
789   2006DNBXK158       $516,810                $0     0.00%           $0             $0               $0        $0
790   2006DNBXK159       $136,825                $0     0.00%           $0             $0               $0        $0
791   2006DNBXK160        $72,013           $2,160      3.00%           $0             $0               $0    $2,160
792   2006DNBXK161       $720,788                $0     0.00%           $0             $0               $0        $0
793   2006DNBXK162       $564,048                $0     0.00%           $0             $0               $0        $0
794   2006DNBXK163        $72,013                $0     0.00%           $0             $0               $0        $0
795   2006DNBXK164       $107,210                $0     0.00%           $0             $0               $0        $0
796   2006DNBXK165       $135,771           $3,507      2.58%           $0             $0           $3,507        $0
797   2006DNBXK166       $194,394                $0     0.00%           $0             $0               $0        $0
798   2006DNBXK167     $1,886,239                $0     0.00%           $0             $0               $0        $0
799   2006DNBXK168        $53,371                $0     0.00%           $0             $0               $0        $0
800   2006DNBXK169       $107,973                $0     0.00%           $0             $0               $0        $0
801   2006DNBXK170       $290,423                $0     0.00%           $0             $0               $0        $0
802   2006DNBXK171       $502,447           $8,686      1.73%           $0             $0           $8,686        $0
803   2006DNBXK172       $128,998                $0     0.00%           $0             $0               $0        $0
804   2006DNBXK173       $216,039                $0     0.00%           $0             $0               $0        $0
805   2006DNBXK174       $136,825                $0     0.00%           $0             $0               $0        $0
806   2006DNBXK175        $47,958                $0     0.00%           $0             $0               $0        $0
807   2006DNBXK176        $58,385                $0     0.00%           $0             $0               $0        $0
808   2006DNBXK177       $235,321                $0     0.00%           $0             $0               $0        $0
809   2006DNBXK178       $136,825                $0     0.00%           $0             $0               $0        $0
810   2006DNBXK179       $199,767                $0     0.00%           $0             $0               $0        $0
811   2006DNBXK180       $155,424                $0     0.00%           $0             $0               $0        $0
812   2006DNBXK181       $136,825                $0     0.00%           $0             $0               $0        $0
813   2006DNBXK182        $30,814                $0     0.00%           $0             $0               $0        $0
814   2006DNBXK183       $780,400                $0     0.00%           $0             $0               $0        $0



                                                        101
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost          Other
815   2006DNBXK184       $658,315                $0     0.00%           $0             $0                 $0           $0
816   2006DNBXK185       $181,261                $0     0.00%           $0             $0                 $0           $0
817   2006DNBXK186       $276,300                $0     0.00%           $0             $0                 $0           $0
818   2006DNBXK187        $36,007                $0     0.00%           $0             $0                 $0           $0
819   2006DNBXK188       $102,553                $0     0.00%           $0             $0                 $0           $0
820   2006DNBXK189       $604,079                $0     0.00%           $0             $0                 $0           $0
821   2006DNBXK190       $151,020                $0     0.00%           $0             $0                 $0           $0
822   2006DNBXK191     $1,668,051                $0     0.00%           $0             $0                 $0           $0
823   2006DNBXK192       $150,745                $0     0.00%           $0             $0                 $0           $0
824   2006DNBXK193       $213,808                $0     0.00%           $0             $0                 $0           $0
825   2006DNBXK194       $437,306                $0     0.00%           $0             $0                 $0           $0
826   2006DNBXK195        $72,013                $0     0.00%           $0             $0                 $0           $0
827   2006DNBXK196     $1,069,041                $0     0.00%           $0             $0                 $0           $0
828   2006DNBXK197       $167,652                $0     0.00%           $0             $0                 $0           $0
829   2006DNBXK198       $227,236                $0     0.00%           $0             $0                 $0           $0
830   2006DNBXK199        $48,632                $0     0.00%           $0             $0                 $0           $0
831   2006DNBXK200       $123,296                $0     0.00%           $0             $0                 $0           $0
832   2006DNBXK201       $169,687                $0     0.00%           $0             $0                 $0           $0
833   2006DNBXK202       $871,914                $0     0.00%           $0             $0                 $0           $0
834   2006DNBXK203        $82,206                $0     0.00%           $0             $0                 $0           $0
835   2006DNBXK204       $169,483                $0     0.00%           $0             $0                 $0           $0
836   2006DNBXK205       $119,977                $0     0.00%           $0             $0                 $0           $0
837   2006DNBXK206       $494,610                $0     0.00%           $0             $0                 $0           $0
838   2006DNBXK207       $398,922                $0     0.00%           $0             $0                 $0           $0
839   2006DNBXK208       $149,666                $0     0.00%           $0             $0                 $0           $0
840   2006DNBXK209       $565,520                $0     0.00%           $0             $0                 $0           $0
841   2006DNBXK210       $118,664                $0     0.00%           $0             $0                 $0           $0
842   2006DNBXK211       $159,335                $0     0.00%           $0             $0                 $0           $0
843   2006DNBXK212       $348,864                $0     0.00%           $0             $0                 $0           $0
844   2006DNBXK213     $1,085,789                $0     0.00%           $0             $0                 $0           $0
845   2006DNBXK214       $459,688                $0     0.00%           $0             $0                 $0           $0



                                                        102
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
846   2006DNBXK215       $711,269                $0     0.00%           $0             $0               $0           $0
847   2006DNBXK216       $212,026                $0     0.00%           $0             $0               $0           $0
848   2006DNBXK217       $102,588                $0     0.00%           $0             $0               $0           $0
849   2006DNBXK218        $59,866                $0     0.00%           $0             $0               $0           $0
850   2006DNBXK219        $57,463                $0     0.00%           $0             $0               $0           $0
851   2006DNBXK220       $126,860                $0     0.00%           $0             $0               $0           $0
852   2006DNBXK221       $621,113                $0     0.00%           $0             $0               $0           $0
853   2006DNBXK222        $46,707                $0     0.00%           $0             $0               $0           $0
854   2006DNBXK223       $489,264                $0     0.00%           $0             $0               $0           $0
855   2006DNBXK224       $205,343                $0     0.00%           $0             $0               $0           $0
856   2006DNBXK225       $136,825                $0     0.00%           $0             $0               $0           $0
857   2006DNBXK226       $666,200                $0     0.00%           $0             $0               $0           $0
858   2006DNBXK227        $21,477                $0     0.00%           $0             $0               $0           $0
859   2006DNBXK228       $105,051                $0     0.00%           $0             $0               $0           $0
860   2006DNBXK229       $646,047                $0     0.00%           $0             $0               $0           $0
861   2006DNBXK230       $747,078                $0     0.00%           $0             $0               $0           $0
862   2006DNBXK231        $56,918                $0     0.00%           $0             $0               $0           $0
863   2006DNBXK232        $59,866                $0     0.00%           $0             $0               $0           $0
864   2006DNBXK233        $52,500                $0     0.00%           $0             $0               $0           $0
865   2006DNBXK234       $396,000                $0     0.00%           $0             $0               $0           $0
866   2006DNBXK235        $87,500                $0     0.00%           $0             $0               $0           $0
867   2006DNBXK236        $73,381                $0     0.00%           $0             $0               $0           $0
868   2006DNBXK237       $248,238                $0     0.00%           $0             $0               $0           $0
869   2006DNBXK238       $480,412                $0     0.00%           $0             $0               $0           $0
870   2006DNBXK239       $756,297          $22,028      2.91%           $0             $0          $22,028           $0
871   2006DNBXK240        $16,175                $0     0.00%           $0             $0               $0           $0
872   2006DNBXK241       $254,471                $0     0.00%           $0             $0               $0           $0
873   2006DNBXK242       $615,829          $14,668      2.38%           $0             $0          $14,668           $0
874   2006DNBXK243       $953,203                $0     0.00%           $0             $0               $0           $0
875   2006DNBXK244     $1,517,288                $0     0.00%           $0             $0               $0           $0
876   2006DNBXK245        $76,843                $0     0.00%           $0             $0               $0           $0



                                                        103
                      FY 2006          Total          Percent                Categories of Indirect Costs
                       Award        Administrative    of Total                                 Indirect
       Grant Number   Amount            Cost          Award      Overhead       G&A              Cost       Other
877   2006DNBXK246      $825,000                 $0     0.00%           $0             $0              $0           $0
878   2006DNBXK247        $22,471                $0     0.00%           $0             $0              $0           $0
879   2006DNBXK248      $294,000                 $0     0.00%           $0             $0              $0           $0
880   2006DNBXK249      $179,943                 $0     0.00%           $0             $0              $0           $0
881   2006DNBXK250      $197,589           $64,000     32.39%           $0             $0         $64,000           $0
882   2006DNBXK251      $167,227           $50,285     30.07%           $0             $0         $50,285           $0
883   2006DNBXK252        $96,903                $0     0.00%           $0             $0              $0           $0
884   2006IJCX0001       $20,000                 $0     0.00%           $0             $0              $0           $0
885   2006IJCX0002       $20,000                 $0     0.00%           $0             $0              $0           $0
886   2006IJCX0003       $20,000                 $0     0.00%           $0             $0              $0           $0
887   2006IJCX0004      $259,756           $53,600     20.63%           $0             $0         $53,600           $0
888   2006IJCX0005       $34,425                 $0     0.00%           $0             $0              $0           $0
889   2006IJCX0007       $34,997           $13,745     39.27%           $0             $0         $13,745           $0
890   2006IJCX0008      $284,287           $58,662     20.63%           $0             $0         $58,662           $0
891   2006IJCX0009       $75,523           $27,420     36.31%           $0             $0         $27,420           $0
892   2006IJCX0010      $189,420           $66,702     35.21%           $0             $0         $66,702           $0
893   2006IJCX0011      $999,940         $252,154      25.22%           $0             $0        $252,154           $0
894   2006IJCX0012      $105,989           $41,732     39.37%           $0             $0         $41,732           $0
895   2006IJCX0014      $290,386            $4,814      1.66%           $0             $0          $4,814           $0
896   2006IJCX0015      $299,978                 $0     0.00%           $0             $0              $0           $0
897   2006IJCX0016       $78,933           $24,645     31.22%           $0             $0         $24,645           $0
898   2006IJCX0018       $38,252            $2,199      5.75%           $0             $0          $2,199           $0
899   2006IJCX0019      $176,229           $63,981     36.31%           $0             $0         $63,981           $0
900   2006IJCX0020      $257,747           $89,285     34.64%           $0             $0         $89,285           $0
901   2006IJCX0021      $246,597           $88,992     36.09%           $0             $0         $88,992           $0
902   2006IJCX0022      $316,712         $105,571      33.33%           $0             $0        $105,571           $0
903   2006IJCX0023      $250,000                 $0     0.00%           $0             $0              $0           $0
904   2006IJCX0024      $124,919           $56,410     45.16%           $0             $0         $56,410           $0
905   2006IJCX0025      $148,862           $38,412     25.80%           $0             $0         $38,412           $0
906   2006IJCX0026      $292,893           $86,630     29.58%           $0        $86,630              $0           $0
907   2006IJCX0027      $144,140           $40,585     28.16%           $0             $0         $40,585           $0



                                                        104
                      FY 2006          Total          Percent                 Categories of Indirect Costs
                       Award        Administrative    of Total                                  Indirect
       Grant Number   Amount            Cost          Award      Overhead        G&A              Cost        Other
908   2006IJCX0028       $406,734        $133,093      32.72%            $0             $0         $133,093        $0
909   2006IJCX0029       $561,718          $64,938     11.56%            $0             $0          $64,938        $0
910   2006IJCX0030       $249,116        $110,192      44.23%            $0             $0         $110,192        $0
911   2006IJCX0031       $125,000          $33,452     26.76%            $0             $0          $33,452        $0
912   2006IJCX0032       $273,897          $45,800     16.72%            $0             $0          $45,800        $0
913   2006IJCX0034       $283,001          $80,133     28.32%            $0             $0          $80,133        $0
914   2006IJCX0036       $218,965                $0     0.00%            $0             $0               $0        $0
915   2006IJCX0037       $350,000          $82,451     23.56%            $0        $82,451               $0        $0
916   2006IJCX0038       $275,802          $54,888     19.90%            $0             $0          $54,888        $0
917   2006IJCX0039       $250,000          $44,989     18.00%            $0             $0          $44,989        $0
918   2006IJCX0042       $189,949          $74,306     39.12%            $0             $0          $74,306        $0
919   2006IJCX0043        $52,675                $0     0.00%            $0             $0               $0        $0
920   2006IJCX0045       $252,698          $91,744     36.31%       $91,744             $0               $0        $0
921   2006IJCXK002       $550,000          $85,768     15.59%            $0             $0          $85,768        $0
922   2006IJCXK003        $74,640                $0     0.00%            $0             $0               $0        $0
923   2006IJCXK006        $95,350          $26,256     27.54%            $0             $0          $26,256        $0
924   2006IJCXK007       $500,000           $7,450      1.49%            $0             $0           $7,450        $0
925   2006IJCXK008        $32,015           $3,036      9.48%            $0             $0           $3,036        $0
926   2006IJCXK009        $43,849           $3,554      8.11%            $0             $0           $3,554        $0
927   2006IJCXK011       $350,000        $146,563      41.88%            $0             $0         $146,563        $0
928   2006IJCXK012       $158,356          $42,963     27.13%            $0             $0          $42,963        $0
929   2006IJCXK016     $1,375,497          $77,858      5.66%            $0             $0          $77,858        $0
930   2006IJCXK020       $237,540          $77,232     32.51%            $0             $0          $77,232        $0
931   2006IJCXK023       $464,907        $101,982      21.94%            $0       $101,982               $0        $0
932   2006IJCXK024       $341,261        $130,939      38.37%       $92,536        $38,403               $0        $0
933   2006IJCXK025       $275,000                $0     0.00%            $0             $0               $0        $0
934   2006IJCXK026       $199,966        $117,921      58.97%            $0             $0         $117,921        $0
935   2006IJCXK027       $122,287                $0     0.00%            $0             $0               $0        $0
936   2006IJCXK033       $191,281          $65,438     34.21%            $0             $0               $0   $65,438
937   2006IJCXK034       $200,000          $40,520     20.26%            $0             $0          $40,520        $0
938   2006IJCXK035       $150,000          $31,973     21.32%            $0             $0          $31,973        $0



                                                        105
                       FY 2006           Total         Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
       Grant Number    Amount            Cost          Award      Overhead       G&A              Cost        Other
939   2006IJCXK036         $40,000          $14,110     35.28%           $0             $0          $14,110         $0
940   2006IJCXK039        $174,600                $0     0.00%           $0             $0               $0         $0
941   2006IJCXK041        $362,476        $107,492      29.65%           $0             $0         $107,492         $0
942   2006IJCXK042        $399,135                $0     0.00%           $0             $0               $0         $0
943   2006IJCXK043        $199,907          $61,795     30.91%           $0             $0          $61,795         $0
944   2006IJCXK044        $249,984          $65,643     26.26%           $0             $0          $65,643         $0
945   2006IJCXK045        $499,699        $220,910      44.21%           $0             $0         $220,910         $0
946   2006IJCXK046        $257,638          $62,043     24.08%           $0             $0          $62,043         $0
947   2006IJCXK125        $201,852          $39,714     19.67%           $0             $0          $39,714         $0
948   2006JEFX0006        $451,864          $92,210     20.41%           $0             $0          $92,210         $0
949   2006JPFX0059        $658,303          $64,841      9.85%           $0             $0          $64,841         $0
950   2006JPFX0062        $836,328        $296,761      35.48%           $0             $0         $296,761         $0
951   2006JVFX0011      $2,497,585        $683,216      27.36%           $0             $0         $683,216         $0
952   2006LTBXK001        $740,421                $0     0.00%           $0             $0               $0         $0
953   2006LTBXK004        $148,084          $14,463      9.77%           $0             $0          $14,463         $0
954   2006MUBXK002    $4,951,37949                $0     0.00%           $0             $0               $0         $0
                                49
955   2006MUBXK002                                $0     0.00%           $0             $0               $0         $0
956   2006MUMU0002       $648,056                 $0     0.00%           $0             $0               $0         $0
957   2006MUMU0004       $304,300           $55,811     18.34%           $0        $55,811               $0         $0
958   2006MUMUK006     $3,949,280         $709,572      17.97%           $0             $0         $709,572         $0
959   2006RPBX0016       $558,916         $159,690      28.57%           $0             $0         $159,690         $0
960   2006RPBX0040       $496,704         $144,483      29.09%           $0             $0         $144,483         $0
961   2006WGBX0001       $275,064           $35,220     12.80%           $0             $0          $35,220         $0
962   2006WGBX0002       $484,106         $141,569      29.24%           $0             $0         $141,569         $0
963   2006WGBX0003       $279,955           $92,066     32.89%           $0             $0          $92,066         $0
964   2006WGBX0004       $113,203                 $0     0.00%           $0             $0               $0         $0
965   2006WGBX0006       $370,966         $105,671      28.49%           $0             $0               $0   $105,671
966   2006WGBX0007       $498,726         $122,232      24.51%           $0             $0         $122,232         $0
967   2006WGBX0008       $469,590         $133,740      28.48%           $0             $0         $133,740         $0
968   2006WGBX0009       $118,376           $42,456     35.87%           $0             $0          $42,456         $0
969   2006WGBX0010       $290,414           $59,927     20.64%           $0             $0          $59,927         $0



                                                         106
                         FY 2006           Total        Percent                 Categories of Indirect Costs
                          Award        Administrative   of Total                                 Indirect
        Grant Number     Amount            Cost         Award      Overhead        G&A             Cost         Other
  970 2006WGBX0011          $297,888          $90,884    30.51%            $0            $0          $90,884         $0
  971 2007WGBX0051          $450,585          $89,972    19.97%            $0            $0          $89,972         $0
FY 2006 Subtotal       $183,324,283      $21,961,945    11.98%     $1,357,008    $1,203,786     $19,042,118    $359,033




                                                          107
                      FY 2007          Total        Percent                 Categories of Indirect Costs
                       Award       Administrative   of Total                                  Indirect
       Grant Number   Amount           Cost         Award      Overhead        G&A              Cost       Other
FY 2007 Awards
  972 2003DCBX1001    $1,529,646         $283,898    18.56%            $0             $0        $283,898        $0
  973 2004IJCXK035      $999,922         $296,558    29.66%            $0             $0        $296,558        $0
  974 2004IJCXK037      $199,868          $24,422    12.22%            $0             $0         $24,422        $0
  975 2004IJCXK047      $237,523          $21,593     9.09%            $0             $0         $21,593        $0
  976 2004IJCXK050      $400,758         $136,646    34.10%            $0             $0        $136,646        $0
  977 2004LTBXK086       $50,000               $0     0.00%            $0             $0              $0        $0
  978 2005DEBXK029      $299,974          $76,093    25.37%            $0             $0         $76,093        $0
  979 2005DEBXK070      $175,000           $2,055     1.17%            $0             $0          $2,055        $0
  980 2005IJCX0048      $200,000          $34,574    17.29%            $0             $0         $34,574        $0
  981 2005IJCXK001    $1,561,193         $504,051    32.29%            $0             $0        $504,051        $0
  982 2005IJCXK004       $50,000               $0     0.00%            $0             $0              $0        $0
  983 2005IJCXK017      $500,000         $160,295    32.06%            $0             $0        $160,295        $0
  984 2005IJCXK025       $75,000               $0     0.00%            $0             $0              $0        $0
  985 2005IJCXK026      $225,000               $0     0.00%            $0             $0              $0        $0
  986 2005IJCXK030    $1,500,000         $505,977    33.73%            $0             $0        $505,977        $0
  987 2005IJCXK031       $92,999          $18,896    20.32%            $0             $0         $18,896        $0
  988 2005IJCXK045      $100,000          $33,511    33.51%            $0             $0         $33,511        $0
  989 2005IJCXK046      $760,000         $184,924    24.33%            $0             $0        $184,924        $0
  990 2005IJCXK058       $64,878          $13,000    20.04%            $0             $0         $13,000        $0
  991 2005IJCXK071      $678,959               $0     0.00%            $0             $0              $0        $0
  992 2005LXFX0001       $20,000               $0     0.00%            $0             $0              $0        $0
  993 2005MUCXK077    $3,045,080         $585,342    19.22%      $399,765       $185,577              $0        $0
  994 2005MUMU0003       $25,052           $5,226    20.86%        $2,257         $2,969              $0        $0
  995 2005MUMUK001      $299,925         $100,639    33.55%            $0             $0        $100,639        $0
  996 2005MUMUK019      $548,278               $0     0.00%            $0             $0              $0        $0
  997 2005WTBX0002       $10,964              $67     0.61%            $0             $0              $0       $67
  998 2006DDBX0557      $150,000               $0     0.00%            $0             $0              $0        $0
  999 2006DDBXK099      $250,000          $64,364    25.75%            $0             $0         $64,364        $0
 1000 2006DEBXK001      $299,993               $0     0.00%            $0             $0              $0        $0
 1001 2006DNBXK007      $449,957         $129,913    28.87%            $0             $0        $129,913        $0



                                                      108
                       FY 2007          Total          Percent                 Categories of Indirect Costs
                        Award        Administrative    of Total                                  Indirect
        Grant Number   Amount            Cost          Award      Overhead        G&A              Cost       Other
1002   2006IJCX0039       $200,000                $0     0.00%            $0             $0              $0        $0
1003   2006IJCXK002       $137,789          $58,502     42.46%       $36,541        $21,961              $0        $0
1004   2006IJCXK003       $150,000                $0     0.00%            $0             $0              $0        $0
1005   2006IJCXK011       $150,000          $67,194     44.80%            $0             $0         $67,194        $0
1006   2006IJCXK012       $170,183          $50,336     29.58%            $0             $0         $50,336        $0
1007   2006IJCXK016     $2,292,000        $212,228       9.26%            $0             $0        $212,228        $0
1008   2006IJCXK024       $458,805        $222,590      48.52%      $158,196             $0         $64,394        $0
1009   2006IJCXK026       $250,000        $134,436      53.77%            $0             $0        $134,436        $0
1010   2006IJCXK034       $200,000          $66,667     33.33%            $0             $0         $66,667        $0
1011   2006IJCXK035       $150,000          $32,203     21.47%            $0             $0         $32,203        $0
1012   2006IJCXK042       $999,760                $0     0.00%            $0             $0              $0        $0
1013   2006IJCXK043       $250,000          $82,215     32.89%            $0             $0         $82,215        $0
1014   2006IJCXK044       $350,000          $87,525     25.01%            $0             $0         $87,525        $0
1015   2006MUBXK002     $1,552,176                $0     0.00%            $0             $0              $0        $0
1016   2006MUMUK006     $1,250,000        $336,226      26.90%            $0             $0        $336,226        $0
1017   2006RPBX0040        $49,806          $16,058     32.24%            $0             $0         $16,058        $0
1018   2006WGBX0004        $30,354                $0     0.00%            $0             $0              $0        $0
1019   2007CDBX0001       $889,943                $0     0.00%            $0             $0              $0        $0
1020   2007CDBX0002       $685,085                $0     0.00%            $0             $0              $0        $0
1021   2007CDBX0003        $96,594           $7,525      7.79%            $0             $0          $7,525        $0
1022   2007CDBX0004        $32,221             $800      2.48%            $0             $0            $800        $0
1023   2007CDBX0006       $210,521                $0     0.00%            $0             $0              $0        $0
1024   2007CDBX0007        $96,594                $0     0.00%            $0             $0              $0        $0
1025   2007CDBX0008        $96,594                $0     0.00%            $0             $0              $0        $0
1026   2007CDBX0009        $95,000                $0     0.00%            $0             $0              $0        $0
1027   2007CDBX0010        $45,543                $0     0.00%            $0             $0              $0        $0
1028   2007CDBX0011       $123,649                $0     0.00%            $0             $0              $0        $0
1029   2007CDBX0012        $96,594                $0     0.00%            $0             $0              $0        $0
1030   2007CDBX0013        $40,000             $940      2.35%            $0             $0              $0      $940
1031   2007CDBX0014        $95,000                $0     0.00%            $0             $0              $0        $0
1032   2007CDBX0016        $15,660                $0     0.00%            $0             $0              $0        $0



                                                         109
                       FY 2007          Total          Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
        Grant Number   Amount            Cost          Award      Overhead       G&A              Cost       Other
1033   2007CDBX0018        $38,814                $0     0.00%           $0             $0              $0        $0
1034   2007CDBX0019        $71,664                $0     0.00%           $0             $0              $0        $0
1035   2007CDBX0020      $143,177            $3,259      2.28%           $0             $0          $3,259        $0
1036   2007CDBX0021        $94,950           $6,257      6.59%           $0             $0          $6,257        $0
1037   2007CDBX0022        $96,594                $0     0.00%           $0             $0              $0        $0
1038   2007CDBX0023        $95,000                $0     0.00%           $0             $0              $0        $0
1039   2007CDBX0024      $382,575           $21,501      5.62%           $0             $0         $21,501        $0
1040   2007CDBX0025        $89,240                $0     0.00%           $0             $0              $0        $0
1041   2007CDBX0027      $486,142                 $0     0.00%           $0             $0              $0        $0
1042   2007CDBX0030      $354,453                 $0     0.00%           $0             $0              $0        $0
1043   2007CDBX0031        $94,911                $0     0.00%           $0             $0              $0        $0
1044   2007CDBX0032        $50,520                $0     0.00%           $0             $0              $0        $0
1045   2007CDBX0034      $328,369                 $0     0.00%           $0             $0              $0        $0
1046   2007CDBX0035        $95,000                $0     0.00%           $0             $0              $0        $0
1047   2007CDBX0036      $106,470                 $0     0.00%           $0             $0              $0        $0
1048   2007CDBX0037        $96,594                $0     0.00%           $0             $0              $0        $0
1049   2007CDBX0038        $96,594                $0     0.00%           $0             $0              $0        $0
1050   2007CDBX0039      $275,004            $5,271      1.92%           $0             $0          $5,271        $0
1051   2007CDBX0042        $96,594                $0     0.00%           $0             $0              $0        $0
1052   2007CDBX0043        $96,594          $13,616     14.10%           $0             $0         $13,616        $0
1053   2007CDBX0044        $94,361                $0     0.00%           $0             $0              $0        $0
1054   2007CDBX0045        $94,942                $0     0.00%           $0             $0              $0        $0
1055   2007CDBX0046        $96,594                $0     0.00%           $0             $0              $0        $0
1056   2007CDBX0048        $90,000                $0     0.00%           $0             $0              $0        $0
1057   2007CDBX0049        $58,654                $0     0.00%           $0             $0              $0        $0
1058   2007CDBX0050        $95,000                $0     0.00%           $0             $0              $0        $0
1059   2007CDBX0052        $92,658                $0     0.00%           $0             $0              $0        $0
1060   2007CDBX0053        $65,766                $0     0.00%           $0             $0              $0        $0
1061   2007CDBX0054      $132,811                 $0     0.00%           $0             $0              $0        $0
1062   2007CDBX0055        $96,594           $9,659     10.00%           $0             $0              $0    $9,659
1063   2007CDBX0056        $96,594                $0     0.00%           $0             $0              $0        $0



                                                         110
                       FY 2007           Total         Percent                 Categories of Indirect Costs
                        Award        Administrative    of Total                                  Indirect
        Grant Number   Amount            Cost          Award      Overhead        G&A              Cost       Other
1064   2007CDBX0057        $94,166                $0     0.00%            $0             $0              $0        $0
1065   2007CDBX0058        $83,531                $0     0.00%            $0             $0              $0        $0
1066   2007CDBX0059        $29,000                $0     0.00%            $0             $0              $0        $0
1067   2007CDBX0060        $93,088                $0     0.00%            $0             $0              $0        $0
1068   2007CDBX0061        $96,594           $5,850      6.06%            $0             $0              $0    $5,850
1069   2007CDBX0062        $96,594                $0     0.00%            $0             $0              $0        $0
1070   2007CDBX0063      $327,179                 $0     0.00%            $0             $0              $0        $0
1071   2007CDBX0064        $25,000                $0     0.00%            $0             $0              $0        $0
1072   2007CDBX0065      $162,768                 $0     0.00%            $0             $0              $0        $0
1073   2007CDBX0066        $95,000           $5,624      5.92%            $0             $0          $5,624        $0
1074   2007CDBX0067      $307,771           $30,777     10.00%            $0             $0         $30,777        $0
1075   2007CDBX0068      $195,749            $6,947      3.55%            $0             $0          $6,947        $0
1076   2007CDBX0071        $96,594                $0     0.00%            $0             $0              $0        $0
1077   2007CDBX0072      $335,373                 $0     0.00%            $0             $0              $0        $0
1078   2007CDBX0073      $330,582            $9,940      3.01%            $0             $0          $9,940        $0
1079   2007CDBX0074      $166,615           $10,927      6.56%            $0             $0         $10,927        $0
1080   2007CDBX0075        $83,653                $0     0.00%            $0             $0              $0        $0
1081   2007CDBX0077        $93,468                $0     0.00%            $0             $0              $0        $0
1082   2007CDBX0078        $94,960                $0     0.00%            $0             $0              $0        $0
1083   2007CDBX0080      $235,154                 $0     0.00%            $0             $0              $0        $0
1084   2007CDBX0081        $95,000                $0     0.00%            $0             $0              $0        $0
1085   2007CDBX0086        $67,302                $0     0.00%            $0             $0              $0        $0
1086   2007CDBX0112        $70,073                $0     0.00%            $0             $0              $0        $0
1087   2007DEBXK001      $300,000         $130,981      43.66%            $0             $0        $130,981        $0
1088   2007DEBXK002      $437,348           $85,104     19.46%       $85,104             $0              $0        $0
1089   2007DEBXK003      $527,546         $181,310      34.37%            $0             $0        $181,310        $0
1090   2007DEBXK004      $154,960           $48,610     31.37%            $0             $0         $48,610        $0
1091   2007DEBXK005        $45,444          $20,894     45.98%            $0             $0         $20,894        $0
1092   2007DEBXK006      $292,025                 $0     0.00%            $0             $0              $0        $0
1093   2007DEBXK007      $270,000                 $0     0.00%            $0             $0              $0        $0
1094   2007DEBXK008      $249,966           $38,202     15.28%            $0        $38,202              $0        $0



                                                         111
                       FY 2007           Total         Percent                 Categories of Indirect Costs
                        Award        Administrative    of Total                                  Indirect
        Grant Number   Amount            Cost          Award      Overhead        G&A              Cost        Other
1095   2007DEBXK009       $254,006          $86,961     34.24%            $0             $0         $86,961            $0
1096   2007DEBXK010       $165,173          $50,470     30.56%            $0             $0         $50,470            $0
1097   2007DEBXK011       $399,655          $48,867     12.23%            $0             $0         $48,867            $0
1098   2007DEBXK012       $249,378                $0     0.00%            $0             $0               $0           $0
1099   2007DEBXK101       $264,879          $82,015     30.96%            $0             $0         $82,015            $0
1100   2007DEBXK102       $242,000          $67,520     27.90%            $0        $67,520               $0           $0
1101   2007DEBXK176       $450,294        $255,989      56.85%            $0             $0        $255,989            $0
1102   2007DEBXK180       $494,974        $199,972      40.40%      $127,126        $57,920         $14,926            $0
1103   2007DEBXK182        $84,858          $24,767     29.19%            $0             $0         $24,767            $0
1104   2007DEBXK185       $250,000          $42,115     16.85%            $0             $0         $42,115            $0
1105   2007DEBXK191       $496,341        $229,677      46.27%            $0             $0        $229,677            $0
1106   2007DEBXK221       $125,000          $30,827     24.66%            $0             $0         $30,827            $0
1107   2007DNBX0001       $150,815          $55,184     36.59%            $0             $0         $55,184            $0
1108   2007DNBX0003        $20,000                $0     0.00%            $0             $0               $0           $0
1109   2007DNBX0004        $20,000                $0     0.00%            $0             $0               $0           $0
1110   2007DNBX0005        $20,000                $0     0.00%            $0             $0               $0           $0
1111   2007DNBX0006        $20,000                $0     0.00%            $0             $0               $0           $0
1112   2007DNBX0007       $292,341          $60,324     20.63%            $0             $0         $60,324            $0
1113   2007DNBX0011       $406,343          $68,166     16.78%            $0             $0         $68,166            $0
1114   2007DNBX0013        $20,000                $0     0.00%            $0             $0               $0           $0
1115   2007DNBX0014       $358,353        $124,351      34.70%            $0             $0        $124,351            $0
1116   2007DNBXK001        $43,600                $0     0.00%            $0             $0               $0           $0
1117   2007DNBXK004       $360,000                $0     0.00%            $0             $0               $0           $0
1118   2007DNBXK005     $1,000,000                $0     0.00%            $0             $0               $0           $0
1119   2007DNBXK006        $33,000                $0     0.00%            $0             $0               $0           $0
1120   2007DNBXK007        $17,250                $0     0.00%            $0             $0               $0           $0
1121   2007DNBXK008       $372,256          $11,168      3.00%            $0             $0         $11,168            $0
1122   2007DNBXK009       $160,000                $0     0.00%            $0             $0               $0           $0
1123   2007DNBXK010        $50,000                $0     0.00%            $0             $0               $0           $0
1124   2007DNBXK011       $528,000                $0     0.00%            $0             $0               $0           $0
1125   2007DNBXK012       $603,400                $0     0.00%            $0             $0               $0           $0



                                                         112
                       FY 2007          Total          Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
        Grant Number   Amount            Cost          Award      Overhead       G&A              Cost       Other
1126   2007DNBXK013        $50,730                $0     0.00%           $0             $0              $0        $0
1127   2007DNBXK014     $1,781,320                $0     0.00%           $0             $0              $0        $0
1128   2007DNBXK015       $384,000                $0     0.00%           $0             $0              $0        $0
1129   2007DNBXK016        $46,000           $1,336      2.90%           $0             $0              $0    $1,336
1130   2007DNBXK017       $497,115                $0     0.00%           $0             $0              $0        $0
1131   2007DNBXK018       $259,977                $0     0.00%           $0             $0              $0        $0
1132   2007DNBXK019       $273,870                $0     0.00%           $0             $0              $0        $0
1133   2007DNBXK020       $474,943        $218,601      46.03%           $0             $0        $218,601        $0
1134   2007DNBXK021       $137,500          $44,704     32.51%           $0             $0         $44,704        $0
1135   2007DNBXK022       $500,000                $0     0.00%           $0             $0              $0        $0
1136   2007DNBXK023       $176,235                $0     0.00%           $0             $0              $0        $0
1137   2007DNBXK024       $198,581                $0     0.00%           $0             $0              $0        $0
1138   2007DNBXK025       $498,579                $0     0.00%           $0             $0              $0        $0
1139   2007DNBXK026       $500,000                $0     0.00%           $0             $0              $0        $0
1140   2007DNBXK027       $177,359                $0     0.00%           $0             $0              $0        $0
1141   2007DNBXK028       $469,801                $0     0.00%           $0             $0              $0        $0
1142   2007DNBXK029        $30,000                $0     0.00%           $0             $0              $0        $0
1143   2007DNBXK030       $100,000             $220      0.22%           $0             $0              $0      $220
1144   2007DNBXK031       $101,941                $0     0.00%           $0             $0              $0        $0
1145   2007DNBXK032        $90,000                $0     0.00%           $0             $0              $0        $0
1146   2007DNBXK033       $187,344                $0     0.00%           $0             $0              $0        $0
1147   2007DNBXK034       $100,000                $0     0.00%           $0             $0              $0        $0
1148   2007DNBXK036       $197,182                $0     0.00%           $0             $0              $0        $0
1149   2007DNBXK038       $305,045                $0     0.00%           $0             $0              $0        $0
1150   2007DNBXK039        $30,000                $0     0.00%           $0             $0              $0        $0
1151   2007DNBXK040       $100,000                $0     0.00%           $0             $0              $0        $0
1152   2007DNBXK041       $100,000                $0     0.00%           $0             $0              $0        $0
1153   2007DNBXK042       $100,000           $3,000      3.00%           $0             $0              $0    $3,000
1154   2007DNBXK043        $60,000                $0     0.00%           $0             $0              $0        $0
1155   2007DNBXK044       $100,000                $0     0.00%           $0             $0              $0        $0
1156   2007DNBXK045        $50,000           $1,496      2.99%           $0             $0              $0    $1,496



                                                         113
                       FY 2007           Total         Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
        Grant Number   Amount            Cost          Award      Overhead       G&A              Cost          Other
1157   2007DNBXK047        $77,160                $0     0.00%           $0             $0                 $0        $0
1158   2007DNBXK049       $337,000                $0     0.00%           $0             $0                 $0        $0
1159   2007DNBXK050       $819,785                $0     0.00%           $0             $0                 $0        $0
1160   2007DNBXK051       $100,000           $2,913      2.91%           $0             $0                 $0    $2,913
1161   2007DNBXK052       $338,534                $0     0.00%           $0             $0                 $0        $0
1162   2007DNBXK053       $981,015          $19,697      2.01%           $0             $0                 $0   $19,697
1163   2007DNBXK055       $100,000           $3,000      3.00%           $0             $0                 $0    $3,000
1164   2007DNBXK057       $100,000                $0     0.00%           $0             $0                 $0        $0
1165   2007DNBXK058     $1,539,340                $0     0.00%           $0             $0                 $0        $0
1166   2007DNBXK060       $767,264                $0     0.00%           $0             $0                 $0        $0
1167   2007DNBXK061       $100,000           $2,912      2.91%           $0             $0                 $0    $2,912
1168   2007DNBXK062        $24,374                $0     0.00%           $0             $0                 $0        $0
1169   2007DNBXK064       $102,534                $0     0.00%           $0             $0                 $0        $0
1170   2007DNBXK065       $876,693           $1,344      0.15%           $0             $0                 $0    $1,344
1171   2007DNBXK066        $60,122                $0     0.00%           $0             $0                 $0        $0
1172   2007DNBXK067        $80,366                $0     0.00%           $0             $0                 $0        $0
1173   2007DNBXK068       $452,756          $10,157      2.24%           $0             $0                 $0   $10,157
1174   2007DNBXK069       $764,028          $24,447      3.20%           $0             $0                 $0   $24,447
1175   2007DNBXK070       $366,958                $0     0.00%           $0             $0                 $0        $0
1176   2007DNBXK071       $310,391                $0     0.00%           $0             $0                 $0        $0
1177   2007DNBXK072       $100,000                $0     0.00%           $0             $0                 $0        $0
1178   2007DNBXK073       $475,774          $14,269      3.00%           $0             $0                 $0   $14,269
1179   2007DNBXK077       $200,035                $0     0.00%           $0             $0                 $0        $0
1180   2007DNBXK078       $672,720          $20,913      3.11%           $0             $0                 $0   $20,913
1181   2007DNBXK082       $211,993           $6,358      3.00%           $0             $0                 $0    $6,358
1182   2007DNBXK083     $1,963,282          $58,898      3.00%           $0             $0                 $0   $58,898
1183   2007DNBXK084       $734,235                $0     0.00%           $0             $0                 $0        $0
1184   2007DNBXK085       $172,060                $0     0.00%           $0             $0                 $0        $0
1185   2007DNBXK086     $1,153,158                $0     0.00%           $0             $0                 $0        $0
1186   2007DNBXK087     $1,943,336                $0     0.00%           $0             $0                 $0        $0
1187   2007DNBXK088       $640,013          $18,641      2.91%           $0             $0                 $0   $18,641



                                                         114
                       FY 2007          Total          Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
        Grant Number   Amount            Cost          Award      Overhead       G&A              Cost          Other
1188   2007DNBXK089       $156,822                $0     0.00%           $0             $0                 $0        $0
1189   2007DNBXK090       $391,201                $0     0.00%           $0             $0                 $0        $0
1190   2007DNBXK091       $200,831                $0     0.00%           $0             $0                 $0        $0
1191   2007DNBXK092       $766,204                $0     0.00%           $0             $0                 $0        $0
1192   2007DNBXK093       $281,369                $0     0.00%           $0             $0                 $0        $0
1193   2007DNBXK094       $208,656                $0     0.00%           $0             $0                 $0        $0
1194   2007DNBXK095       $100,000                $0     0.00%           $0             $0                 $0        $0
1195   2007DNBXK096       $340,115                $0     0.00%           $0             $0                 $0        $0
1196   2007DNBXK097       $147,812                $0     0.00%           $0             $0                 $0        $0
1197   2007DNBXK098        $70,037                $0     0.00%           $0             $0                 $0        $0
1198   2007DNBXK099       $397,427                $0     0.00%           $0             $0                 $0        $0
1199   2007DNBXK100       $120,820                $0     0.00%           $0             $0                 $0        $0
1200   2007DNBXK101       $243,341                $0     0.00%           $0             $0                 $0        $0
1201   2007DNBXK103       $128,694                $0     0.00%           $0             $0                 $0        $0
1202   2007DNBXK104       $870,921                $0     0.00%           $0             $0                 $0        $0
1203   2007DNBXK105       $168,985                $0     0.00%           $0             $0                 $0        $0
1204   2007DNBXK106       $809,929          $24,297      3.00%           $0             $0                 $0   $24,297
1205   2007DNBXK107       $165,405                $0     0.00%           $0             $0                 $0        $0
1206   2007DNBXK108       $800,000                $0     0.00%           $0             $0                 $0        $0
1207   2007DNBXK109       $167,531                $0     0.00%           $0             $0                 $0        $0
1208   2007DNBXK110       $392,116                $0     0.00%           $0             $0                 $0        $0
1209   2007DNBXK111       $260,000                $0     0.00%           $0             $0                 $0        $0
1210   2007DNBXK112       $244,837                $0     0.00%           $0             $0                 $0        $0
1211   2007DNBXK113       $561,146                $0     0.00%           $0             $0                 $0        $0
1212   2007DNBXK114       $217,125                $0     0.00%           $0             $0                 $0        $0
1213   2007DNBXK115       $691,401                $0     0.00%           $0             $0                 $0        $0
1214   2007DNBXK116       $203,350                $0     0.00%           $0             $0                 $0        $0
1215   2007DNBXK117       $215,785                $0     0.00%           $0             $0                 $0        $0
1216   2007DNBXK118       $344,432                $0     0.00%           $0             $0                 $0        $0
1217   2007DNBXK119     $1,000,000                $0     0.00%           $0             $0                 $0        $0
1218   2007DNBXK120       $944,766          $28,342      3.00%           $0             $0                 $0   $28,342



                                                         115
                       FY 2007           Total         Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
        Grant Number   Amount            Cost          Award      Overhead       G&A              Cost       Other
1219   2007DNBXK121       $248,000                $0     0.00%           $0             $0              $0        $0
1220   2007DNBXK122       $214,405                $0     0.00%           $0             $0              $0        $0
1221   2007DNBXK123       $441,063          $12,846      2.91%           $0             $0         $12,846        $0
1222   2007DNBXK124       $187,395                $0     0.00%           $0             $0              $0        $0
1223   2007DNBXK125     $2,273,278                $0     0.00%           $0             $0              $0        $0
1224   2007DNBXK126       $251,183          $67,436     26.85%           $0        $67,436              $0        $0
1225   2007DNBXK127        $90,000           $2,700      3.00%           $0             $0              $0    $2,700
1226   2007DNBXK128       $114,297                $0     0.00%           $0             $0              $0        $0
1227   2007DNBXK129       $128,948                $0     0.00%           $0             $0              $0        $0
1228   2007DNBXK130       $282,211                $0     0.00%           $0             $0              $0        $0
1229   2007DNBXK131     $1,146,900                $0     0.00%           $0             $0              $0        $0
1230   2007DNBXK132       $145,547                $0     0.00%           $0             $0              $0        $0
1231   2007DNBXK133       $251,695                $0     0.00%           $0             $0              $0        $0
1232   2007DNBXK134       $633,900                $0     0.00%           $0             $0              $0        $0
1233   2007DNBXK135       $350,172        $117,976      33.69%           $0             $0        $117,976        $0
1234   2007DNBXK136       $336,566                $0     0.00%           $0             $0              $0        $0
1235   2007DNBXK137       $500,000                $0     0.00%           $0             $0              $0        $0
1236   2007DNBXK138       $449,727                $0     0.00%           $0             $0              $0        $0
1237   2007DNBXK139       $438,615                $0     0.00%           $0             $0              $0        $0
1238   2007DNBXK140       $500,000          $15,000      3.00%           $0             $0         $15,000        $0
1239   2007DNBXK141       $500,000                $0     0.00%           $0             $0              $0        $0
1240   2007DNBXK142       $592,183        $155,660      26.29%           $0             $0        $155,660        $0
1241   2007DNBXK143       $370,813                $0     0.00%           $0             $0              $0        $0
1242   2007DNBXK144       $170,212          $70,357     41.33%           $0             $0         $70,357        $0
1243   2007DNBXK145       $448,466                $0     0.00%           $0             $0              $0        $0
1244   2007DNBXK146       $580,337        $104,406      17.99%           $0       $104,406              $0        $0
1245   2007DNBXK147       $324,705          $62,580     19.27%           $0             $0         $62,580        $0
1246   2007DNBXK148       $271,504          $80,304     29.58%           $0             $0         $80,304        $0
1247   2007DNBXK149       $112,481                $0     0.00%           $0             $0              $0        $0
1248   2007DNBXK150     $1,086,363          $31,642      2.91%           $0             $0              $0   $31,642
1249   2007DNBXK151       $236,064                $0     0.00%           $0             $0              $0        $0



                                                         116
                       FY 2007          Total          Percent                 Categories of Indirect Costs
                        Award        Administrative    of Total                                  Indirect
        Grant Number   Amount            Cost          Award      Overhead        G&A              Cost       Other
1250   2007DNBXK154       $224,696           $4,854      2.16%            $0             $0              $0     $4,854
1251   2007DNBXK155       $503,135                $0     0.00%            $0             $0              $0         $0
1252   2007DNBXK156       $402,564                $0     0.00%            $0             $0              $0         $0
1253   2007DNBXK158       $145,538                $0     0.00%            $0             $0              $0         $0
1254   2007DNBXK159     $1,019,118                $0     0.00%            $0             $0              $0         $0
1255   2007DNBXK160       $612,568                $0     0.00%            $0             $0              $0         $0
1256   2007DNBXK161       $168,599                $0     0.00%            $0             $0              $0         $0
1257   2007DNBXK162       $400,976                $0     0.00%            $0             $0              $0         $0
1258   2007DNBXK163       $500,000                $0     0.00%            $0             $0              $0         $0
1259   2007DNBXK164       $437,094                $0     0.00%            $0             $0              $0         $0
1260   2007DNBXK165       $555,430          $12,584      2.27%            $0             $0              $0    $12,584
1261   2007DNBXK166     $1,939,418                $0     0.00%            $0             $0              $0         $0
1262   2007DNBXK167       $265,732                $0     0.00%            $0             $0              $0         $0
1263   2007DNBXK168       $170,417                $0     0.00%            $0             $0              $0         $0
1264   2007DNBXK169       $295,247                $0     0.00%            $0             $0              $0         $0
1265   2007DNBXK170       $346,720           $7,703      2.22%            $0             $0              $0     $7,703
1266   2007DNBXK171       $168,904          $49,167     29.11%            $0             $0              $0    $49,167
1267   2007DNBXK172       $353,449          $82,210     23.26%            $0             $0         $82,210         $0
1268   2007DNBXK173       $392,983                $0     0.00%            $0             $0              $0         $0
1269   2007DNBXK184       $497,346                $0     0.00%            $0             $0              $0         $0
1270   2007DNBXK186       $320,458        $107,544      33.56%            $0             $0        $107,544         $0
1271   2007DNBXK187        $68,000          $22,044     32.42%       $12,675         $9,369              $0         $0
1272   2007DNBXK188       $364,400        $135,127      37.08%       $93,382        $41,745              $0         $0
1273   2007DNBXK196       $499,824        $115,541      23.12%            $0             $0        $115,541         $0
1274   2007DNBXK197       $680,516        $268,642      39.48%            $0             $0        $268,642         $0
1275   2007DNBXK199       $382,394          $95,135     24.88%            $0             $0         $95,135         $0
1276   2007DNBXK200     $1,400,000          $40,777      2.91%            $0             $0         $40,777         $0
1277   2007DNBXK204       $400,000                $0     0.00%            $0             $0              $0         $0
1278   2007DNBXK205       $290,249          $72,105     24.84%            $0             $0         $72,105         $0
1279   2007DNBXK206       $440,993          $30,445      6.90%            $0             $0         $30,445         $0
1280   2007DNBXK207       $496,985                $0     0.00%            $0             $0              $0         $0



                                                         117
                       FY 2007          Total          Percent                 Categories of Indirect Costs
                        Award        Administrative    of Total                                  Indirect
        Grant Number   Amount            Cost          Award      Overhead        G&A              Cost        Other
1281   2007DNBXK208     $1,586,975        $531,761      33.51%            $0             $0        $531,761            $0
1282   2007DNBXK209       $373,951          $90,404     24.18%            $0             $0         $90,404            $0
1283   2007DNBXK210       $500,000                $0     0.00%            $0             $0               $0           $0
1284   2007DNBXK212       $198,591           $7,324      3.69%            $0             $0           $7,324           $0
1285   2007DNBXK213        $77,123                $0     0.00%            $0             $0               $0           $0
1286   2007DNBXK219       $500,000                $0     0.00%            $0             $0               $0           $0
1287   2007DNBXK220       $469,250                $0     0.00%            $0             $0               $0           $0
1288   2007DNBXK235       $924,445        $262,927      28.44%            $0             $0        $262,927            $0
1289   2007DNBXK236       $268,594        $133,045      49.53%      $103,456        $29,589               $0           $0
1290   2007DNBXK237       $500,000          $72,548     14.51%            $0             $0         $72,548            $0
1291   2007DNBXK239       $380,254                $0     0.00%            $0             $0               $0           $0
1292   2007DNBXK240       $227,443        $111,447      49.00%       $86,391        $25,056               $0           $0
1293   2007DNBXK241       $125,000          $36,972     29.58%            $0             $0         $36,972            $0
1294   2007DNBXK242        $61,152                $0     0.00%            $0             $0               $0           $0
1295   2007DNBXK243       $310,800                $0     0.00%            $0             $0               $0           $0
1296   2007DNBXK304        $89,584          $19,023     21.23%            $0             $0         $19,023            $0
1297   2007IJCX0001     $1,250,000        $206,307      16.50%            $0       $192,040         $14,267            $0
1298   2007IJCX0002        $34,850           $5,671     16.27%            $0             $0           $5,671           $0
1299   2007IJCX0003        $22,650           $3,775     16.67%            $0             $0           $3,775           $0
1300   2007IJCX0004        $34,999           $5,119     14.63%            $0             $0           $5,119           $0
1301   2007IJCX0005        $34,518           $5,753     16.67%            $0             $0           $5,753           $0
1302   2007IJCX0006        $19,976                $0     0.00%            $0             $0               $0           $0
1303   2007IJCX0007        $20,000                $0     0.00%            $0             $0               $0           $0
1304   2007IJCX0008       $394,005          $92,287     23.42%            $0             $0         $92,287            $0
1305   2007IJCX0010        $20,000                $0     0.00%            $0             $0               $0           $0
1306   2007IJCX0012       $314,961        $139,706      44.36%            $0             $0        $139,706            $0
1307   2007IJCX0013       $297,264          $61,823     20.80%            $0             $0         $61,823            $0
1308   2007IJCX0015        $19,465                $0     0.00%            $0             $0               $0           $0
1309   2007IJCX0016       $365,704          $55,480     15.17%            $0             $0         $55,480            $0
1310   2007IJCX0017       $281,977          $56,063     19.88%            $0             $0         $56,063            $0
1311   2007IJCX0018       $280,073          $85,578     30.56%            $0             $0         $85,578            $0



                                                         118
                       FY 2007          Total          Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
        Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
1312   2007IJCX0019        $79,368          $32,083     40.42%           $0             $0         $32,083         $0
1313   2007IJCX0020        $90,298          $35,704     39.54%           $0             $0         $35,704         $0
1314   2007IJCX0022       $399,040        $122,087      30.60%           $0             $0        $122,087         $0
1315   2007IJCX0023       $474,765        $128,806      27.13%           $0             $0        $128,806         $0
1316   2007IJCX0024       $137,061          $41,122     30.00%           $0             $0         $41,122         $0
1317   2007IJCX0025       $298,430          $94,870     31.79%           $0             $0         $94,870         $0
1318   2007IJCX0026       $302,613          $64,917     21.45%           $0             $0         $64,917         $0
1319   2007IJCX0027       $261,405          $75,455     28.87%           $0             $0         $75,455         $0
1320   2007IJCX0030       $205,891          $74,750     36.31%           $0             $0         $74,750         $0
1321   2007IJCX0031        $19,991                $0     0.00%           $0             $0               $0        $0
1322   2007IJCX0032        $74,872          $11,468     15.32%           $0             $0         $11,468         $0
1323   2007IJCX0033       $139,530          $27,678     19.84%           $0             $0         $27,678         $0
1324   2007IJCX0035       $427,152          $86,399     20.23%           $0             $0         $86,399         $0
1325   2007IJCX0037       $296,656          $83,226     28.05%           $0             $0         $83,226         $0
1326   2007IJCX0038     $1,046,853        $421,262      40.24%           $0             $0        $421,262         $0
1327   2007IJCX0041        $62,459          $20,396     32.66%           $0             $0               $0   $20,396
1328   2007IJCX0042        $33,200                $0     0.00%           $0             $0               $0        $0
1329   2007IJCX0044       $250,000          $99,902     39.96%           $0             $0         $99,902         $0
1330   2007IJCX0045        $84,979          $17,535     20.63%           $0             $0         $17,535         $0
1331   2007IJCX0046       $236,577          $60,695     25.66%           $0             $0         $60,695         $0
1332   2007IJCX0047       $350,431          $82,693     23.60%           $0             $0         $82,693         $0
1333   2007IJCX0048       $424,807        $106,602      25.09%           $0             $0        $106,602         $0
1334   2007IJCX0107       $219,409          $28,746     13.10%           $0             $0         $28,746         $0
1335   2007IJCX0110       $475,337        $133,196      28.02%           $0             $0        $133,196         $0
1336   2007IJCXK002       $272,066                $0     0.00%           $0             $0               $0        $0
1337   2007IJCXK003       $250,198          $80,799     32.29%           $0             $0         $80,799         $0
1338   2007IJCXK004     $1,200,000          $81,312      6.78%           $0             $0         $81,312         $0
1339   2007IJCXK011       $375,000                $0     0.00%           $0             $0               $0        $0
1340   2007IJCXK013     $3,682,743                $0     0.00%           $0             $0               $0        $0
1341   2007IJCXK014       $600,000        $110,622      18.44%           $0             $0        $110,622         $0
1342   2007IJCXK020       $114,807          $38,826     33.82%           $0             $0         $38,826         $0



                                                         119
                       FY 2007           Total         Percent                Categories of Indirect Costs
                        Award        Administrative    of Total                                 Indirect
        Grant Number   Amount            Cost          Award      Overhead       G&A              Cost        Other
1343   2007IJCXK021       $170,000          $28,734     16.90%           $0             $0         $28,734         $0
1344   2007IJCXK022       $253,000           $8,500      3.36%           $0             $0               $0    $8,500
1345   2007IJCXK023     $2,500,000                $0     0.00%           $0             $0               $0        $0
1346   2007IJCXK024        $29,900                $0     0.00%           $0             $0               $0        $0
1347   2007IJCXK025       $124,708          $35,821     28.72%           $0        $35,821               $0        $0
1348   2007IJCXK026     $1,060,001                $0     0.00%           $0             $0               $0        $0
1349   2007IJCXK027     $1,250,000        $394,709      31.58%           $0             $0        $394,709         $0
1350   2007IJCXK153       $235,421          $73,101     31.05%           $0             $0         $73,101         $0
1351   2007IJCXK203       $519,543                $0     0.00%           $0             $0               $0        $0
1352   2007IJCXK229       $375,000          $11,250      3.00%           $0             $0               $0   $11,250
1353   2007IJCXK230       $347,625        $107,884      31.03%           $0             $0        $107,884         $0
1354   2007IJCXK232       $510,974        $141,735      27.74%           $0             $0        $141,735         $0
1355   2007IJCXK233     $1,000,000                $0     0.00%           $0             $0               $0        $0
1356   2007IJCXK234       $800,000        $244,444      30.56%           $0             $0        $244,444         $0
1357   2007LTBXK001       $123,349          $37,690     30.56%           $0             $0         $37,690         $0
1358   2007MUBXK008     $6,000,000                $0     0.00%           $0             $0               $0        $0
1359   2007MUCXK001       $499,893        $285,291      57.07%           $0             $0        $285,291         $0
1360   2007MUCXK223     $1,500,000           $9,635      0.64%           $0             $0               $0    $9,635
1361   2007MUMU0002       $441,017          $90,945     20.62%           $0             $0         $90,945         $0
1362   2007MUMUK003       $498,660        $327,373      65.65%           $0             $0        $327,373         $0
1363   2007MUMUK004       $499,957        $119,344      23.87%           $0             $0        $119,344         $0
1364   2007MUMUK005     $3,200,000        $635,311      19.85%           $0             $0        $635,311         $0
1365   2007MUMUK007     $1,519,363        $334,675      22.03%           $0             $0        $334,675         $0
1366   2007MUMUK008     $2,952,806        $858,250      29.07%           $0             $0        $858,250         $0
1367   2007MUMUK009     $2,670,000        $638,326      23.91%           $0             $0        $638,326         $0
1368   2007MUMUK021       $401,000        $125,350      31.26%           $0             $0        $125,350         $0
1369   2007RDCX0001       $477,891          $13,461      2.82%           $0             $0         $13,461         $0
1370   2007RGCXK001       $418,000                $0     0.00%           $0             $0               $0        $0
1371   2007RGCXK002       $372,000                $0     0.00%           $0             $0               $0        $0
1372   2007RGCXK003       $791,961                $0     0.00%           $0             $0               $0        $0
1373   2007RGCXK010       $363,271                $0     0.00%           $0             $0               $0        $0



                                                         120
                          FY 2007          Total          Percent                 Categories of Indirect Costs
                           Award        Administrative    of Total                                  Indirect
        Grant Number      Amount            Cost          Award      Overhead        G&A              Cost          Other
1374   2007RGCXK011          $128,754          $44,047     34.21%           $0              $0         $44,047            $0
1375   2007RGCXK012          $500,000                $0     0.00%           $0              $0               $0           $0
1376   2007RGCXK013          $500,000                $0     0.00%           $0              $0               $0           $0
1377   2007RGCXK014          $500,000                $0     0.00%           $0              $0               $0           $0
1378   2007RGCXK015          $499,878        $284,707      56.96%           $0              $0        $284,707            $0
1379   2007RGCXK016          $493,551        $199,945      40.51%           $0              $0        $199,945            $0
1380   2007RGCXK017          $285,664                $0     0.00%           $0              $0               $0           $0
1381   2007RGCXK179          $300,000        $101,268      33.76%           $0              $0        $101,268            $0
1382   2007RGCXK181          $496,972                $0     0.00%           $0              $0               $0           $0
1383   2007RGCXK183          $260,038          $53,425     20.55%           $0              $0         $53,425            $0
1384   2007RGCXK222          $306,000          $31,200     10.20%           $0              $0               $0      $31,200
1385   2007RGCXK228        $1,000,000        $267,188      26.72%           $0              $0        $267,188            $0
1386   2007RGCXK238          $900,000                $0     0.00%           $0              $0               $0           $0
1387   2007RPBX0001          $150,938          $56,063     37.14%           $0         $19,195         $36,868            $0
1388   2007VFGX0004          $499,905        $124,666      24.94%           $0              $0        $124,666            $0
1389   2007VTBX0001          $293,198          $93,744     31.97%           $0         $93,744               $0           $0
1390   2007VTBXK002           $86,802          $16,761     19.31%           $0              $0         $16,761            $0
1391   2007WGBX0001          $113,951                $0     0.00%           $0              $0               $0           $0
1392   2007WGBX0002          $499,880        $144,383      28.88%           $0              $0        $144,383            $0
1393   2007WGBX0003          $182,738          $72,963     39.93%           $0              $0         $72,963            $0
1394   2007WGBX0009          $700,780          $39,957      5.70%           $0              $0         $39,957            $0
1395   2007WGBX0010          $499,984        $154,237      30.85%           $0              $0        $154,237            $0
1396   2007WGBX0011          $335,208          $47,979     14.31%           $0              $0         $47,979            $0
1397   2007WGBX0012          $319,921          $98,371     30.75%           $0              $0         $98,371            $0
1398   2007WGBX0013          $318,212        $108,862      34.21%           $0              $0        $108,862            $0
1399   2007WGBX0021          $385,622        $127,305      33.01%           $0              $0        $127,305            $0
1400   2007WGBX0028          $314,092        $100,949      32.14%           $0              $0        $100,949            $0
FY 2007 Subtotal        $174,088,751      $19,734,934     11.34%     $1,104,893      $992,550     $17,189,104      $448,387

FY 2005 - 2007 Totals   $551,035,127      $64,092,600     11.63%     $3,892,806    $3,925,044     $54,996,057     $1,278,693




                                                            121
                                                                             APPENDIX III

               Differences in Award Amounts in Grant Universe Data
                      Provided by the NIJ for Grants Awarded
                         During FY 2005 through FY 2007


        FY 2005     Award Amount        Actual Award        Amount            Amount
     Grant Number   Provided by NIJ       Amount           Overstated       Understated
1    1998CEVX0006         $699,960.00              $0.00     -$699,960.00
2    2001RDCXK001         $373,894.38        $374,603.00                           $708.62
3    2002GPCX1003       $1,199,998.00      $1,199,992.00            $6.00
4    2002LPCXK006         $305,746.00              $0.00     -$305,746.00
5    2003RCCXK001       $3,946,573.00      $3,948,912.00                          $2,339.00
6    2004DNBX0176         $131,742.07        $133,484.00                          $1,741.93
7    2004DNBX4141         $172,268.00        $173,440.00                          $1,172.00
8    2004DNBX4155         $227,141.16        $230,328.00                          $3,186.84
9    2004DNBX4184          $65,165.56         $80,233.00                         $15,067.44
10   2004IJCX0005          $31,471.04         $28,978.00       -$2,493.04
11   2005DABXK006         $381,395.00        $387,065.00                          $5,670.00
12   2005DABXK009         $191,924.58        $191,928.00                              $3.42
13   2005DABXK011         $731,114.53        $751,737.00                         $20,622.47
14   2005DABXK013         $110,446.20        $110,552.00                            $105.80
15   2005DABXK016          $87,729.44        $112,809.00                         $25,079.56
16   2005DABXK025          $86,884.96         $87,332.00                            $447.04
17   2005DABXK032         $197,932.06        $199,051.00                          $1,118.94
18   2005DABXK033         $129,603.70        $130,479.00                            $875.30
19   2005DABXK038          $96,261.00         $96,492.00                            $231.00
20   2005DABXK044         $214,824.15        $214,851.00                             $26.85
21   2005DABXK045         $148,016.16        $148,634.00                            $617.84


                                            122
        FY 2005     Award Amount        Actual Award       Amount        Amount
     Grant Number   Provided by NIJ       Amount          Overstated   Understated
22   2005DABXK046          $43,165.84        $43,166.00                          $0.16
23   2005DABXK048          $65,549.84        $70,000.00                      $4,450.16
24   2005DABXK052         $111,228.00       $111,280.00                         $52.00
25   2005DABXK056          $63,077.43        $66,135.00                      $3,057.57
26   2005DABXK064         $119,774.48       $119,775.00                          $0.52
27   2005DABXK066         $433,291.20       $443,476.00                     $10,184.80
28   2005DABXK068          $73,408.59        $79,046.00                      $5,637.41
29   2005DABXK080         $157,416.12       $157,663.00                        $246.88
30   2005DABXK083          $54,074.63        $54,075.00                          $0.37
31   2005DABXK085          $17,307.76        $17,317.00                          $9.24
32   2005DDBX0002          $30,839.52       $474,435.00                    $443,595.48
33   2005DNBX0003          $89,218.33        $89,278.00                         $59.67
34   2005DNBX0014          $64,603.92        $65,495.00                        $891.08
35   2005DNBX0015         $161,931.19       $191,389.00                     $29,457.81
36   2005DNBX0018         $195,573.47       $201,211.00                      $5,637.53
37   2005DNBX0054          $82,320.95        $82,639.00                        $318.05
38   2005DNBX0058         $343,610.80       $371,657.00                     $28,046.20
39   2005DNBX0061          $81,184.15        $87,850.00                      $6,665.85
40   2005DNBX0062         $113,632.00       $113,634.00                          $2.00
41   2005DNBX0066          $82,230.20        $82,639.00                        $408.80
42   2005DNBX0077          $34,514.56        $36,410.00                      $1,895.44
43   2005DNBX0078          $94,615.17        $94,624.00                          $8.83
44   2005DNBX0081          $82,555.17        $82,639.00                         $83.83
45   2005DNBX0082          $55,805.00        $56,600.00                        $795.00
46   2005DNBX0084          $51,130.66        $55,918.00                      $4,787.34
47   2005DNBX0087          $82,638.95        $82,639.00                          $0.05
48   2005DNBX0088          $90,930.50        $95,000.00                      $4,069.50
49   2005DNBX0089         $591,436.21       $623,604.00                     $32,167.79




                                            123
        FY 2005     Award Amount        Actual Award       Amount        Amount
     Grant Number   Provided by NIJ       Amount          Overstated   Understated
50   2005DNBX0090          $69,477.46        $94,307.00                     $24,829.54
51   2005DNBX0092          $94,591.87        $94,988.00                        $396.13
52   2005DNBX0094         $200,249.50       $202,307.00                      $2,057.50
53   2005DNBX0095          $60,067.19        $60,068.00                          $0.81
54   2005DNBX0096          $40,087.00        $45,420.00                      $5,333.00
55   2005DNBX0100          $72,876.00        $82,639.00                      $9,763.00
56   2005DNBX0105         $114,263.85       $114,282.00                         $18.15
57   2005DNBX0111          $41,559.62        $48,188.00                      $6,628.38
58   2005DNBX0113          $83,492.00        $88,722.00                      $5,230.00
59   2005DNBX0115         $146,872.10       $146,930.00                         $57.90
60   2005DNBX0116          $29,893.91        $30,516.00                        $622.09
61   2005DNBX0124          $50,644.01        $50,720.00                         $75.99
62   2005DNBXK004          $63,190.85        $64,929.00                      $1,738.15
63   2005DNBXK039         $266,705.31       $266,998.00                        $292.69
64   2005DNBXK042          $51,699.95        $53,313.00                      $1,613.05
65   2005DNBXK045          $78,332.65        $80,094.00                      $1,761.35
66   2005DNBXK047         $232,765.83       $237,000.00                      $4,234.17
67   2005DNBXK048         $419,390.40       $419,391.00                          $0.60
68   2005DNBXK063         $110,890.57       $115,104.00                      $4,213.43
69   2005DNBXK064          $39,992.45        $40,000.00                          $7.55
70   2005DNBXK069         $297,990.82       $306,134.00                      $8,143.18
71   2005DNBXK074          $79,440.00        $79,937.00                        $497.00
72   2005DNBXK081          $39,750.00        $40,000.00                        $250.00
73   2005DNBXK090         $118,661.17       $118,846.00                        $184.83
74   2005DNBXK093          $59,335.07        $61,576.00                      $2,240.93
75   2005DNBXK104          $52,359.74        $52,621.00                        $261.26
76   2005DNBXK110         $223,522.99       $223,866.00                        $343.01
77   2005IJCX0007          $30,914.89        $30,918.00                          $3.11




                                            124
        FY 2005     Award Amount        Actual Award       Amount            Amount
     Grant Number   Provided by NIJ       Amount          Overstated       Understated
78   2005IJCX0011          $22,849.34        $35,000.00                         $12,150.66
79   2005IJCX0012         $110,174.41       $118,167.00                          $7,992.59
80   2005IJCX0014          $19,320.00        $20,000.00                           $680.00
81   2005IJCX0020          $32,161.58        $32,356.00                           $194.42
82   2005IJCX0047         $199,286.14       $232,200.00                         $32,913.86
83   2005IJCXK032         $163,477.52       $167,000.00                          $3,522.48
84   2005IJCXK140          $16,552.54        $20,000.00                          $3,447.46
85   2005WGBX0002          $17,633.29        $20,000.00                          $2,366.71

FY 2005 Subtotal      $16,747,627.65     $16,545,031.00   -$1,008,205.04      $805,608.39




                                            125
         FY 2006     Award Amount        Actual Award        Amount           Amount
      Grant Number   Provided by NIJ       Amount           Overstated      Understated
 86   2002MUMUK011       $3,199,938.00      $3,298,661.00                       $98,723.00
 87   2004MUMUK001          $63,597.79        $185,000.00                      $121,402.21
 88   2005DDBX0002         $443,595.48        $474,435.00                       $30,839.52
 89   2006DNBX0010         $163,053.00        $167,818.00                        $4,765.00
 90   2006DNBX0028          $94,993.67         $95,000.00                            $6.33
 91   2006DNBX0034          $94,285.66         $94,435.00                          $149.34
 92   2006DNBX0036          $72,500.86         $72,560.00                           $59.14
 93   2006DNBX0058          $89,578.99         $95,000.00                        $5,421.01
 94   2006DNBX0059         $305,429.00        $305,476.00                           $47.00
 95   2006DNBX0061          $48,316.15         $51,034.00                        $2,717.85
 96   2006DNBX0076          $84,370.20         $84,385.00                           $14.80
 97   2006DNBX0083         $716,173.20        $779,670.00                       $63,496.80
 98   2006DNBX0090         $207,423.64        $214,453.00                        $7,029.36
 99   2006DNBX0091         $109,699.28        $120,561.00                       $10,861.72
100   2006DNBXK045          $41,463.56         $42,455.00                          $991.44
101   2006DNBXK080          $14,562.67         $18,220.00                        $3,657.33
102   2006DNBXK090          $24,050.00         $24,053.00                            $3.00
103   2006DNBXK134          $40,686.70         $64,783.00                       $24,096.30
104   2006DNBXK138          $53,690.00       $169,977.00                       $116,287.00
105   2006DNBXK148         $478,192.01       $478,218.00                            $25.99
106   2006DNBXK153         $767,480.76       $768,640.00                         $1,159.24
107   2006DNBXK175          $43,583.85        $47,958.00                         $4,374.15
108   2006DNBXK178         $136,196.28       $136,825.00                           $628.72
109   2006DNBXK180         $151,767.93       $155,424.00                         $3,656.07
110   2006DNBXK208         $149,564.50       $149,666.00                           $101.50
111   2006IJCXK002         $374,911.00       $550,000.00                       $175,089.00

FY 2006 Subtotal        $7,969,104.18      $8,644,707.00            $0.00     $675,602.82



                                             126
         FY 2007     Award Amount        Actual Award       Amount             Amount
      Grant Number   Provided by NIJ       Amount          Overstated        Understated
112   2007DNBXK210         $213,697.00       $500,000.00                $0       $286,303.00

FY 2007 Subtotal          $213,697.00       $500,000.00                 $0      $286,303.00



FY 2005-2007 Total     $24,930,428.83     $25,689,738.00   -$1,008,205.04     $1,767,514.21




                                             127
                                                         APPENDIX IV

          Grants Where Budget and Award Amounts
             Differed in GMS for Grants Awarded
              During FY 2005 through FY 2007

              FY 2005
           Grant Number    Award Amount       Budget Amount
 1   2004DNBX0176                  $133,484           $133,009
 2   2005DABXK104                  $382,594           $374,937
 3   2005DNBX0003                   $89,278            $95,000
 4   2005DNBX0004                  $281,293           $179,178
 5   2005DNBX0006                   $95,823            $92,163
 6   2005DNBX0008                  $186,643           $179,514
 7   2005DNBX0009                  $189,154           $185,557
 8   2005DNBX0011                  $277,023           $266,441
 9   2005DNBX0015                  $191,389           $184,079
10   2005DNBX0018                  $201,211           $193,526
11   2005DNBX0019                  $178,678           $171,853
12   2005DNBX0048                   $82,639            $62,298
13   2005DNBX0051                  $146,463           $140,868
14   2005DNBX0069                  $208,110           $200,162
15   2005DNBX0070                  $165,442           $159,123
16   2005DNBX0077                   $36,410            $36,910
17   2005DNBX0081                   $82,639           $113,270
18   2005DNBX0086                  $121,725           $122,411
19   2005DNBX0089                  $623,604           $599,784
20   2005DNBX0091                  $180,268           $140,474
21   2005DNBX0094                  $202,307           $194,579
22   2005DNBX0100                   $82,639            $95,000
23   2005DNBX0103                  $729,432           $701,571


                           128
              FY 2005
           Grant Number   Award Amount        Budget Amount
  24 2005DNBX0104                  $178,802            $121,499
  25 2005DNBX0105                  $114,282             $95,000
  26 2005DNBX0110                $1,164,088          $1,119,698
  27 2005DNBX0122                  $136,158            $117,863
  28 2005DNBX0126                  $402,381            $387,011
  29 2005DNBX0127                  $286,369            $275,430
  30 2005DNBX0130                   $79,537             $91,496
  31 2005DNBX0131                   $85,500             $85,426
  32 2005DNBX4067                  $241,949            $232,708
  33 2005DNBXK007                  $430,434            $430,494
FY 2005 Subtotals               $7,987,748          $7,578,332




                          129
                FY 2006
             Grant Number    Award Amount      Budget Amount
  34   2006DNBX0050                 $133,400          $133,000
  35   2006DNBX0089                 $258,099          $258,000
FY 2006 Subtotals                  $391,499          $391,000




                            130
                 FY 2007
              Grant Number   Award Amount         Budget Amount
   36   2007CDBX0005                   $337,213             $321,713
   37   2007CDBX0015                   $494,905             $406,863
   38   2007CDBX0017                   $826,483             $779,350
   39   2007CDBX0026                   $104,712              $97,979
   40   2007CDBX0028                   $112,977             $105,707
   41   2007CDBX0029                    $96,594              $51,100
   42   2007CDBX0033                    $95,000             $108,000
   43   2007CDBX0040                   $159,335             $149,904
   44   2007CDBX0041                   $243,869             $228,180
   45   2007CDBX0047                   $269,214             $258,023
   46   2007CDBX0051                 $1,381,039           $1,292,318
   47   2007CDBX0069                   $311,339             $297,108
   48   2007CDBX0070                   $205,298             $198,177
   49   2007CDBX0076                    $96,594              $88,595
   50   2007CDBX0079                   $230,584             $126,873
   51   2007CDBX0082                   $559,385             $528,985
   52   2007CDBX0083                   $148,818             $139,237
   53   2007CDBX0084                   $163,658             $152,175
   54   2007CDBX0085                   $228,734             $214,059
   55   2007CDBX0088                   $289,509             $270,919
   56   2007DNBXK003                    $57,200              $52,500
   57   2007MUMUK010                 $2,300,000           $2,299,960
FY 2007 Subtotals                   $8,712,460           $8,167,725
FY 2005 – 2007 Totals              $17,091,707          $16,137,057




                             131
                                                                                          APPENDIX V
                         Administrative Costs for Contract Awards
                            During FY 2005 through FY 2007

                                             Total        Percent
                                         Administrative   of Total                        Indirect
         Award Number   Award Amount        Costs         Award      G&A       Overhead     Cost      Other
 1   2001BF524              $1,212,324         $31,390      2.59%         $0         $0          $0    $31,390
 2   2001BF524/5TO08           $60,000               $0     0.00%         $0         $0          $0          $0
 3   2001BF524/5TO10           $75,000              $14     0.02%         $0         $0          $0         $14
 4   2002BF017                 $64,001              $15     0.02%         $0         $0          $0         $15
 5   2003BF_003               $616,788               $0     0.00%         $0         $0          $0          $0
 6   2003BF003              $3,732,002               $0     0.00%         $0         $0          $0          $0
 7   2003BF010              $1,723,798               $0     0.00%         $0         $0          $0          $0
 8   2003BF015                  $1,479               $0     0.00%         $0         $0          $0          $0
 9   2003BF020              $1,562,211               $0     0.00%         $0         $0          $0          $0
10   2003BF021              $2,826,097               $0     0.00%         $0         $0          $0          $0
11   2004BF016/4TO178          $49,996             $744     1.49%       $744         $0          $0          $0
12   2004BF016/5TO079          $15,000             $163     1.09%         $0         $0          $0       $163
13   2004BF016/5TO088         $199,993           $1,017     0.51%     $1,017         $0          $0          $0
14   2004BF016/5TO091         $553,359           $2,495     0.45%     $2,495         $0          $0          $0
15   2004BF018/4TO179         $174,353           $4,551     2.61%     $4,551         $0          $0          $0
16   2004BF018/5TO043          $20,000             $534     2.67%       $534         $0          $0          $0
17   2004BF018/5TO089         $401,980         $12,063      3.00%    $12,063         $0          $0          $0
18   2004BF018/5TO093         $368,525         $10,915      2.96%    $10,915         $0          $0          $0
19   2004BF022              $1,280,157         $28,243      2.21%    $28,243         $0          $0          $0
20   2005BF_023                $75,999               $0     0.00%         $0         $0          $0          $0
21   2005BF004                $716,118         $52,561      7.34%         $0         $0          $0    $52,561
22   2005BF008                 $20,000               $0     0.00%         $0         $0          $0          $0
23   2005BF017                $100,000             $817     0.82%         $0         $0          $0       $817
24   2005BF018                $200,000               $0     0.00%         $0         $0          $0          $0
25   2005BF020                 $60,000             $352     0.59%         $0         $0          $0       $352
26   2005BF021                 $75,000               $0     0.00%         $0         $0          $0          $0
27   2005F_016                 $28,800               $0     0.00%         $0         $0          $0          $0


                                                   132
                                                Total        Percent
                                            Administrative   of Total                          Indirect
         Award Number      Award Amount        Costs         Award      G&A        Overhead      Cost      Other
28   2005F_057                    $24,812               $0     0.00%          $0          $0          $0         $0
29   2004M_067                    $40,955               $0     0.00%          $0          $0          $0         $0
30   2004M_096                    $20,124               $0     0.00%          $0          $0          $0         $0
31   2005M_001                    $58,277               $0     0.00%          $0          $0          $0         $0
32   2005M_014                     $1,800               $0     0.00%          $0          $0          $0         $0
33   2005M_073                    $98,500         $30,626     31.09%          $0     $30,626          $0         $0
34   2005M_075                     $5,039               $0     0.00%          $0          $0          $0         $0
35   2005M_105                    $15,500           $3,614    23.32%          $0          $0      $3,614         $0
36   2005M_106                    $15,343               $0     0.00%          $0          $0          $0         $0
37   2005M_110                     $3,007               $0     0.00%          $0          $0          $0         $0
38   2005M_112                    $35,000         $11,272     32.21%          $0     $10,922          $0       $350
39   2005M_113                    $70,000         $22,944     32.78%          $0     $22,244          $0       $700
40   2005M_114                    $55,158               $0     0.00%          $0          $0          $0         $0
41   2005M_115                    $62,976               $0     0.00%          $0          $0          $0         $0
42   2001BF524/06                $252,258           $6,350     2.52%          $0          $0          $0     $6,350
43   2001BF524/07                $250,000               $0     0.00%          $0          $0          $0         $0
44   2003BF_010/6TO081           $263,211               $0     0.00%          $0          $0          $0         $0
45   2003BF003                 $2,231,500               $0     0.00%          $0          $0          $0         $0
46   2003BF010                    $19,062               $0     0.00%          $0          $0          $0         $0
47   2003BF010/6TO075             $79,800               $0     0.00%          $0          $0          $0         $0
48   2003BF010/6TO084            $108,000               $0     0.00%          $0          $0          $0         $0
49   2003BF010/6TO106          $2,047,500               $0     0.00%          $0          $0          $0         $0
50   2003BF018/6TO083            $560,000               $0     0.00%          $0          $0          $0         $0
51   2003BF018/6TO085            $235,000               $0     0.00%          $0          $0          $0         $0
52   2003BF018/6TO086            $495,000               $0     0.00%          $0          $0          $0         $0
53   2003BF018/6TO100            $275,400               $0     0.00%          $0          $0          $0         $0
54   2003BF018/6TO101            $611,490               $0     0.00%          $0          $0          $0         $0
55   2003BF020/2006TO024       $1,704,471               $0     0.00%          $0          $0          $0         $0
56   2003BF020                   $131,169               $0     0.00%          $0          $0          $0         $0
57   2003BF020/6TO076            $124,875               $0     0.00%          $0          $0          $0         $0
58   2003BF020/6TO080            $152,130               $0     0.00%          $0          $0          $0         $0
59   2003BF020/6TO105            $783,020               $0     0.00%          $0          $0          $0         $0


                                                      133
                                                Total        Percent
                                            Administrative   of Total                         Indirect
         Award Number      Award Amount        Costs         Award      G&A        Overhead     Cost      Other
60   2003BF021                   $272,672               $0     0.00%          $0         $0          $0         $0
61   2004BF_018/6TO090            $59,087           $1,272     2.15%      $1,272         $0          $0         $0
62   2004BF016/6TO103            $149,931           $3,594     2.40%      $3,594         $0          $0         $0
63   2004BF022                    $80,000           $1,678     2.10%      $1,678         $0          $0         $0
64   2004BF022/6TO089             $59,853             $880     1.47%        $880         $0          $0         $0
65   2005BF_023                  $309,622           $2,127     0.69%          $0         $0          $0     $2,127
66   2005BF004                   $718,532         $51,317      7.14%          $0         $0          $0    $51,317
67   2005BF017                   $377,000               $0     0.00%          $0         $0          $0         $0
68   2005BF018                   $100,000               $0     0.00%          $0         $0          $0         $0
69   2005BF019/2006TO046          $82,000               $0     0.00%          $0         $0          $0         $0
70   2005BF020                    $74,409             $229     0.31%          $0         $0          $0       $229
71   2006BF001/2006TO003          $74,902               $0     0.00%          $0         $0          $0         $0
72   2006BF005/6TO047            $117,124               $0     0.00%          $0         $0          $0         $0
73   2006BF019/6TO098             $96,329               $0     0.00%          $0         $0          $0         $0
74   2004C_002                    $33,778               $0     0.00%          $0         $0          $0         $0
75   2006F_051                 $1,060,360               $0     0.00%          $0         $0          $0         $0
76   2006F_059                 $1,000,339               $0     0.00%          $0         $0          $0         $0
77   2006F_060                   $920,009               $0     0.00%          $0         $0          $0         $0
78   2006F_066                   $652,494               $0     0.00%          $0         $0          $0         $0
79   2006F_077                 $1,787,375               $0     0.00%          $0         $0          $0         $0
80   2006F_114                   $450,000               $0     0.00%          $0         $0          $0         $0
81   2006F_127                    $10,000               $0     0.00%          $0         $0          $0         $0
82   2006M_037                     $7,561               $0     0.00%          $0         $0          $0         $0
83   2006M_043                    $50,000               $0     0.00%          $0         $0          $0         $0
84   2006M_052                   $111,158               $0     0.00%          $0         $0          $0         $0
85   2006TO020                 $6,481,398         $25,015      0.39%     $21,483         $0          $0     $3,532
86   2003BF003                   $910,290        $303,414     33.33%    $303,414         $0          $0         $0
87   2003BF_010/7TO07078       $1,400,000               $0     0.00%          $0         $0          $0         $0
88   2003BF_010/7TO07080       $1,120,000               $0     0.00%          $0         $0          $0         $0
89   2003BF_010/7TO07082         $110,600               $0     0.00%          $0         $0          $0         $0
90   2003BF_015/7TO07033         $310,000               $0     0.00%          $0         $0          $0         $0
91   2003BF_015/7TO07034         $570,000               $0     0.00%          $0         $0          $0         $0


                                                      134
                                                   Total        Percent
                                               Administrative   of Total                         Indirect
          Award Number        Award Amount        Costs         Award      G&A        Overhead     Cost      Other
 92   2003BF015/7TO07064            $470,000               $0     0.00%          $0         $0          $0         $0
 93   2003BF020/2007TO07083         $376,000               $0     0.00%          $0         $0          $0         $0
 94   2004BF022                     $146,466             $608     0.42%        $608         $0          $0         $0
 95   2004BF022/7TO07017            $301,239           $9,970     3.31%      $9,970         $0          $0         $0
 96   2005BF017                     $338,000             $647     0.19%          $0         $0          $0       $647
 97   2005BF018                      $12,873               $0     0.00%          $0         $0          $0         $0
 98   2005BF020                      $50,000             $309     0.62%          $0         $0          $0       $309
 99   2005BF021                     $170,637               $0     0.00%          $0         $0          $0         $0
100   2005BF_023                    $366,667           $2,078     0.57%          $0         $0          $0     $2,078
101   2006BF001/2006TO003            $85,000               $0     0.00%          $0         $0          $0         $0
102   2006BF005/6TO047               $60,442               $0     0.00%          $0         $0          $0         $0
103   2006BF005/7TO07035            $150,000               $0     0.00%          $0         $0          $0         $0
104   2007BF07001/7TO07093          $112,100               $0     0.00%          $0         $0          $0         $0
105   2007BF07001/7TO07096           $58,300               $0     0.00%          $0         $0          $0         $0
106   2007BF07002/7TO07049           $36,400               $0     0.00%          $0         $0          $0         $0
107   2007BF07002/7TO07055          $427,360               $0     0.00%          $0         $0          $0         $0
108   2007BF07002/7TO07075          $179,850               $0     0.00%          $0         $0          $0         $0
109   2007BF07002/7TO07081          $192,500               $0     0.00%          $0         $0          $0         $0
110   2007BF07002/7TO07084        $1,010,149               $0     0.00%          $0         $0          $0         $0
111   2007BF_020/7TO07057         $1,085,000               $0     0.00%          $0         $0          $0         $0
112   2007BF07022/7TO07092          $336,375               $0     0.00%          $0         $0          $0         $0
113   2006F_077                   $1,479,986               $0     0.00%          $0         $0          $0         $0
114   2006F_114                   $3,483,695        $241,110      6.92%    $241,110         $0          $0         $0
115   2007F_07013                     $5,950               $0     0.00%          $0         $0          $0         $0
116   2007F_07063                    $24,566               $0     0.00%          $0         $0          $0         $0
117   2007F07063                     $49,132               $0     0.00%          $0         $0          $0         $0
118   2007F_07077                     $4,147               $0     0.00%          $0         $0          $0         $0
119   2007F_07164                   $249,907           $3,171     1.27%      $2,571         $0          $0       $600
120   2007F_07165                   $348,491           $7,443     2.14%      $7,000         $0          $0       $443
121   2007F_07175                    $59,967             $835     1.39%        $835         $0          $0         $0
122   2007F_07176                 $1,160,000         $55,224      4.76%          $0         $0          $0    $55,224
123   2007F_07177                    $59,967             $835     1.39%        $835         $0          $0         $0


                                                         135
                                               Total        Percent
                                           Administrative   of Total                          Indirect
           Award Number   Award Amount        Costs         Award      G&A        Overhead      Cost      Other
 124   2007M_07031                $3,000               $0     0.00%          $0          $0          $0         $0
 125   2007M_07032               $48,500         $20,053     41.35%     $10,303      $9,750          $0         $0
 126   2007M_07081               $60,000           $8,478    14.13%          $0          $0      $8,478         $0
 127   2007M_07086               $19,680               $0     0.00%          $0          $0          $0         $0
 128   2007M_07088                $5,545               $0     0.00%          $0          $0          $0         $0
 129   2007M_07094               $34,650           $3,150     9.09%          $0          $0      $3,150         $0
 130   2006TO020              $4,386,733         $26,267      0.60%     $19,183          $0          $0     $7,084
FY 2005 - 2007 Totals       $64,049,454        $990,383      1.55%     $685,297    $73,542     $15,242    $216,302




                                                     136
                                                                                    APPENDIX VI

                     Items or Services Requiring Special Approval




         Item or Service                                 Approval Required
Automatic data processing (ADP)    Information Resources Management Division (lRMD)
consulting services
ADP hardware, software, and        lRMD
supplies
Non-personal administrative        Office of General Counsel concurrence and Director, Acquisition
services and advisory and          Management Division approval
assistance services
Non-ADP consulting services        Office of General Counsel concurrence and Director, Acquisition
                                   Management Division approval
Furniture; office equipment; and   Building Support Services Division
office space rental, lease or
purchase
Parking spaces                     Bureau or Office’s Administrative Officer
Printing and related supplies      Building Support Services Division and the Government
                                   Printing Office
Telecommunications equipment       IRMD/Telecommunications
and services
Temporary private sector help      Office of Personnel concurrence




                                               137
                                                                       APPENDIX VII

       Grantees that Received NIJ Grants for Purposes
    Potentially Related to Issues Lobbied by the Grantees

Grantee               General Electric Company
Grant Number          2007-RG-CX-K015
Award Amount          $499,878
Date Awarded          September 12, 2007
General Purpose of    To develop a video-based site surveillance system that will enable
Grant                 unattended remote monitoring of locations such as schools, public
                      parks, prison yards, and public venues.
Lobbying Category     Copyright, Patents, & Trademarks; Federal Budget and
                      Appropriations; Communications/Broadcasting/Radio/Television
Specific Lobbying     Lobbied for various House and Senate appropriations and
Issues Including      authorization bills, including H.R. 3093 FY 2008 Commerce, Justice,
Justice Bills Lobbied Science, and Related Agencies Appropriations; S. 1745
For                   FY 2008 Commerce, Justice, Science, and Related Agencies
                      Appropriations; H.R. 5672 FY 2007 Science, State, Justice,
                      Commerce, and Related Agencies Appropriations. Also lobbied for
                      intellectual property protection and piracy legislation.
Entities Lobbied      Executive Office of the President; House of Representatives;
                      Senate; Department of Justice; Patent & Trademark Office;
                      Department of Defense
Periods Lobbied       January – June 2006; July – December 2006; January – June 2007;
                      July – December 2007
Lobbyist Used         General Electric Company; Robison International; Bartlett & Bendall
                      LLC; Bartlett Bendall & Kadesh; The Eris Group; Michael Mathis

Grantee                 Michigan State University
Grant Number            2007-WG-BX-0012
Award Amount            $319,921
Date Awarded            September 4, 2007
General Purpose of      To perform a study to answer questions related to adolescent
Grant                   victims of sexual assault, sexual assault nurse examiners, and
                        sexual assault response teams.
Lobbying Category       Federal Budget and Appropriations
Specific Lobbying       Lobbied for various appropriations projects, but Justice bills not
Issues Including        specifically stated.
Justice Bills
Lobbied For
Entities Lobbied        House of Representatives; Senate
Periods Lobbied         January – June 2006
Lobbyist Used           Thelen Reid & Priest LLP

Source: Office of Justice Programs’ data and grantee’s lobbying disclosure forms obtained
from the Senate Office of Public Records.




                                            138
Grantee                Michigan State University
Grant Number           2002-GP-CX-1003, Supplement 2
Award Amount           $1,199,998
Date Awarded           September 23, 2005
General Purpose of     To continue training and technical assistance activities and expand
Grant                  research functions related to Project Safe Neighborhoods – a
                       project designed to reduce firearms violence.
Lobbying Category      Science and Technology; Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations and science research projects,
Issues Including       but Justice bills not specifically stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate; Office of Management and
                       Budget; Office of Science and Technology Policy; Department of
                       Energy
Periods Lobbied        January – June 2004; July – December 2004; January – June
                       2005; July – December 2005
Lobbyist Used          BKSH & Associates; Thelen Reid & Priest LLP

Grantee                Research Triangle Institute
Grant Number           2006-DN-BX-K012
Award Amount           $212,344
Date Awarded           September 13, 2006
General Purpose of     To develop and produce a reference material of hair fortified with
Grant                  controlled substances for use by forensic laboratories as controls or
                       calibrators to identify and measure drugs of abuse in hair.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations, healthcare, and science
Issues Including       projects, but Justice bills not specifically stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2005; July – December 2005
Lobbyist Used          Research Triangle Institute International; Greenberg Traurig, LLP

Source: Office of Justice Programs’ data and grantee’s lobbying disclosure forms obtained
from the Senate Office of Public Records.




                                           139
Grantee                Research Triangle Institute
Grant Number           2006-DN-BX-K014
Award Amount           $484,545
Date Awarded           September 13, 2006
General Purpose of     To evaluate the applicability of the direct analysis real time, time of
Grant                  flight mass spectrometer technology to postmortem toxicology
                       analyses.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations, healthcare, and science
Issues Including       projects, but Justice bills not specifically stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2005; July – December 2005
Lobbyist Used          Research Triangle Institute International; Greenberg Traurig, LLP

Grantee                University of Central Florida
Grant Number           2005-MU-MU-K044 Supplement 1
Award Amount           $1,450,000
Date Awarded           September 25, 2006
General Purpose of     To fund the University of Central Florida’s National Center for
Grant                  Forensic Science’s biological science, physical science, digital
                       evidence, and outreach projects.
Lobbying Category      Education
Specific Lobbying      Lobbied for H.R. 2862 Science, State, Justice, and Commerce
Issues Including       Appropriations. Also lobbied for various education and research
Justice Bills          funding projects.
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2005; July – December 2005
Lobbyist Used          The Advocacy Group

Source: Office of Justice Programs’ data and grantee’s lobbying disclosure forms obtained
from the Senate Office of Public Records.




                                           140
Grantee                University of North Texas Health Science Center
Grant Number           2004-DN-BX-K212, Supplement 1
Award Amount           $1,484,782
Date Awarded           September 7, 2005
General Purpose of     To allow the center to further interact with medical examiners,
Grant                  coroners’ offices, the National Center for Missing and Exploited
                       Children, the National Center for Missing Adults, and law
                       enforcement agencies throughout the United States to identify and
                       collect unidentified human remains and reference samples from
                       families with missing loved ones. The goal of the grant is to enter
                       the samples collected into the Combined DNA Index System.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations, but Justice bills not specifically
Issues Including       stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate; Department of Justice;
                       Department of Defense; Department of Energy; and Department of
                       Housing and Urban Development
Periods Lobbied        January – June 2004; July – December 2004
Lobbyist Used          American Continental Group, Inc.

Grantee                University of Central Florida
Grant Number           2006-DN-BX-K005
Award Amount           $174,025
Date Awarded           September 11, 2006
General Purpose of     To fund the repair of double strand breaks in DNA, restoring
Grant                  sufficient genomic integrity to permit DNA typing using a panel of
                       single nucleotide polymorphism loci.
Lobbying Category      Education
Specific Lobbying      Lobbied for various appropriations including H.R. 2862 Science,
Issues Including       State, Justice, and Commerce Appropriations. Also lobbied for
Justice Bills          various education and research funding projects.
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2005; July – December 2005
Lobbyist Used          The Advocacy Group

Source: Office of Justice Programs’ data and grantee’s lobbying disclosure forms obtained
from the Senate Office of Public Records.




                                           141
Grantee                Florida International University
Grant Number           2006-DN-BX-K006
Award Amount           $347,399
Date Awarded           September 11, 2006
General Purpose of     To develop methods to better understand the effects of inhibition
Grant                  and degradation in the recovery of DNA information from casework
                       samples.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for H.R. 5672 FY 2007 Science, State, Justice, and
Issues Including       Commerce Appropriations.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate; and Office of Management and
                       Budget
Periods Lobbied        January – June 2006
Lobbyist Used          Florida International University

Grantee                Florida International University
Grant Number           2003-IJ-CX-K004, Supplement 1
Award Amount           $30,002
Date Awarded           September 16, 2005
General Purpose of     To develop, optimize, and validate Laser Ablation Inductively
Grant                  Coupled Plasma Mass Spectrometry for the examination of glass
                       and paint evidence.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for FY 2005 appropriations, but Justice bills not specifically
Issues Including       stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate; Department of Energy; and
                       National Oceanic and Atmospheric Administration
Periods Lobbied        July – December 2004
Lobbyist Used          Florida International University

Source: Office of Justice Programs’ data and grantee’s lobbying disclosure forms obtained
from the Senate Office of Public Records.




                                           142
Grantee                Michigan State University
Grant Number           2007-DN-BX-0005
Award Amount           $20,000
Date Awarded           July 17, 2007
General Purpose of     To develop automatic fingerprint matching algorithms to
Grant                  discriminate third level friction ridge features such as pores, ridges,
                       contours, dots and incipient ridges, and minutia shape and salient
                       ridge tracing.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations projects, but Justice bills not
Issues Including       specifically stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2006
Lobbyist Used          Thelen Reid & Priest LLP

Grantee                University of Central Florida
Grant Number           2006-DN-BX-K009
Award Amount           $257,134
Date Awarded           September 13, 2006
General Purpose of     To develop and optimize necessary analytical methodologies and
Grant                  conduct an investigation of the trace level synthetic by-products in
                       Triacetone Triperoxide samples as a method of determining the
                       synthetic route and synthetic conditions used in its preparation.
Lobbying Category      Education
Specific Lobbying      Lobbied for various appropriations including H.R. 2862 Science,
Issues Including       State, Justice, and Commerce Appropriations. Also lobbied for
Justice Bills          various education and research funding projects.
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2005; July – December 2005
Lobbyist Used          The Advocacy Group

Source: Office of Justice Programs’ data and grantee’s lobbying disclosure forms obtained
from the Senate Office of Public Records.




                                           143
Grantee                Michigan State University
Grant Number           2007-RG-CX-K183
Award Amount           $260,038
Date Awarded           September 12, 2007
General Purpose of     To study the statistical properties of extended features and to
Grant                  empirically demonstrate the performance gain by combining
                       minutiae and extended features using various fusion schemes.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations projects, but Justice bills not
Issues Including       specifically stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2006
Lobbyist Used          Thelen Reid & Priest LLP

Source: Office of Justice Programs’ data and grantee’s lobbying disclosure forms obtained
from the Senate Office of Public Records.




                                           144
                                                                    APPENDIX VIII

         Sub-grantees that Received Sub-grants from
        NIJ Grantees for Purposes Potentially Related to
              Issues Lobbied by the Sub-grantees

Sub-grantee             Applied Biosystems
Grantee                 University of North Texas Health Science Center
Grant Number            2007-DN-BX-K200
Award Amount            $1,400,000
Date Awarded            September 11, 2007
General Purpose of      To conduct DNA testing on unidentified human remains, family
Grant                   reference, and direct reference samples; enter DNA results into the
                        Combined DNA Index System; and conduct anthropological and
                        dental examinations on the unidentified human remains if required.
Lobbying Category       Science and Technology; Federal Budget and Appropriations
Specific Lobbying       Lobbied for the Commerce, Science, and Justice budget
Issues Including        appropriations for DNA analysis funding at the Office of Justice
Justice Bills           Programs, and for legislative and regulatory issues related to
Lobbied For             genetic research and the application of such research.
Entities Lobbied        House of Representatives; Senate; Department of Justice
Periods Lobbied         January – June 2006; July – December 2006
Lobbyist Used           Applied Biosystems; Smith Alling Lane

Sub-grantee             Applera Corporation 50
Grantee                 University of North Texas Health Science Center
Grant Number            2007-DN-BX-K200
Award Amount            $1,400,000
Date Awarded            September 11, 2007
General Purpose of      To conduct DNA testing on unidentified human remains, family
Grant                   reference, and direct reference samples; enter DNA results into the
                        Combined DNA Index system; and conduct anthropological and
                        dental examinations on the unidentified human remains if required.
Lobbying Category       Law Enforcement and Crime; Criminal Justice
Specific Lobbying       Lobbied for DNA funding, but Justice bills not specifically stated.
Issues Including
Justice Bills
Lobbied For
Entities Lobbied        House of Representatives; Senate; Department of Justice
Periods Lobbied         January – June 2007; July – December 2007
Lobbyist Used           Gordon Thomas Honeywell Governmental Affairs

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




      50
           Applera Corporation is the parent company of Applied Biosystems


                                           145
Sub-grantee            Applied Biosystems
Grantee                Florida Department of Law Enforcement
Grant Number           2006-DN-BX-K167
Award Amount           $1,886,239
Date Awarded           September 5, 2006
General Purpose of     To improve laboratory infrastructure and analysis capacity of
Grant                  existing crime laboratories that conduct DNA analysis so that DNA
                       samples can be processed efficiently and cost effectively.
Lobbying Category      Science and Technology; Federal Budget and Appropriations
Specific Lobbying      Lobbied for the Commerce, Science, and Justice budget
Issues Including       appropriations for DNA analysis funding at the Office of Justice
Justice Bills          Programs; and for legislative and regulatory issues related to
Lobbied For            genetic research and the application of such research.
Entities Lobbied       House of Representatives; Senate; Department of Justice
Periods Lobbied        January – June 2006; July – December 2006
Lobbyist Used          Applied Biosystems; Smith Alling Lane

Sub-grantee            Applera Corporation
Grantee                Florida Department of Law Enforcement
Grant Number           2006-DN-BX-K167
Award Amount           $1,886,239
Date Awarded           September 5, 2006
General Purpose of     To improve laboratory infrastructure and analysis capacity of
Grant                  existing crime laboratories that conduct DNA analysis so that DNA
                       samples can be processed efficiently and cost effectively.
Lobbying Category      Law Enforcement and Crime; Federal Budget and Appropriations
Specific Lobbying      Lobbied for H.R. 2862 Commerce, Science, and Justice budget
Issues Including       appropriations for DNA analysis funding at the Office of Justice
Justice Bills          Programs; and for S. 1606 DNA legislation.
Lobbied For
Entities Lobbied       House of Representatives; Senate; Department of Justice
Periods Lobbied        January – June 2005; July – December 2005
Lobbyist Used          Smith Alling Lane

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




                                          146
Sub-grantee            University of Colorado
Grantee                Research Triangle Institute
Grant Number           2007-DN-BX-K208
Award Amount           $1,586,975
Date Awarded           September 7, 2007
General Purpose of     To develop course materials for forensic scientists in the area of
Grant                  forensic toxicology and controlled substances.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for H.R. 5672 Science, State, Commerce, and Justice
Issues Including       Appropriations funding for forensic research.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        July – December 2006
Lobbyist Used          University of Colorado

Sub-grantee            University of Wisconsin
Grantee                University of Central Florida
Grant Number           2007-DN-BX-K235
Award Amount           $924,445
Date Awarded           September 12, 2007
General Purpose of     To fund the University of Central Florida’s National Center for
Grant                  Forensic Science to provide training to forensic scientists in fire
                       debris analysis, organic chemistry of fire debris, explosive debris
                       analysis, and fire dynamics.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations including H.R. 5672 2007
Issues Including       Commerce, Justice, State, Science Appropriations; and 2008
Justice Bills          Commerce, Justice, Science Appropriations.
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2006; July – December 2006;
                       January – June 2007;
Lobbyist Used          University of Wisconsin – Madison

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




                                           147
Sub-grantee            Florida International University
Grantee                University of Central Florida
Grant Number           2007-DN-BX-K235
Award Amount           $924,445
Date Awarded           September 12, 2007
General Purpose of     To fund the University of Central Florida’s National Center for
Grant                  Forensic Science to provide training to forensic scientists in fire
                       debris analysis, organic chemistry of fire debris, explosive debris
                       analysis, and fire dynamics.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for H.R. 5672 FY 2007 Science, State, Justice, and
Issues Including       Commerce appropriations funding.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate; Office of Management and
                       Budget
Periods Lobbied        January – June 2006
Lobbyist Used          Florida International University

Sub-grantee            University of Utah
Grantee                Research Triangle Institute
Grant Number           2006-DN-BX-K012
Award Amount           $212,344
Date Awarded           September 13, 2006
General Purpose of     To develop and produce a reference material of hair fortified with
Grant                  controlled substances for use by forensic laboratories as controls or
                       calibrators to identify and measure drugs of abuse in hair.
Lobbying Category      Education and Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations including H.R. 2862 Science,
Issues Including       State, Justice, and Commerce Appropriations; and H.R. 5672
Justice Bills          Science, State, Justice, and Commerce Appropriations. Also
Lobbied For            lobbied for research funding.
Entities Lobbied       House of Representatives; Senate; Department of Health and
                       Human Services; Department of Interior; Department of Energy
Periods Lobbied        January – June 2005; July – December 2005;
                       January – June 2006; July – December 2006
Lobbyist Used          Lent Scrivner & Roth; McDermott Will & Emery, LLP; Lent
                       Scrivner & Roth, LLC

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




                                           148
Sub-grantee            Psychemedics Corporation
Grantee                Research Triangle Institute
Grant Number           2006-DN-BX-K012
Award Amount           $212,344
Date Awarded           September 13, 2006
General Purpose of     To develop and produce a reference material of hair fortified with
Grant                  controlled substances for use by forensic laboratories as controls or
                       calibrators to identify and measure drugs of abuse in hair.
Lobbying Category      Alcohol and Drug Abuse
Specific Lobbying      Lobbied for drug and drug abuse testing, but Justice bills not
Issues Including       specifically stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Department of Health and Human
                       Services; White House; Office of Management and Budget.
Periods Lobbied        January – June 2005; July – December 2005; January – June
                       2006; July – December 2006
Lobbyist Used          Hilary Sills

Sub-grantee            Montana State University
Grantee                University of Central Florida
Grant Number           2005-MU-MU-K044, Supplement 1
Award Amount           $1,450,000
Date Awarded           September 25, 2006
General Purpose of     To fund the University of Central Florida’s National Center for
Grant                  Forensic Science’s biological science, physical science, digital
                       evidence, and outreach projects.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for current and prospective legislation affecting Montana
Issues Including       State University. Also lobbied for budget and appropriations for
Justice Bills          science and technology, education, and networking and
Lobbied For            telecommunications. Justice bills not specifically stated.
Entities Lobbied       House of Representatives; Senate; Department of Education;
                       Department of Agriculture; Department of Commerce; Department
                       of Defense; Department of Energy; Environmental Protection
                       Agency; Federal Emergency Management Agency; Department of
                       Health and Human Services; Department of Housing and Urban
                       Development; Department of Interior; Department of Labor;
                       National Aeronautics and Space Administration; National Institute
                       of Health; National Science Foundation; Department of
                       Transportation; Department of Treasury
Periods Lobbied        January – June 2005; July – December 2005;
                       January – June 2006; July – December 2006
Lobbyist Used          Dutko Worldwide, Incorporated; Van Scoyoc Associates,
                       Incorporated; Dutko Worldwide, LLC; Dutko Worldwide; Van
                       Scoyoc Associates

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




                                           149
Sub-grantee            Research Triangle Institute
Grantee                The Urban Institute
Grant Number           2003-DC-BX-1001, Supplement 1
Award Amount           $3,427,055
Date Awarded           December 29, 2004
General Purpose of     To study a sample of participants from a diverse set of drug courts
Grant                  and comparison sites to test: (1) if drug courts reduce offender
                       substance abuse, criminal behavior, and other problems associated
                       with drug abuse; (2) if drug courts influence offenders’ opinions
                       and attitudes; (3) if offender opinions and attitudes affect program
                       compliance and offender drug use and crime; and (4) which
                       characteristics of criminal justice interventions achieved desired
                       changes in offender behavior.
Lobbying Category      Federal Budget and Appropriations; Medical Research and Clinical
                       Labs
Specific Lobbying      Lobbied for various appropriations and research, but Justice bills
Issues Including       not specifically stated.
Justice Bills
Lobbied For
Entities Lobbied       House of Representatives; Senate
Periods Lobbied        January – June 2003; July – December 2003;
                       January – June 2004; July – December 2004
Lobbyist Used          Greenberg Traurig, LLP; Research Triangle Institute

Sub-grantee            University of Tennessee
Grantee                Florida International University
Grant Number           2006-DN-BX-K006
Award Amount           $347,399
Date Awarded           September 11, 2006
General Purpose of     To develop methods to better understand the effect of inhibition
Grant                  and degradation in the recovery of DNA information from casework
                       samples.
Lobbying Category      Federal Budget and Appropriations
Specific Lobbying      Lobbied for various appropriations including H.R. 2862 FY 2006
Issues Including       Science, State, Justice, and Commerce Appropriations funding for
Justice Bills          forensic science; and H.R. 5672 FY 2007 Science, State, Justice,
Lobbied For            and Commerce Appropriations for forensic science.
Entities Lobbied       House of Representatives; Senate; Department of Justice
Periods Lobbied        January – June 2005; July – December 2005;
                       January – June 2006; July – December 2006
Lobbyist Used          University of Tennessee

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




                                           150
Sub-grantee            Applera Corporation
Grantee                Florida Department of Law Enforcement
Grant Number           2005-DA-BX-K047
Award Amount           $1,541,793
Date Awarded           September 19, 2005
General Purpose of     To improve laboratory infrastructure and analysis capacity of
Grant                  existing crime laboratories that conduct DNA analysis so that DNA
                       samples can be processed efficiently and cost effectively.
Lobbying Category      Law Enforcement and Crime; Federal Budget and Appropriations
Specific Lobbying      Lobbied for H.R. 2862 Commerce, Science, and Justice budget
Issues Including       appropriations for DNA analysis funding at the Office of Justice
Justice Bills          Programs; and for S. 1606 DNA legislation.
Lobbied For
Entities Lobbied       House of Representatives; Senate; Department of Justice
Periods Lobbied        January – June 2004; July – December 2004;
                       January – June 2005; July – December 2005
Lobbyist Used          Smith Alling Lane; Smith Alling Lane P.S.

Sub-grantee            Applera Corporation
Grantee                Florida Department of Law Enforcement
Grant Number           2005-DN-BX-K080
Award Amount           $1,338,036
Date Awarded           September 19, 2005
General Purpose of     To fund state and local governments with existing crime
Grant                  laboratories to analyze backlogged forensic DNA casework samples
                       from sexual assaults, homicides, and kidnappings whether in
                       government-owned laboratories or through accredited fee-for-
                       service vendors.
Lobbying Category      Law Enforcement and Crime; Federal Budget and Appropriations
Specific Lobbying      Lobbied for H.R. 2862 Commerce, Science, and Justice budget
Issues Including       appropriations for DNA analysis funding at the Office of Justice
Justice Bills          Programs; and for S. 1606 DNA legislation.
Lobbied For
Entities Lobbied       House of Representatives; Senate; Department of Justice
Periods Lobbied        January – June 2004; July – December 2004; January – June
                       2005; July – December 2005
Lobbyist Used          Smith Alling Lane; Smith Alling Lane P.S.

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




                                          151
Sub-grantee            Applera Corporation
Grantee                Illinois State Police
Grant Number           2005-DA-BX-K053
Award Amount           $1,309,335
Date Awarded           September 19, 2005
General Purpose of     To improve laboratory infrastructure and analysis capacity of
Grant                  existing crime laboratories that conduct DNA analysis so that DNA
                       samples can be processed efficiently and cost effectively.
Lobbying Category      Law Enforcement and Crime; Federal Budget and Appropriations
Specific Lobbying      Lobbied for H.R. 2862 Commerce, Science, and Justice budget
Issues Including       appropriations for DNA analysis funding at the Office of Justice
Justice Bills          Programs; and for S. 1606 DNA legislation.
Lobbied For
Entities Lobbied       House of Representatives; Senate; Department of Justice
Periods Lobbied        January – June 2004; July – December 2004;
                       January – June 2005; July – December 2005
Lobbyist Used          Smith Alling Lane; Smith Alling Lane P.S.

Source: Office of Justice Programs’ data and sub-grantee’s lobbying disclosure forms
contained on the Opensecrets.org website.




                                          152
                                                                                          APPENDIX IX

  OFFICE OF JUSTICE PROGRAMS’ RESPONSE
       TO THE DRAFT AUDIT REPORT
                                                           U.S. O" pa r tm ent or Justice

                                                           Dilice of J u.~ti ee Program!>

                                                           Office of rllf! Aui.I'ulllr Altol'lIey Gt'n f!ml




   SEP 1 5 iOO9

MEMORANDUM TO:                 Glenn A. Fine
                               Inspector Ocner-.lI
                               United S lates Ocpartmcnl of Justice

THROUG H:                      Raymond J, Beaudet
                               Assistant Inspector General fo r Audit
                               Office of the Inspl!C tor General
                               United States I~pa,.trn<! n t of Just.icc

FROM:                          Mary Lou Leary        ,-~- \..,-"
                               Acting Assistant Attorney General

SURJRCT:                       Response to Offiee ofthc Inspector General's Droft Audit Report,
                               11,e Nutionallttfllilite ofllt.f/icr! '.$ Praclicl!.tjiJr A K!(jrJi"g   Gronl.~
                               lmd CunlrucU I" Fi.fcal )'ears 2005 (hrtJuxh 21J07

lbis memorandum provides a response to the recommendations directed to the omcc of Justice
Programs (OJP) included in the OfTice of the Inspector General's (OtG's) drun nutlit report
entitk-d. The Nmionulln,I'(j(lIle (~f.lllsticc '.\' PI'ucllccs for A warding Grams and Contracts ill
FhcaJ Yea/'s 2005 IhrulIgh 20U7. The dmil lIudit report contains ni ne recommendations and no
questioned costs directed to OJ!>.

The recommendations highlight key aspects orthe National Instilut!! or Justice's (NIPs) practices
tholt must be;! strengthened. For instance, the report notes aspects ofNU's proco::sscs where there
was inco mple te documentation, inadequate processes to e ns ure ovcfSight, or processes whieh
railed to nvoid all appearances ofa c.:onnic t of interest. These weaknesses are incons istent wi th
Nlrs abiding commitment to fair and open competition in the pursuit o f the highest qual ity
researc h. NU's leadcrship team lJas cummiltw itself to fully addressing each of these
weaknesses in the administrative processo::s and to comply!!' g in full with each of lhc
recommendations in this report.

Nfl hll S a lready lak!!n several steps that address the recomme ndations of this report. For
example, l iS of the 2009 uwurd season, funding memoranda documen ting a ll aWllrding decisions
have been attached to eac h application in the Grllnts Manllgcmt:nt System (OMS). These funding
memorandll are s igned by eilher the Assistam Attorney Gellcral for OJI' or the Dirt-octor ofNU,
depe nding on the funding source a ppl ied. When an application other tha n the highest scoring




                                               153

application (based on peer review scores) was selected, NlJ provided a writtenjustiJication for
that selection. Beginning in 2009, this additional documentation on each non-formula
discretionary grant award is attached to the grant award tile in GMS.

The measures already in place and the steps already taken since 2005-2007 (the focus of this
report) are incorporated into our response to each of the recommendations below. For case of
review, the recommendations arc statcd in bold beluw and are followed by OlP's response.

1.     Establish procedures to ensure that key aspects of the pre-award and award process
       for grants and cooperative agreements are documented, such as:

           •   identifying and working with OJP's Office of General Counsel to remedy any
               conflicts of interest, or the appearance of conflicts of interest, among agency
               staff involved in the pre-award evaluation process;
           •   maintaining Disclosure of Conniet of Interest forms for peer reviewers
               selected to review grant applications and ensuring that peer reviewers arc
               not allowed to participate when they identify conflicts of interest;
           •   maintaining the NIJ Director's approved list of peer reviewers for each
               solicitation and ensuring that peer reviewers selected are on the approved
               list;
           •   maintaining individual peer review comments or evidence that the peer
               reviewers agree with the peer review consensus report; and
           •   ensuring that the reasons for denying applications are accurately recorded in
               GMS and that copies of rejection letters sent to rejected applicants are
               maintained.

       OlP agrees with this recommendation. To address the clements of this recommendation,
       NIJ will fully implement the following actions, many of which arc already in progress.

           •   Beginning in fiscal year (FY) 20 I 0, NIJ will requirc that all staff involved in the
               pre-award evaluation process (including Program Managers, Division Chiefs, and
               Deputy Directors) sign a Conflict oflntcrest (COl) form. The form will be
               dcveloped in collaboration with thc OJP's Office ufthe General Counsel (OGC)
               and will be retained in a centralized location by NIJ's Planning, Budget,
               Management, and Administration (PBMA) Division.

           •   NIJ will work with the OJP Designated Agency Ethics Official and OGC to
               provide targeted ethics training directed at NIJ and thoroughly review the OOE
               Standards or Ethieal Conduct applicable to all Federal employees. This training
               will specifically discuss the issues surrounding spousal contlicts of interest. Of
               particular importance in this training will be discussion of appropriate filing and
               review ofOGE Form 450, the Confidential Financial Disclosure Report form, the
               standard f0n11 hy which program managers are able to identity potential conflicts


                                                 2




                                               154

    of interest. Special emphasis will be placed on how managers must use these
    fonns to direct subordinate work flows to avoid potential conflicts ofintcrest.
    This training will be completed by December 2009.

•   Bell)fe thc FY 2010 award season, NIJ will work with the OJP Designated
    Agency Ethics Official and OGC to review the peer review processes currently
    used by NIJ for both peer review of applications and peer review of work
    products, and make necessary changes to ensure consistent application of
    appropriate conflict of interest provisions in peer review standards.

•   By December 2009, for each instance of a potential conflict of interest identified
    in the report, NIJ will work with the OJP Designated Agency Ethics Ofticial and
    OGC to review the issue and will take appropriate action.

•   Starting in FY 2008, the Omce of Audit, Assessment, and Management (OAAM),
    through its peer review contractor, began collecting and retaining a COl form for
    each peer reviewer. Before the FY 2010 award season, in collaboration with
    OAAM, NlJ will establish a consistent process to resolve any COl that is
    identified on the forms. As a longer-telm solution for collecting and retaining
    COl documentation, OAAM will explore the possibility of modifYing OMS to
    allow for attachments at the solicitation level, which will allow for electronic
    retention of these documents.

•   Before the FY 2010 award season, NIJ will develop a process to ensure that
    documentation is maintained to support the NIJ Director's review and approval of
    peer reviewer lists for each NIJ solicitation. If additional reviewers are needed, the
    solicitation program manager will prepare an addendum and request approval
    from the Director to add those reviewers to the reviewer pool. The original list,
    addenda, and record of approval will be retained in a centralized location by NIJ's
    PBMA Division.

•   Before the FY 2010 award season, OAAM will work with the peer review
    contractor to ensure that formal concurrence on consensus reviews is obtained
    from each peer reviewer and maintained in GMS.

•   Beginning in FY 2009, OJP began maintaining a copy of the approved denial
    notilication for each application affected in GMS. Before the FY 2010 award
    season, Nil will provide training to all program managers and grant processing
    staff regarding receipt and initial review of applications, including policics
    regarding the denial of non-responsive applications. To ensure that decisions arc
    adequately documented, the responsible program manager will submit for
    approval to the Deputy Director a list of all applications to be denied, along with
    the denial reason for each application.


                                      3




                                   155

2.   Establish procedures to ensure that key aspects of the pre-award and award process
     for contracts are documented, such as:

         •   completion of requisitions,
         •   completion of fund certifications, and
         •   identifying and remedying conflicts of interest among individuals involved in
             evaluating proposals.

     OJP agrees with this recommendation. In FY 2009, OJP' s Office of Administration,
     Acquisition Management Division (AMD), began using contract tile compliance
     checklists to ensure that critical documents related to pre-solicitation, contract
     modification, and deli very/task order activities are collected and maintained . The
     checklist already requires that contract files contain requisition and cenificalion of funds
     documentation . By November 2009, AMD will revise the checklists to ensure that
     conflict of interest determinations for individuals involved in evaluating proposa ls are
     documented.

3.   Establish procedures to ensure that the required lobbying disclosure forms are
     submitted for all grantees, sub-grantees, and contractors and that the disclosures
     are considered when evaluating grant applications for award.

     OJP agrees with this recommendation. By December 2009. OAAM wi ll establish
     procedures to ensure that required lobbying disclosure forms arc submitted for all
     grantees and subMgrant ecs, and that the disclosures are considered when evaluating grant
     applications for award.

4.   Ensure th'lt the Office of Audit, Assessment, and Management periodically reviews
     the NlJ's process for awarding grants to ensure that NIJ grants arc awarded based
     on fair and open competition.

     OJP agrees with the recommendation and will develop procedures to assess whether
     grants arc awarded based on fair and open competition OJP-wide, not just in NI1.
     Specifically, by December 2009, OAAM will develop procedurcs to ensure that its
     program assessments, which arc conducted of grant programs OJP-widc) include a review
     to determine whether gra nts arc awarded based on fair and open competition. l3y
     December 2009, OAAM will also develop procedures to monitor ongoing compliance
     with OJP's policies regarding fair and open competition through intcmal control
     assessments conducted in acco rdance with omce of Management and Budget Circ ular
     A-123, Management '" Re.ll'onsibililyfi" Internal Control.




                                              4




                                            156

5.   Require the NIJ to document the basis for non-competitive grant awards and issue
     guidelines for what constitutes a reasonable basis for making non-competitive grant
     awards.

     OJP agrees with thi s recommendation. By December 2009, NIJ will develop guidelines on
     what constitutes a reasonab le justification for making a non-competitive sole so urce
     award, as well as fo r makin g a non-competitive award on a basis other than solt: source
     (e.g., to meet Cungressional intent or to supplement an existing award that was originally
     competed).

     Continuing a process begun in FY 2009, N IJ will cnsurc that funding decision
     memoranda to document justilication fo r each award and approval (as appropriate) by
     either the Assistant Attorney General for OJP or the Director ofNIJ fo r all NlJ
     discretio nary awa rds, will be attached to the grant application and retained in GMS.

6.   Rcquirc thc NIJ to asscss the independence of grant applicants for performing
     research studies before awarding the grants.

     OJP agrees with thi s recommendation. By Decemher 2009, in collaboration with (JGC
     and OAAM, NIJ will develop language to be included in each solicitation that will require
     each applicant to provide an assurance of independence regarding the research study
     proposed. This assurance will be evaluated by peer reviewers and in internal reviews,
     along with other review criteria for grant award recommendations and decisions.

7.   Require the NIJ to document the has is for requiring grantees to usc specilic
     sub-grantees to perform work related to the grants.

     OlP agrees with this recommendation. Beginning in FY 20 10, NIJ will require that the
     basis for any stich action requiring grantees to usc specific sub-grantees to perform work
     related to the grants is doc umented in GMS through a Sole Source Grant Adjustment
     Notice.

8.   Ensure that non-competiti,'e justifications for contract awards fully explain the
     circumstances that led to the sole-source awards.

     OJP agrees with this recommendation. In February 2009, OA issued its Acquisition
     Planning Guide (Guide) to all OlP Contracting Officers, Contracting Ollleer's Technical
     Representatives (COTRs), and Project Monitors/Program Officers, which clearly defines
     the requirements for thoughtfu l, comprehensive, and timel y planning fo r acquisitions to
     meet OlP's purchasing objectives and ensure suffici ency of documentation pursuant to
     the requireme.nts of the Competition in Contracting Act. In April and May 2009, AMD
     facilitated acqui sition planning training for OJI' Contracting Officers, COTRs, and



                                              5




                                           157

        Project Monitors/Program Officers. To ensure that justifications fo r non-competitive
        awards fully explain the circumstances that Icd to the sole-source awards, by
        Novermber 2009, OJP Contracting Oftiecrs will be reminded ortbeir responsibility to
        ensure that "Justilicatioll for Other than Full and Open Competition" prepared by
        program offices are adequately justified for awarding procurements with no, or very
        limited, competition .

9.      Ensure that the final approved grant budgets for formula grants arc maintained in
        GMS and that the budgets match the amount of funds awarded to the grantees.

        OJP agrees with this recommendation. By December 2009, N IJ, in conjunction with the
        OJP Omce of the Chief Financial Officer and OAAM, will develop a process to ensure
        that the tinal approved grant budgets for tormula gral1ls arc maintained in GMS and that
        the budgets match the amount of funds awarded to the grantees.

N Il' s leadership understands that the quali ty of its research cannot be separated from the integrity
of the agency's grant-making processes: they are inexorably linked. NU will continue to seek
ways to strengthen and improve its external review processes and its internal controls so that the
best research with the greatest potential is always supported. Each year, NIJ weighs the scientific
merit, the potential knowledge ga in, and the overall competitive value of each grant application
submitted for possible funding. Even applications in fulfillment of Congressionally directed
funding have been routinely submitted for external review as a means to safeguard the grant­
making process and to ensure the highest return on NIl's grant investments. Whether the
application is solicited by NIJ, submitted in response to Congressionally directed funding, or
submitted by a current grantee for supplemental funding, each application must meet the high bar
of scientific merit and objective value to the field. Because strong grant-making processes arc
essential to funding good research. NIJ is committed to maintaining those processes I.hat work
and to strengthening the controls and administrative procedures wherever they can be improved.

Thank you for your continued cooperation. lr you have any questions regarding this response,
please contact Maureen A. Henncbcrg, Director, Office of Audit, Assessment, and Management,
on (202) 616-3282.

cc:     Beth McGarry
        Deputy Assistant Attorney General
         for Operations and Management

       Kristina Ro se
       Acting Director
       National Institute of Justice




                                                  6




                                                158

cc:   Phillip Merkle
      Director
      Office of Administration

      Marcia K. Paull
      Chief Financial Offieer

      Maureen A. Hennebcrg
      Director
      Offiee of Audit, Assessment, and Management

      Richard P. llleis
      Assistant Director, Audit Liaison Group
      Justice Management Division




                                                7




                                          159

                                                                APPENDIX X

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the OJP for review and
comment. The OJP’s response is incorporated in Appendix IX of this report.
The following provides the OIG’s analysis of the response and summary of
actions necessary to close the report.

Recommendation Number:

1. Resolved. OJP concurred with our recommendation to establish
   procedures to ensure that key aspects of the pre-award and award
   process for grants and cooperative agreements are documented.

  In its response, OJP provided the status of corrective actions that it had
  implemented or that it planned to implement.

     •   Beginning in FY 2010, the NIJ will require that all staff involved in
         the pre-award evaluation process sign a Conflict of Interest form.
         The form will be developed in collaboration with the OJP’s Office of
         the General Counsel and will be retained in a centralized location by
         NIJ’s Planning, Budget, Management, and Administration Division.

     •   The NIJ will provide targeted ethics training to its employees that
         will specifically discuss the issues surrounding spousal conflicts of
         interest and the appropriate filing and review of the Confidential
         Financial Disclosure Report form. The training will emphasize how
         managers must use the form to assign work of subordinates to
         avoid potential conflicts of interest. The NIJ plans to complete this
         training by December 2009.

     •   Before the FY 2010 award season, the NIJ will review its current
         peer review processes for both peer review of applications and peer
         review of work products, and make necessary changes to ensure
         consistent application of appropriate conflict of interest provisions in
         peer review standards.

     •   By December 2009, for each instance of a potential conflict of
         interest identified in the OIG report, the NIJ will review the issue
         and take appropriate action.




                                      160
     •   Starting in FY 2008, the OJP’s Office of Audit, Assessment, and
         Management (OAAM), through its peer review contractor, began
         collecting and retaining a Conflict of Interest form for each peer
         reviewer. Before the FY 2010 award season, in collaboration with
         the OAAM, the NIJ will establish a consistent process to resolve any
         conflict of interest identified on the forms. As a longer-term
         solution for collecting and retaining conflict of interest
         documentation, the OAAM will explore the possibility of modifying
         OJP’s Grants Management System (GMS) to allow for attachments
         at the solicitation level, which will allow for electronic retention of
         these documents.

     •   Before the FY 2010 award season, the NIJ will develop a process to
         ensure that documentation is maintained to support the NIJ
         Director’s review and approval of peer reviewer lists for each NIJ
         solicitation. If additional reviewers are needed, the solicitation
         program manager will prepare an addendum and request approval
         from the Director to add those reviewers to the reviewer pool. The
         original list, addenda, and record of approval will be retained in a
         centralized location by NIJ’s Planning, Budget, Management, and
         Administration Division.

     •   Before the FY 2010 award season, the OAAM will work with the peer
         review contractor to ensure that formal concurrence on consensus
         reviews is obtained from each peer reviewer and maintained in
         GMS.

     •   Beginning in FY 2009, OJP began maintaining a copy of the
         approved denial notification for each application affected in GMS.
         Before the FY 2010 award season, the NIJ will provide training to all
         program managers and grant processing staff regarding receipt and
         initial review of applications, including policies regarding the denial
         of non-responsive applications. To ensure that decisions are
         adequately documented, the responsible program manager will
         submit for approval to the Deputy Director a list of all applications
         to be denied along with reasons for denial.

  This recommendation can be closed when we receive documentation
  showing the above stated corrective actions have been completed.

2. Resolved. OJP concurred with our recommendation to establish
   procedures to ensure that key aspects of the pre-award and award
   process for contracts are documented, such as:



                                      161
     •   completion of requisitions,
     •   completion of fund certifications, and
     •   identifying and remedying conflicts of interest among individuals
         involved in evaluating proposals.

  In its response, OJP stated that in FY 2009 OAAM began using contract
  file compliance checklists to ensure that critical documents related to
  pre-solicitation, contract modification, and delivery and task order
  activities are collected and maintained. The checklist requires that
  contract files contain requisition and certification of funds documentation.
  By November 2009, the OAAM will revise the checklists to ensure that
  conflict of interest determinations for individuals involved in evaluating
  proposals are documented.

  This recommendation can be closed when we receive a copy of the
  revised checklist showing that it covers the completion of requisitions and
  fund certifications, as well as the identification and resolution of conflicts
  of interest among individuals involved in evaluating proposals.

3. Resolved. OJP concurred with our recommendation and stated that by
   December 2009 the OAAM will establish procedures to ensure that
   required lobbying disclosure forms are submitted for all grantees and
   sub-grantees and that the disclosures are considered when evaluating
   grant applications for award.

  This recommendation can be closed when we receive a copy of OAAM’s
  procedures for ensuring that required lobbying disclosure forms are
  submitted and that the disclosures are considered when evaluating grant
  applications for award.

4. Resolved. OJP concurred with our recommendation to ensure that OAAM
   reviews the NIJ’s process for awarding grants to ensure that NIJ grants
   are awarded based on fair and open competition.

  OJP stated that it will develop procedures to assess whether grants are
  awarded based on fair and open competition OJP-wide, not just in the
  NIJ. Specifically, by December 2009 the OAAM will develop procedures to
  ensure that its program assessments, which are conducted of grant
  programs across OJP, include a review to determine whether grants are
  awarded based on fair and open competition. By December 2009, the
  OAAM will also develop procedures to monitor ongoing compliance with
  OJP’s policies regarding fair and open competition through internal control
  assessments conducted in accordance with Office of Management and
  Budget (OMB) Circular A-123.


                                     162
  This recommendation can be closed when we receive a copy of OAAM’s
  procedures for: (1) ensuring that its program assessments across OJP
  include a review to determine whether grants are awarded based on fair
  and open competition; and (2) monitoring ongoing compliance with OJP’s
  policies regarding fair and open competition through internal control
  assessments conducted in accordance with OMB Circular A-123.

5. Resolved. OJP concurred with our recommendation to require the NIJ to
   document the basis for non-competitive grant awards and issue
   guidelines for what constitutes a reasonable basis for making
   non-competitive grant awards.

  OJP stated that by December 2009 the NIJ will develop guidelines on what
  constitutes a reasonable justification for making a non-competitive sole
  source award, as well as for making a non-competitive award on a basis
  other than sole source. OJP also stated that continuing a process begun in
  FY 2009, the NIJ will ensure that funding decision memoranda to
  document justification for each award and approval will be attached to the
  grant application and retained in GMS.

  This recommendation can be closed when we receive: (1) a copy of the
  NIJ’s guidelines that define what constitutes a reasonable justification for
  making a non-competitive sole source award, as well as for making a
  non-competitive award on a basis other than sole source; and
  (2) documentation showing that funding-decision memoranda to
  document justification awards and approvals are attached to the grant
  application and retained in GMS.

6. Resolved. OJP concurred with our recommendation to require the NIJ to
   assess the independence of grant applicants for performing research
   studies before awarding the grants.

  OJP stated that by December 2009 the NIJ will develop language to
  be included in each solicitation that will require each applicant to
  provide an assurance of independence regarding the research study
  proposed. This assurance will be evaluated by peer reviewers and
  in internal reviews.

  This recommendation can be closed when we receive
  documentation showing that: (1) the NIJ has developed language
  for inclusion in solicitations that require each applicant to provide
  an assurance of independence regarding the research study
  proposed, (2) the language has been included in a recent


                                     163
   solicitation, and (3) the NIJ has established procedures that require
   peer reviewers and internal reviewers to evaluate the assurance
   provided by the applicants.

7. Resolved. OJP concurred with our recommendation to require the NIJ to
   document the basis for requiring grantees to use specific sub-grantees to
   perform work related to the grants.

   OJP stated that beginning in FY 2010 the NIJ will require that the basis
   for any such action requiring grantees to use specific sub-grantees to
   perform work related to the grants is documented in GMS through a Sole
   Source Grant Adjustment Notice.

   This recommendation can be closed when we receive a copy of the NIJ’s
   procedures that require that the basis for any action requiring grantees to
   use specific sub-grantees to perform work related to grants is
   documented in GMS through a Sole Source Grant Adjustment Notice.

8. Resolved. OJP concurred with our recommendation to ensure that
   non-competitive justifications for contract awards fully explain the
   circumstances that led to the sole-source awards.

   OJP stated that in February 2009 its Acquisition Management Division
   issued its Acquisition Planning Guide to all OJP Contracting Officers,
   Contracting Officer’s Technical Representatives, and Project
   Monitors/Program Officers, which defines the requirements for
   comprehensive and timely planning for acquisitions to meet OJP’s
   purchasing objectives and ensure sufficiency of documentation pursuant
   to the requirements of the Competition in Contracting Act. In April and
   May 2009, the Acquisition Management Division facilitated acquisition-
   planning training for OJP contracting officials. To ensure that
   justifications for non-competitive awards fully explain the circumstances
   that led to sole-source awards, by November 2009 OJP will remind its
   Contracting Officers of their responsibility to ensure that program offices
   complete an adequate “Justification for Other than Full and Open
   Competition” before awarding procurements with no or very limited
   competition.

   This recommendation can be closed when we receive a copy of the
   reminder that OJP sends to its Contracting Officers reiterating their
   responsibility to ensure that “Justification for Other than Full and Open
   Competition” prepared by program offices are adequately justified for
   awarding procurements with no, or very limited, competition.



                                     164
9. Resolved. OJP concurred with our recommendation to ensure that the
   final approved grant budgets for formula grants are maintained in GMS
   and that the budgets match the amount of funds awarded to the
   grantees.

  OJP stated that by December 2009 the NIJ, in conjunction with the OJP
  Office of the Chief Financial Officer and the OAAM, will develop a process
  to ensure that the final approved grant budgets for formula grants are
  maintained in GMS and that the budgets match the amount of funds
  awarded to the grantees.

  This recommendation can be closed when we receive a copy of the
  procedures established by the NIJ to ensure that the final approved grant
  budgets for formula grants are maintained in GMS and that the budgets
  match the amount of funds awarded to the grantees.




                                    165
